DOCKET NO. ______
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
═════════════════════════════════
HARRY FRANKLIN PHILLIPS
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
═════════════════════════════════

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

═════════════════════════════════
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
═════════════════════════════════
CAPITAL CASE

INDEX TO APPENDIX
APPENDIX A: Opinion of the Florida Supreme Court Under Review, Phillips v. State,
299 So.3d 1013 (Fla. 2020)……………………………………………………………….001a
APPENDIX B: Order of the Florida Supreme Court Denying Rehearing, Case No:
SC18-1149 (Aug. 14, 2020)……………………………………………………………….011a
APPENDIX C: Petitioner’s Motion for Rehearing, Case No: SC18-1149 (June 14,
2020)…………………………………………………………………………………………012a
APPENDIX D: Order Denying Defendant’s Successive Motion to Vacate Judgement
of Conviction and Sentence, State v. Phillips, Circuit Court of the Eleventh Judicial
Circuit in and for Miami-Dade County, Florida, Case No. 83-435 (June 14,
2018)…………………………………………………………………………………………027a
APPENDIX E: Opinion of the Florida Supreme Court Affirming the Circuit Court’s
Denial of Intellectual Disability, Phillips v. State, 984 So.2d 503 (Fla. 2008)……..033a
APPENDIX F: Order Denying Defendant’s Successive Motion to Vacate Judgement
of Conviction and Sentence, State v. Phillips, Circuit Court of the Eleventh Judicial
Circuit in and for Miami-Dade County, Florida, Case No. 83-435 (May 5, 2006)….040a
APPENDIX G: Opinion of the Florida Supreme Court Affirming Denial of
Postconviction Relief as Revised on Denial of Rehearing, Phillips v. State, 894 So.2d
28 (Fla. 2004)……………………………………………………………………………….085a
APPENDIX H: Opinion of the Florida Supreme Court Affirming Direct Appeal,

Phillips v. State, 705 So.2d 1320 (Fla. 1997)……………………………………………097a
APPENDIX I: Opinion of the Florida Supreme Court Remanding for Resentencing,

Phillips v. State, 608 So.2d 778 (Fla. 1992)…………………………………………….101a

APPENDIX J: Opinion of the Florida Supreme Court on Direct Appeal, Phillips v.
State, 476 So.2d 194 (Fla. 1985)………………………………………………………….106a

Phillips v. State, 299 So.3d 1013 (2020)

APPENDIX A

299 So.3d 1013
Supreme Court of Florida.

Harry Franklin PHILLIPS, Appellant,
v.
STATE of Florida, Appellee.
No. SC18-1149
|
May 21, 2020
Synopsis
Background: Prisoner under sentence of death, whose
conviction for first-degree murder was affirmed on direct
appeal, 705 So. 2d 1320, filed successive motion for
postconviction relief. The Circuit Court, 11th Judicial Circuit,
Miami-Dade County, Nushin G. Sayfie, J., denied the motion,
and prisoner appealed.

Holdings: The Supreme Court held that:
holding of United States Supreme Court in Hall v. Florida
did not constitute a development of fundamental significance,
and therefore did not apply retroactively, receding from Walls
v. State, 213 So. 3d 340;
federal law did not operate to require retroactive application
of the holding of the United States Supreme Court in Hall v.
Florida; and
the court in Walls v. State clearly erred in concluding that the
holding of United States Supreme Court in Hall v. Florida
constituted a development of fundamental significance, and
therefore applied retroactively.

001a

Attorneys and Law Firms
Neal Dupree, Capital Collateral Regional Counsel, William
M. Hennis III, Litigation Director, and Marta Jaszczolt,
Staff Attorney, Capital Collateral Regional Counsel, Southern
Region, Fort Lauderdale, Florida, for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and
Lisa-Marie Lerner, Assistant Attorney General, West Palm
Beach, Florida, for Appellee
Opinion
PER CURIAM.
*1015 Harry Franklin Phillips, a prisoner under sentence of
death, appeals the circuit court's order summarily denying his
successive motion for postconviction relief, which was filed
under Florida Rule of Criminal Procedure 3.851. We have
jurisdiction. See art. V, § 3(b)(1), Fla. Const.
Phillips murdered Bjorn Thomas Svenson in 1982, and his
conviction and death sentence for that crime became final in
1998. A postconviction court in 2006 fully adjudicated and
denied Phillips's claim that he is intellectually disabled and,
under the rule of Atkins v. Virginia, 536 U.S. 304, 122 S.Ct.
2242, 153 L.Ed.2d 335 (2002), constitutionally ineligible
for the death penalty. We affirmed the denial of Phillips's
intellectual disability claim in 2008. Phillips now seeks yet
another determination of his intellectual disability, relying in
part on this Court's decision in Walls v. State, 213 So. 3d 340
(Fla. 2016), in which we held that the United States Supreme
Court's decision in Hall v. Florida, 572 U.S. 701, 134 S.Ct.
1986, 188 L.Ed.2d 1007 (2014), is retroactive to cases where
there has already been a finding that the defendant is not
intellectually disabled.
For the reasons we explain, we affirm the circuit court's denial
of relief. We also recede from our prior decision in Walls.

Affirmed.
Labarga, J., filed dissenting opinion.
*1014 An Appeal from the Circuit Court in and for
Miami-Dade County, Nushin G. Sayfie, Judge - Case No
131983CF0004350001XX

I. BACKGROUND
The facts of the case were summarized on direct appeal as
follows:
In the evening of August 31, 1982, witnesses heard several
rounds of gunfire in the vicinity of the Parole and Probation
building in Miami. An investigation revealed the body of
Bjorn Thomas Svenson, a parole supervisor, in the parole

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

002a

Phillips v. State, 299 So.3d 1013 (2020)

building parking lot. Svenson was the victim of multiple
gunshot wounds. There apparently were no eyewitnesses
to the homicide.
As parole supervisor, the victim had responsibility over
several probation officers in charge of appellant's parole.
The record indicates that for approximately two years
prior to the murder, the victim and appellant had repeated
encounters regarding appellant's unauthorized contact with
a probation officer. On each occasion, the victim advised
appellant to stay away from his employees and the parole
building unless making an authorized visit. After one
incident, based on testimony of the victim and two of his
probation officers, appellant's parole was revoked and he
was returned to prison for approximately twenty months.
On August 24, 1982, several rounds of gunfire were shot
through the front window of a home occupied by the
two probation officers who had testified against appellant.
Neither was injured in the incident, for which appellant was
subsequently charged.
Following the victim's murder, appellant was incarcerated
for parole violations. Testimony of several inmates
indicated that appellant told them he had killed a parole
officer. Appellant was thereafter indicted for first-degree
murder.
Phillips v. State, 476 So. 2d 194, 195-96 (Fla. 1985). Phillips
was convicted of the first-degree murder of Svenson and
sentenced to death. Id. at 197. His conviction and sentence
were affirmed on direct appeal, id., but on collateral review,
this Court reversed the death sentence and remanded for a new
penalty phase based on a finding that counsel was ineffective
in the penalty phase, Phillips v. State, 608 So. 2d 778 (Fla.
1992). After a new penalty phase in 1994, the jury returned
a recommendation of death by a vote of seven to five, and
Phillips was again sentenced to death, which was affirmed on
appeal. *1016 Phillips v. State, 705 So. 2d 1320, 1321, 1323
(Fla. 1997), cert. denied, 525 U.S. 880, 119 S.Ct. 187, 142
L.Ed.2d 152 (1998). We later affirmed the denial of Phillips's
initial motion for postconviction relief after resentencing and
denied his petition for a writ of habeas corpus. Phillips v.
State, 894 So. 2d 28, 31 (Fla. 2004). And we have affirmed
the denial of his prior successive motions for postconviction
relief. Phillips v. State, 234 So. 3d 547, 548 (Fla.) (affirming
denial of successive motion for postconviction relief based on
Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616, 193 L.Ed.2d
504 (2016), and Hurst v. State, 202 So. 3d 40 (Fla. 2016)),
cert. denied, ––– U.S. ––––, 139 S. Ct. 187, 202 L.Ed.2d 114
(2018); Phillips v. State, 91 So. 3d 783 (Fla. 2012) (affirming

denial of successive motion for postconviction relief based
on the claim that Phillips's sentence violates the Sixth and
Eighth Amendments under Porter v. McCollum, 558 U.S. 30,
130 S.Ct. 447, 175 L.Ed.2d 398 (2009)); Phillips v. State, 996
So. 2d 859 (Fla. 2008) (affirming denial of successive motion
for postconviction relief and denial of motion to interview
jurors); Phillips v. State, 984 So. 2d 503 (Fla. 2008) (affirming
finding that Phillips is not intellectually disabled).
During Phillips's initial postconviction proceedings after
resentencing, Phillips filed a “Notice of Supplemental
Authority and Motion for Permission to Submit Supplemental
Briefing” related to the United States Supreme Court's
decisions in Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428,
153 L.Ed.2d 556 (2002), and Atkins, and this Court permitted
supplemental briefing on the intellectual disability issues
under Atkins. Phillips, 894 So. 2d at 34. We affirmed the
denial of postconviction relief and denied the habeas petition,
but regarding his claim of intellectual disability, we noted that
“Phillips [was] free to file a motion under rule 3.203” but
expressed “no opinion regarding the merits of such a claim.”
Id. at 40. We later relinquished jurisdiction for a determination
of intellectual disability pursuant to Florida Rule of Criminal
Procedure 3.203. Phillips, 984 So. 2d at 506.
At an evidentiary hearing on Phillips's intellectual disability
claim in 2006, the circuit court permitted Phillips to present
evidence regarding all three prongs of the intellectual
disability standard and concluded that Phillips failed to prove
by clear and convincing evidence that he met any of the
three prongs of the statutory intellectual disability standard
(intellectual functioning, adaptive behavior, and onset before
age eighteen) and therefore was not intellectually disabled. Id.
at 509. In 2008, this Court upheld the circuit court's findings
that Phillips failed to establish that he met any of the three
prongs and affirmed the denial of relief based on his claim of
intellectual disability. Id. at 513.
Phillips filed the instant successive motion for postconviction
relief in 2018 seeking a new determination of his claim that he
is ineligible for the death penalty due to intellectual disability
in light of the decisions in Hall, Walls, and Moore v. Texas,
––– U.S. ––––, 137 S. Ct. 1039, 197 L.Ed.2d 416 (2017).
Phillips contended that the prior denial of his intellectual
disability claim must be reheard and determined under new
constitutional law that, according to Phillips, requires a court
to holistically consider all three prongs of the intellectual
disability standard.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

003a

Phillips v. State, 299 So.3d 1013 (2020)

At a case management conference held in the circuit court
on Phillips's motion, Phillips argued that in light of Hall and
Walls, and a new evaluation report prepared by Dr. Denis
Keyes, who had testified at the 2006 hearing, he is entitled
to a new evidentiary hearing. Alternatively, Phillips requested
that the circuit court reevaluate the evidence presented at the
2006 hearing along with Dr. Keyes's new report, although
Phillips conceded that *1017 there was no new evidence of
intellectual disability in this case and that Dr. Keyes did not
change his opinion in his updated report. The circuit court
abruptly decided during the case management conference
that it would review de novo the entire record from the
2006 hearing1 and Dr. Keyes's new report before making any
decision on Phillips's motion.
1

Because it is not germane to our analysis or conclusion
today, we make no comment on the propriety of the
circuit court's decision to conduct a de novo review of
the record of the 2006 evidentiary hearing or of the new
credibility determinations it made regarding witnesses
who testified in 2006 based on the cold record.

On June 14, 2018, the circuit court entered an order denying
an evidentiary hearing and denying relief. But in its 2018
order, the circuit court also made new findings regarding the
evidence presented at the 2006 evidentiary hearing. First, it
concluded that because Hall requires that courts take into
account the standard error of measurement (SEM), which
is “plus or minus five points” and “[a]n IQ of up to 75
would meet the definition of [intellectual disability],” Phillips
“has clearly proven the first prong by clear and convincing
evidence,” because the IQ scores presented in 2006 were
70, 74, and 75.2 The circuit court also made a new finding
that Phillips met the third prong—onset before age eighteen.3
Nonetheless, the 2018 circuit court ultimately declined to find
that Phillips is intellectually disabled based on its agreement
with the 2006 circuit court's finding (and this Court's 2008
opinion affirming that finding) that Phillips failed to establish
that he met the second prong of the intellectual disability
standard—concurrent deficits in adaptive behavior. Phillips
now appeals that decision.
2

3

In reaching this conclusion, however, the 2018 circuit
court ignored the fact that the 2006 circuit court found
that because neither of the defense experts performed
a complete evaluation that tested for malingering, they
were not credible on this prong.
But in doing so, the 2018 circuit court either ignored or
rejected—without explanation—the finding made by the

2006 circuit court (and affirmed by this Court in 2008)
that Phillips failed to establish that he met this prong, and
simply concluded instead “that Dr. Keyes[’s] testimony
from the 2006 hearing is credible and sufficient to prove
onset before 18.”

II. ANALYSIS
First, we review the recent history of intellectual disability
as a bar to execution. Then we discuss the clear error in
this Court's decision in Walls and why Hall does not entitle
Phillips to relief. Finally, we consider and reject Phillips's
claim that he is entitled to relief based on Moore.

A. Intellectual Disability as a Bar to Execution
In 2002, the United States Supreme Court held in Atkins that
the Eighth and Fourteenth Amendments to the United States
Constitution forbid the execution of persons with intellectual
disability. Atkins, 536 U.S. at 321, 122 S.Ct. 2242. The Court
observed that “clinical definitions of [intellectual disability]
require not only subaverage intellectual functioning, but
also significant limitations in adaptive skills such as
communication, self-care, and self-direction that became
manifest before age 18.” Id. at 318, 122 S.Ct. 2242. The
Atkins Court further noted that an IQ between 70 and 75
or lower “is typically considered the cutoff IQ score for
the intellectual function prong of the [intellectual disability]
definition,” id. at 309 n.5, 122 S.Ct. 2242, but it did not
define subaverage intellectual functioning as having an IQ
of 75 or below or mandate that courts take the SEM into
account or permit defendants who present a score of 75 or
below to present additional evidence of intellectual disability.
Instead, the Court explicitly granted states discretion *1018
to determine how to comply with its prohibition on execution
of the intellectually disabled. Id. at 317, 122 S.Ct. 2242 (“As
was our approach in Ford v. Wainwright, 477 U.S. 399, 106
S.Ct. 2595, 91 L.Ed.2d 335 (1986), with regard to insanity,
‘we leave to the State[s] the task of developing appropriate
ways to enforce the constitutional restriction upon [their]
execution of sentences.’ ” (alterations in original)).
Under Florida law, “ ‘intellectual disability’ means
significantly subaverage general intellectual functioning
existing concurrently with deficits in adaptive behavior and
manifested during the period from conception to age 18.”
§ 921.137(1), Fla. Stat. (2017). “Significantly subaverage
general intellectual functioning” is defined as “performance

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

004a

Phillips v. State, 299 So.3d 1013 (2020)

that is two or more standard deviations from the mean
score on a standardized intelligence test specified in the
rules of the Agency for Persons with Disabilities.” Id.
“Adaptive behavior” “means the effectiveness or degree
with which an individual meets the standards of personal
independence and social responsibility expected of his or her
age, cultural group, and community.” Id. Thus, to establish
intellectual disability as a bar to execution, a defendant must
demonstrate (1) significantly subaverage general intellectual
functioning; (2) concurrent deficits in adaptive behavior; and
(3) manifestation of the condition before age eighteen.
Until Hall, Florida law required that a defendant have an
IQ of 70 or below in order to meet the first prong of
the intellectual disability standard—significantly subaverage
intellectual functioning. See Cherry v. State, 959 So. 2d 702,
712-13 (Fla. 2007) (“One standard deviation on the WAIS-III,
the IQ test administered in the instant case, is fifteen points,
so two standard deviations away from the mean of 100 is an
IQ score of 70. As pointed out by the circuit court, the statute
does not use the word approximate, nor does it reference the
SEM. Thus, the language of the statute and the corresponding
rule are clear.”), abrogated by Hall, 572 U.S. 701, 134 S.Ct.
1986. Thus, a defendant was required to present an IQ score
of 70 or below in order to establish the first prong of the
intellectual disability standard. Failure to present the requisite
IQ score precluded a finding of intellectual disability.
In Hall, the Supreme Court held that Florida's “rigid rule”
interpreting section 921.137(1) as establishing a strict IQ
test score cutoff of 70 or less in order to present additional
evidence of intellectual disability “creates an unacceptable
risk that persons with intellectual disability will be executed,
and thus is unconstitutional.” 572 U.S. at 704, 134 S.Ct. 1986.
The Court further held that when assessing the subaverage
intellectual functioning prong of the intellectual disability
standard, courts must take into account the standard error of
measurement of IQ tests, which is five points. Id. at 723, 134
S.Ct. 1986. And “when a defendant's IQ test score falls within
the test's acknowledged and inherent margin of error [±5],
the defendant must be able to present additional evidence of
intellectual disability, including testimony regarding adaptive
deficits.” Id.
In Walls, we considered whether, under the standards set out
in Witt v. State, 387 So. 2d 922 (Fla. 1980), Hall warranted
retroactive application to cases on collateral review. Walls,
213 So. 3d at 346. Under Witt, a change in the law “only
appl[ies] retroactively if the change ‘(a) emanates from this

Court or the United States Supreme Court, (b) is constitutional
in nature, and (c) constitutes a development of fundamental
significance.’ ” Id. (quoting Witt, 387 So. 2d at 931). We
acknowledged that “[i]t is without question that the Hall
decision emanates from the United States Supreme Court
and is constitutional in nature.” Id. Regarding the *1019
third prong of the Witt analysis, a decision is of fundamental
significance when it either (1) places beyond the authority
of the state the power to regulate certain conduct or to
impose certain penalties or (2) when the rule is of sufficient
magnitude to necessitate retroactive application under the
retroactivity test of Stovall v. Denno, 388 U.S. 293, 297,
87 S.Ct. 1967, 18 L.Ed.2d 1199 (1967), and Linkletter v.
Walker, 381 U.S. 618, 636, 85 S.Ct. 1731, 14 L.Ed.2d 601
(1965). See id.; Hernandez v. State, 124 So. 3d 757, 764
(Fla. 2012); Witt, 387 So. 2d at 929. In concluding that
Hall met the third prong of the Witt analysis, we declared
“that Hall warrants retroactive application as a development
of fundamental significance that places beyond the State
of Florida the power to impose a certain sentence—the
sentence of death for individuals within a broader range of IQ
scores than before.” Walls, 213 So. 3d at 346. Based on this
declaration, we determined that Hall warranted retroactive
application. Upon further consideration, we have determined
that this Court clearly erred in reaching that conclusion and
we now recede from our decision in Walls.

B. The Error in the Analysis in Walls
Because it remains clear that Hall establishes a new rule of
law that emanates from the United States Supreme Court and
is constitutional in nature, it satisfies the first two prongs of
Witt. Witt, 387 So. 2d at 931. Thus, the question of Hall’s
retroactivity still turns on the third prong of Witt: whether
the new rule constitutes a “development of fundamental
significance.” Id.
In Walls, this Court determined that the Hall decision met
the third prong of the Witt analysis by “plac[ing] beyond the
authority of the state the power to regulate certain conduct or
impose certain penalties,” because it “removes from the state's
authority to impose death sentences more than just those cases
in which the defendant has an IQ score of 70 or below” and
is therefore of fundamental significance. Walls, 213 So. 3d at
346. We now conclude that this Court erred in making that
determination.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

005a

Phillips v. State, 299 So.3d 1013 (2020)

In discussing developments of fundamental significance that
fall within the category of changes of law that place beyond
the authority of the state the power to regulate certain conduct
or impose certain penalties, this Court in Witt cited as an
example of a decision falling within that category Coker v.
Georgia, 433 U.S. 584, 97 S.Ct. 2861, 53 L.Ed.2d 982 (1977),
which held that the Eight Amendment categorically prohibits
the imposition of the death penalty for the crime of rape of
an adult woman as cruel and unusual punishment. Witt, 387
So. 2d at 929. But contrary to the reasoning of the majority in
Walls, “Hall places no categorical limitation on the authority
of the state to impose a sentence of death.” Walls, 213 So.
3d at 350 (Canady, J., dissenting). The example of Coker is
totally inapposite.
In Hall, the Supreme Court recounted its decisions
holding that particular punishments are prohibited by the
Eighth Amendment “as a categorical matter,” such as the
denaturalization of natural-born citizens as a punishment,
Hall, 572 U.S. at 708, 134 S.Ct. 1986 (citing Trop v. Dulles,
356 U.S. 86, 101, 78 S.Ct. 590, 2 L.Ed.2d 630 (1958)
(plurality opinion)), the imposition of the death penalty for
crimes committed by juveniles, id. (citing Roper v. Simmons,
543 U.S. 551, 572, 125 S.Ct. 1183, 161 L.Ed.2d 1 (2005)),
“[a]nd, as relevant for [Hall],” the imposition of the death
penalty on persons who are intellectually disabled, id. (citing
Atkins, 536 U.S. at 321, 122 S.Ct. 2242). The Court then
unambiguously set out the issue it was to address: “The
question this case presents is how intellectual disability must
be defined in order to implement ... the holding *1020
of Atkins.” Id. at 709, 134 S.Ct. 1986 (emphasis added).
And the holding of Hall was limited to a determination that
it is unconstitutional for courts to refuse to allow capital
defendants whose IQ scores are above 70 but within the test's
standard error of measurement to present evidence of their
asserted adaptive deficits. Hall, 572 U.S. at 723, 134 S.Ct.
1986. Thus, Hall merely “created a procedural requirement
that those with IQ test scores within the test's standard of error
would have the opportunity to otherwise show intellectual
disability.” In re Henry, 757 F.3d 1151, 1161 (11th Cir.
2014).4
4

The new rule announced in Hall is a procedural rule
because it “regulate[s] only the manner of determining
the defendant's culpability.” Schriro v. Summerlin, 542
U.S. 348, 353, 124 S.Ct. 2519, 159 L.Ed.2d 442 (2004)
(“[R]ules that regulate only the manner of determining
the defendant's culpability are procedural.”).

The categorical prohibition on executing the intellectually
disabled was not expanded by Hall. See Walls, 213 So. 3d at
350 (Canady, J., dissenting) (“Hall ... does not preclude death
sentences for individuals whose scores fall within the SEM.”).
The issue addressed in Hall was not whether the State is
categorically prohibited from executing those intellectually
disabled defendants with IQs above 70, but within the SEM.
Intellectually disabled persons with IQ scores above 70 are
not a distinct class from intellectually disabled persons with
IQ scores of 70 or below; all are members of the same
class protected by Atkins. In re Hill, 777 F.3d 1214, 1223
(11th Cir. 2015) (“Hall merely provides new procedures for
ensuring that States do not execute members of an already
protected group.”); Henry, 757 F.3d at 1161 (“The Supreme
Court made clear in Hall that the class affected by the new
rule—those with an intellectual disability—is identical to the
class protected by Atkins.... Hall did not expand this class;
instead, the Supreme Court limited the states’ power to define
the class ....”); Elmore v. Shoop, No. 1:07-CV-776, 2019 WL
5287912, at *4 (S.D. Ohio Oct. 18, 2019) (“[The class of
people which is addressed in Hall] is the same class of people
that Atkins found ineligible for the death penalty because that
is the definition of mental retardation/intellectual disability
the Court used in Atkins. What Hall did was to preclude the
State of Florida from using an IQ score of 70 as an automatic
disqualification for proving that a person is in the class of
people [who], on account of their intellectual disability, may
not be executed if they commit murder.”).
The conclusion “that Hall warrants retroactive application
as a development of fundamental significance that places
beyond the State of Florida the power to impose a certain
sentence” because it may prohibit execution of intellectually
disabled persons “within a broader range of IQ scores than
before,” Walls, 213 So. 3d at 346, is therefore incorrect. Hall
does not place beyond the authority of the State the power
to regulate certain conduct or impose certain penalties; Hall
merely more precisely defined the procedure that is to be
followed in certain cases to determine whether a person facing
the death penalty is intellectually disabled. Hall is merely
an application of Atkins. Kilgore v. Sec'y, Florida Dept. of
Corr., 805 F.3d 1301, 1314 (11th Cir. 2015) (“[Hall] merely
provides new procedures for ensuring that states follow the
rule enunciated in Atkins.”). Hall’s limited procedural rule
does nothing more than provide certain defendants—those
with IQ scores within the test's margin of error—with the
opportunity to present additional evidence of intellectual
disability. Thus, Hall does not constitute “a development
of fundamental significance that places beyond the State of

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

006a

Phillips v. State, 299 So.3d 1013 (2020)

Florida the *1021 power to impose a certain sentence,”
Walls, 213 So. 3d at 346.

C. Hall is an Evolutionary Refinement
Although this Court in Walls did not consider whether
Hall falls within Witt’s second category of developments of
fundamental significance—that is, a change of “sufficient
magnitude” under the Stovall/Linkletter test—having receded
from our conclusion that it falls within the first, we do so now.
In order to determine whether a new rule of law is
of “sufficient magnitude” to merit retroactive application,
this Court considers the following three factors of the
Stovall/Linkletter test adopted in Witt: “(a) the purpose to be
served by the new rule; (b) the extent of reliance on the old
rule; and (c) the effect on the administration of justice of a
retroactive application of the new rule.” Witt, 387 So. 2d at
926. We agree with the reasons given by the Walls dissent as to
why these factors counsel against the retroactive application
of Hall:
Hall should not be given retroactive effect under the
Stovall/Linkletter test based on (a) Hall’s purpose of
adjusting at the margin the definition of IQ scores that
evidence significant subaverage intellectual functioning,
(b) the State's reliance on Cherry’s holding in numerous
cases over an extended period of time, and (c) the ongoing
threat of major disruption to application of the death
penalty resulting from giving retroactive effect to Hall as
well as similar future changes in the law regarding aspects
of the definition of intellectual disability.
Walls, 213 So. 3d at 351 (Canady, J., dissenting) (footnote
omitted).
Moreover, our Court in Witt equated new rules of law that are
of “sufficient magnitude” to merit retroactive application with
“jurisprudential upheavals.” Witt, 387 So. 2d at 929. Gideon
v. Wainwright, 372 U.S. 335, 83 S.Ct. 792, 9 L.Ed.2d 799
(1963)—which first announced that each state must provide
counsel to every indigent defendant charged with a felony at
all critical stages of the proceeding—“is the prime example
of a law change included within this category.” Witt, 387
So. 2d at 929. “In contrast to these jurisprudential upheavals
are evolutionary refinements in the criminal law, affording
new or different standards for the admissibility of evidence,
for procedural fairness, for proportionality review of capital
cases, and for other like matters.” Id.

Hall is an evolutionary refinement of the procedure necessary
to comply with Atkins. It merely clarified the manner in
which courts are to determine whether a capital defendant is
intellectually disabled and therefore ineligible for the death
penalty. Roybal v. Chappell, No. 99CV2152-JM (KSC), 2014
WL 3849917, at *2 (S.D. Cal. Aug. 5, 2014) (stating that Hall
was a clarification of Florida's implementation of Atkins). It
did not invalidate any statutory means for imposing the death
sentence, nor did it prohibit the states from imposing the death
penalty against any new category of persons.
Before Walls, this Court had been clear that evolutionary
refinements do not apply retroactively. See, e.g., State v.
Barnum, 921 So. 2d 513, 526 (Fla. 2005) (“Witt dictates
that those decisions constituting ‘evolutionary refinements’
and not ‘jurisprudential upheavals’ should not be applied
retroactively.” (quoting Witt, 387 So. 2d at 929)); State v.
Glenn, 558 So. 2d 4, 8 (Fla. 1990) (“Applying the principles
of Witt, we conclude that Carawan [v. State, 515 So.2d 161
(Fla. 1987) ] was an evolutionary refinement of the law which
should not have retroactive application.”). As an evolutionary
refinement, Hall “do[es] not compel an abridgement of the
finality of judgments.” Witt, 387 So. 2d at 929. It is *1022
not of sufficient magnitude to warrant retroactive application
to cases on collateral review.
In Walton v. State, 77 So. 3d 639 (Fla. 2011), we rejected
a claim that the United States Supreme Court's decision in
Porter v. McCollum, 558 U.S. 30, 130 S.Ct. 447, 175 L.Ed.2d
398 (2009), warranted retroactive application. Porter was
a fact-intensive decision in which the Supreme Court held
that in a particular case, this Court had unreasonably applied
the prejudice test for establishing ineffective assistance of
counsel under Strickland v. Washington, 466 U.S. 668, 104
S.Ct. 2052, 80 L.Ed.2d 674 (1984). We held in Walton that
the decision in Porter d[id] not concern a major change
in constitutional law of fundamental significance. Rather,
Porter involved a mere application and evolutionary
refinement and development of the Strickland analysis,
i.e., it addressed a misapplication of Strickland. Porter,
therefore, does not satisfy the retroactivity requirements of
Witt.
Walton, 77 So. 3d at 644. Similarly, as explained above,
Hall involved a mere application and evolutionary refinement
of the Atkins analysis and therefore does not satisfy the
retroactivity requirements of Witt.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

007a

Phillips v. State, 299 So.3d 1013 (2020)

D. Federal Law Does Not Require Retroactive Application
of Hall
Finally, we must consider whether federal law requires
retroactive application of Hall. Under Teague v. Lane, 489
U.S. 288, 109 S.Ct. 1060, 103 L.Ed.2d 334 (1989), state
courts must give retroactive effect to new substantive rules
of federal constitutional law. Montgomery v. Louisiana,
––– U.S. ––––, 136 S. Ct. 718, 728-29, 193 L.Ed.2d
599 (2016) (holding “that when a new substantive rule of
[federal] constitutional law controls the outcome of a case,
the Constitution requires state collateral review courts to
give retroactive effect to that rule” under the first prong
of Teague’s retroactivity analysis).5 Substantive rules set
forth categorical constitutional guarantees that place certain
criminal laws and punishments altogether beyond the State's
power to impose. Id. at 729. In contrast, procedural rules
are designed to enhance the accuracy of a conviction
or sentence by regulating the manner of determining the
defendant's culpability and merely raise the possibility that
someone convicted with use of the invalidated procedure
might have been acquitted otherwise. Id. at 730. Because we
have concluded that Hall announced a new procedural rule,
which does not categorically place certain criminal laws and
punishments altogether beyond the State's power to impose
but rather regulates only the manner of determining the
defendant's culpability, we conclude that federal law does not
require retroactive application of Hall as a new substantive
rule of federal constitutional law. Hall is similar to other
nonretroactive “decisions [that] altered the processes in which
States must engage before sentencing a person to death,”
which “may have had some effect on the likelihood that
capital punishment would be imposed” but which did not
render “a certain penalty unconstitutionally excessive for a
category of offenders.” Id. at 736.
5

Although the federal standard for determining
retroactivity under Teague is a two-pronged approach
stating that courts must give retroactive effect to (1) new
substantive rules of federal constitutional law and (2)
new watershed rules of criminal procedure implicating
the fundamental fairness and accuracy of the criminal
proceeding, Montgomery held only that substantive
rules of federal constitutional law must be applied
retroactively by state courts. The Court in Montgomery
explicitly declined to address “the constitutional status
of Teague’s exception for watershed rules of procedure.”
136 S. Ct. at 729.

*1023 E. Receding from Walls
Having concluded that Hall does not satisfy the Witt analysis
for retroactivity and that it is not a new substantive rule of
federal constitutional law requiring retroactive application to
cases on collateral review, we are now faced with the question
of whether the policy of stare decisis should yield.
We recently discussed the doctrine of stare decisis, stating:
While this Court has consistently acknowledged the
importance of stare decisis, it has been willing to correct its
mistakes. In a recent discussion of stare decisis, we said:
Stare decisis provides stability to the law and to the
society governed by that law. Yet stare decisis does not
command blind allegiance to precedent. “Perpetuating
an error in legal thinking under the guise of stare decisis
serves no one well and only undermines the integrity and
credibility of the court.”
Shepard v. State, 259 So. 3d 701, 707 (Fla. 2018) (quoting
State v. Gray, 654 So. 2d 552, 554 (Fla. 1995)). Similarly,
we have stated that “[t]he doctrine of stare decisis bends ...
where there has been an error in legal analysis.” Puryear v.
State, 810 So. 2d 901, 905 (Fla. 2002). And elsewhere we
have said that we will abandon a decision that is “unsound
in principle.” Robertson v. State, 143 So. 3d 907, 910 (Fla.
2014) (quoting Brown v. Nagelhout, 84 So. 3d 304, 309
(Fla. 2012)).
It is no small matter for one Court to conclude that
a predecessor Court has clearly erred. The later Court
must approach precedent presuming that the earlier
Court faithfully and competently carried out its duty. A
conclusion that the earlier Court erred must be based on
a searching inquiry, conducted with minds open to the
possibility of reasonable differences of opinion. “[T]here
is room for honest disagreement, even as we endeavor to
find the correct answer.” Gamble v. United States [––– U.S.
––––], 139 S. Ct. 1960, 1986 [204 L.Ed.2d 322] (2019)
(Thomas, J., concurring).
State v. Poole, 45 Fla. L. Weekly S41, S47-48, 292 So.3d 694,
–––– – –––– (Fla. Jan. 23, 2020), clarified, 292 So.3d 659
(Fla. Apr. 2, 2020).
We cannot escape the conclusion that this Court in Walls
clearly erred in concluding that Hall applies retroactively.
We say that based on our review of Hall, our state's

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

008a

Phillips v. State, 299 So.3d 1013 (2020)

judicial precedents regarding retroactivity, and the decisions
of federal habeas courts concluding that Hall does not
apply retroactively. Based on its incorrect legal analysis, this
Court used Hall—which merely created a limited procedural
rule for determining intellectual disability that should have
had limited practical effect on the administration of the
death penalty in our state—to undermine the finality of
numerous criminal judgments. As in Poole, “[u]nder these
circumstances, it would be unreasonable for us not to recede
from [Walls’] erroneous holdings.” Id. at ––––, at S48.
“[O]nce we have chosen to reassess a precedent and have
come to the conclusion that it is clearly erroneous, the proper
question becomes whether there is a valid reason why not
to recede from that precedent. ... The critical consideration
ordinarily will be reliance.” Id. But
reliance interests are “at their acme in cases involving
property and contract rights.” Payne v. Tennessee, 501
U.S. 808, 828 [111 S.Ct. 2597, 115 L.Ed.2d 720] (1991).
And reliance interests are lowest in cases—like this one
—“involving procedural and evidentiary rules.” Id.; see
also *1024 Alleyne [v. United States], 570 U.S. [99] at
119 [133 S.Ct. 2151, 186 L.Ed.2d 314 (2013) ] (Sotomayor,
J., concurring) (“[W]hen procedural rules are at issue that
do not govern primary conduct and do not implicate the
reliance interests of private parties, the force of stare decisis
is reduced.”).
Id.
As the expectant potential beneficiary of the erroneous
decision in Walls, Phillips has no concrete reliance interest;
he has in no way changed his position in reliance on Walls. In
this postconviction context, Phillips's interest as an expectant
potential beneficiary of Walls is set against all the interests
that support maintaining the finality of Phillips's judgment.
The surviving victims, society-at-large, and the State all have
a weighty interest in not having Phillips's death sentence set
aside for the relitigation of his claim of intellectual disability
based on Hall’s evolutionary refinement in the law.
Thus, we conclude that we should not continue to apply
the erroneous reasoning of Walls. And because Hall does
not apply retroactively, it does not entitle Phillips to a
reconsideration of whether he meets the first prong of the
intellectual disability standard.

F. Moore
Phillips also asserts that he is entitled to a new determination
as to whether he meets the adaptive deficits prong of the
intellectual disability standard because the circuit court in
2006 and this Court in 2008 improperly relied on his
adaptive strengths in concluding that he did not meet the
adaptive deficits prong, assertedly in violation of the Supreme
Court's recent decision in Moore. But because Phillips has
conclusively failed to establish that he meets the first prong of
the intellectual disability standard, he cannot be found to be
intellectually disabled even if he were entitled to a renewed
determination on the second prong and could establish that
he has deficits in adaptive behavior. As we have repeatedly
stated, if a defendant fails to prove that he or she meets any
one of the three prongs of the intellectual disability standard,
he or she will not be found to be intellectually disabled. E.g.,
Jones v State, 231 So. 3d 374, 376 (Fla. 2017); Salazar v.
State, 188 So. 3d 799, 812 (Fla. 2016). Thus, we need not
address his Moore claim.

III. CONCLUSION
For these reasons, we affirm the circuit court's order denying
Phillips's successive motion for postconviction relief. We also
recede from our prior opinion in Walls and hold that Hall does
not apply retroactively.
It is so ordered.

CANADY, C.J., and POLSTON, LAWSON, and MUÑIZ,
JJ., concur. LABARGA, J., dissents with an opinion.
LABARGA, J., dissenting.
Yet again, this Court has removed an important safeguard
in maintaining the integrity of Florida's death penalty
jurisprudence. The result is an increased risk that certain
individuals may be executed, even if they are intellectually
disabled—a risk that this Court mitigated just three years
ago by holding that the decision in Hall v. Florida, 572 U.S.
701, 134 S.Ct. 1986, 188 L.Ed.2d 1007 (2014), is to be
retroactively applied. See Walls v. State, 213 So. 3d 340 (Fla.
2016). I strongly dissent to the majority's decision to recede
from Walls, and I write to underscore the unraveling of sound
legal holdings in this most consequential area of the law.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

009a

Phillips v. State, 299 So.3d 1013 (2020)

Before the United States Supreme Court's decision in Hall,
under Florida law, individuals with an IQ score above 70
were barred from demonstrating that they were intellectually
disabled. This “rigid rule,” as described by the Supreme
Court, *1025 “creates an unacceptable risk that persons
with intellectual disability will be executed, and thus is
unconstitutional.” Hall, 572 U.S. at 704, 134 S.Ct. 1986. The
Supreme Court stated:
The Florida statute, as interpreted by its own courts,
misuses IQ score on its own terms; and this, in turn,
bars consideration of evidence that must be considered
in determining whether a defendant in a capital case has
intellectual disability. Florida's rule is invalid under the
Constitution's Cruel and Unusual Punishment Clause.
Id. at 723, 134 S.Ct. 1986.
In concluding that Florida's intellectual disability law violated
the Eighth Amendment, the Supreme Court pointedly
criticized the “mandatory cutoff” that “disregards established
medical practice in two interrelated ways”: (1) “tak[ing] an
IQ score as final and conclusive evidence of a defendant's
intellectual capacity, when experts in the field would consider
other evidence,” and (2) “rel[ying] on a purportedly scientific
measurement of the defendant's abilities, his IQ score,
while refusing to recognize that the score is, on its own
terms, imprecise.” Id. at 712, 134 S.Ct. 1986. The “other
evidence” to which the Court referred primarily consists
of evidence of deficits in adaptive functioning, which is
“an essential part of a sentencing court's inquiry.” Id.
at 724, 134 S.Ct. 1986. The Supreme Court concluded:
“This Court agrees with the medical experts that when a
defendant's IQ test score falls within the test's acknowledged
and inherent margin of error, the defendant must be able
to present additional evidence of intellectual disability,
including testimony regarding adaptive deficits.” Id. at 723,
134 S.Ct. 1986. The Court admonished that while “the States
play a critical role in advancing protections and providing the
Court with information that contributes to an understanding of
how intellectual disability should be measured and assessed,”
states do not have “unfettered discretion to define the full
scope of the constitutional protection.” Id. at 719, 134 S.Ct.
1986.
The categorical prohibition of the execution of the
intellectually disabled is not limited to those whose
convictions and sentences became final after a certain
date. However, the import of today's decision is that some
individuals whose convictions and sentences were final

before Hall was decided, despite timely preserved claims
of intellectual disability, are not entitled to consideration
of their claims in a manner consistent with Hall. What
this means is that an individual with significant deficits in
adaptive functioning, and who under a holistic consideration
of the three criteria for intellectual disability could be found
intellectually disabled, is completely barred from proving
such because of the timing of his legal process. This
arbitrary result undermines the prohibition of executing the
intellectually disabled.
“Considerations of fairness and uniformity make it very
‘difficult to justify depriving a person of his liberty or his life,
under process no longer considered acceptable and no longer
applied to indistinguishable cases.’ ” Witt v. State, 387 So.
2d 922, 925 (Fla. 1980) (quoting ABA Standards Relating
to Postconviction Remedies 37 (Approved Draft 1968)). If
Hall is not retroactively applied in a uniform manner, an
intellectually disabled individual on Florida's death row may
eventually be put to death.
I reject the majority's conclusion that Hall was a mere
procedural evolution in the law. When the law develops
in such a manner as to clarify the criteria for intellectual
disability—a status which poses an absolute bar to
execution—this cannot simply be deemed “an evolutionary
refinement.” Majority op. at ––––. Walls properly concluded
that Hall was a “development of fundamental significance
that places beyond the State of Florida the power to
*1026 impose a certain sentence—the sentence of death for
individuals within a broader range of IQ scores than before.”
Walls, 213 So. 3d at 346.
What is especially troubling is that because this Court held
Hall to be retroactive more than three years ago in Walls, some
individuals have been granted relief pursuant to Walls and
received consideration of their intellectual disability claims
under the standard required by Hall. However, going forward,
similarly situated individuals will not be entitled to such
consideration. This disparate treatment is patently unfair.
In justifying its holding, the majority discusses the need
for finality in the judicial process. I agree that finality is
a fundamental component of a functioning judicial system.
However, we simply cannot be blinded by an interest in
finality when that interest leaves open the genuine possibility
that an individual will be executed because he is not
permitted consideration of his intellectual disability claim.
“No legitimate penological purpose is served by executing

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

010a

Phillips v. State, 299 So.3d 1013 (2020)

a person with intellectual disability. To do so contravenes
the Eighth Amendment, for to impose the harshest of
punishments on an intellectually disabled person violates
his or her inherent dignity as a human being.” Hall, 572
U.S. at 708, 134 S.Ct. 1986 (citation omitted) (citing Atkins
v. Virginia, 536 U.S. 304, 317-20, 122 S.Ct. 2242, 153
L.Ed.2d 335 (2002)). “This is not to say that under current
law persons with intellectual disability who ‘meet the law's
requirements for criminal responsibility’ may not be tried and
punished. They may not, however, receive the law's most
severe sentence.” Id. at 709, 134 S.Ct. 1986 (citation omitted)
(quoting Atkins, 536 U.S. at 306, 122 S.Ct. 2242).
Hall concluded with language that we would all do well to
remember:
The death penalty is the gravest sentence our society may
impose. Persons facing that most severe sanction must have

End of Document

a fair opportunity to show that the Constitution prohibits
their execution. Florida's law contravenes our Nation's
commitment to dignity and its duty to teach human decency
as the mark of a civilized world. The States are laboratories
for experimentation, but those experiments may not deny
the basic dignity the Constitution protects.
Hall, 572 U.S. at 724, 134 S.Ct. 1986.
Today's decision potentially deprives certain individuals of
consideration of their intellectual disability claims, and it
results in an inconsistent handling of these cases among
similarly situated individuals.
For these reasons, I dissent.
All Citations
299 So.3d 1013
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

011a

Filing # 111800900 E-Filed 08/14/2020 10:57:31 AM
APPENDIX B

Supreme Court of Florida
FRIDAY, AUGUST 14, 2020
CASE NO.: SC18-1149
Lower Tribunal No(s).:
131983CF0004350001XX
HARRY FRANKLIN PHILLIPS
Appellant(s)

vs.

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing is hereby denied.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ., concur.
COURIEL, J., did not participate.
A True Copy
Test:

JohnA. Tomasmo
Clerk, Sup:reme Court
kc
Served:
WILLIAM M. HENNIS III
LISA-MARIE LERNER
MARTA VENESSA JASZCZOLT
HON. HARVEY RUVIN, CLERK
HON. NUSHIN G. SAYFIE, JUDGE
HON. BERTILA ANA SOTO, CHIEF JUDGE
CHRISTINE E. ZAHRALBAN

012a

APPENDIX C
IN THE SUPREME COURT OF FLORIDA
HARRY FRANKLIN PHILLIPS,
Appellant,
CASE No.: SC18-1149
vs.
STATE OF FLORIDA,
Appellee.
_______________________/
APPELLANT’S MOTION FOR REHEARING

Harry Franklin Phillips, by and through undersigned counsel and pursuant to
Fla. R. Crim. Pro. 9.330, hereby files a Motion for Rehearing of this Court’s decision
issued May 21, 2020 in the above-styled case. Mr. Phillips asserts that this Court’s
sua sponte ruling determining that Hall v. Florida, 572 U.S. 701 (2014) announced
a new non-watershed rule for Eighth Amendment purposes is flawed in several
significant respects and results in an unconstitutionally arbitrary system that creates
a grave and unacceptable risk that Florida will execute persons with intellectual
disability in violation of the Eighth Amendment, including Mr. Phillips, while
similarly situated others have received the benefits of Hall.
In Atkins v. Virginia, 536 U.S. 304 (2002), the Court held that the Eighth and
Fourteenth Amendments prohibit a state from executing an individual who is
intellectually disabled. Following Atkins, this Court issued Cherry v. State, 959 So.

1

013a

2d 702 (Fla. 2007), which set Florida as an outlier in death penalty jurisprudence by
imposing an unscientific cutoff requiring a capital defendant to present an IQ of 70
or below as a necessary fact to be proven in order to establish intellectual disability.
Capital defendants around the State, including Mr. Phillips, had their claims
unconstitutionally denied because of this doctrine.1 Indeed, the Cherry opinion and
the rule it announced have been widely criticized by legal scholars and experts in
intellectual disability. See John H. Blume et. al., Of Atkins and Men: Deviations from
Clinical Definitions of Mental Retardation in Death Penalty Cases, 18 Cornell J.L.
& Pub. Pol'y 689, 697 (2009)(“Cherry illustrates a recurring problem after Atkins:
the failure of courts to apply the standard error of measurement and other practice
effects to all IQ scores.”); James W. Ellis, Caroline Everington, and Ann M. Delpha,
Evaluating Intellectual Disability: Clinical Assessments in Atkins Cases, 46 Hofstra
L. Rev. 1305, 1357-1360 (2018); Lois A. Weithorn, Conceptual Hurdles to the
Application of Atkins v. Virginia, 59 Hastings L. J. 1203, 1228-1234 (2008); Sarah
E. Warlick and Ryan V.P. Dougherty, Hall v. Florida Reinvigorates Concept of
Protection for Intellectually Disabled, 29-Winter Criminal Justice 4 (2015).

1

By the end of 2013, Florida courts had denied every single Atkins claim
presented. John H. Blume et. al., A Tale of Two (and Possibly Three) Atkins:
Intellectual Disability and Capital Punishment Twelve Years After the Supreme
Court's Creation of A Categorical Bar, 23 Wm. & Mary Bill Rts. J. 393, 412
(2014)(of the 24 intellectual disability cases identified, every single case had been
denied on the merits.)

2

014a

Seven years later, in Hall v. Florida, the United States Supreme Court held
that Florida’s “rigid rule,” as set out in Cherry, of an IQ cutoff of 70 “creates an
unacceptable risk that persons with intellectual disability will be executed, and thus
is unconstitutional.” Hall, 572 U.S. 701, 704 (2014). In Walls v. State, 213 So. 3d
340 (Fla. 2016), this Court determined that Hall was retroactive to cases where
death-sentenced individuals had timely raised intellectual disability as a bar to
execution, entitling them to have a holistic assessment of their claim under the
appropriate clinical definitions and constitutional standards.
Then-Chief Justice Labarga, and Justices Pariente, Lewis, and Quince
concurred in the per curiam opinion. Justice Pariente wrote separately to concur,
noting that the failure to give Walls the benefit of Hall would result in a “manifest
injustice.” Walls at 348. Justice Perry concurred in result.
Then Justice (now Chief Justice) Canady dissented with an opinion, in which
Justice Polston joined, writing that “the [majority] decision goes on needlessly to
consider Hall v. Florida,” and “erroneously concludes that Hall should be given
retroactive effect.” Walls at 349. The dissenters opined that Hall did “not constitute
‘a new substantive rule of constitutional law’ for which federal law requires
retroactive application.” Id. (citing Montgomery v. Louisiana, -- U.S. --, 136 S.Ct.
718, 729, 193 L.Ed. 2d 599 (2016).

3

015a

Mr. Phillips filed a successive Fla. R. Crim. Pro. 3.851 motion pursuant to
Walls and Hall in which he argued that the court’s initial assessment of his Atkins
claim improperly relied on Cherry. (2018R. 77-78). At the Huff2 hearing, the lower
court determined that it would 1) review the prior proceedings and apply Hall in its
analysis and 2) allow Mr. Phillips to submit a new report by Dr. Keyes. After
reviewing the prior record and the report by Dr. Keyes, the lower court found that
under Hall 1) Phillips met both Prong 1 (significantly subaverage intellectual
functioning) and Prong 3 (onset before age 18). The court, however, determined that
Mr. Phillips could not meet Prong 2 because he could not demonstrate “concurrent
adaptive deficits.” (2018R. 290).
Mr. Phillips timely appealed to this Court arguing that the circuit court erred
as to the adaptive deficits. Mr. Phillips alleged that in denying the existence of
concurrent adaptive deficits the lower court improperly focused on “adaptive
strengths” to negate the significance of Mr. Phillips’ “adaptive deficits” contrary to
prevailing medical and clinical standards. Compare 2018R. at 289-290 (“Defendant
knew how to drive. He had two jobs as a dishwasher and a job as a short order cook…
And finally, the planning, execution and subsequent cover-up of the murder are
indicative of highly adaptive behavior.”) with Moore v. Texas, 137 S. Ct. 1039, 1047
(2017) (“Moore had demonstrated adaptive strengths…by living on the streets,

2

Huff v. State, 622 So. 2d 982 (Fla. 1993).
4

016a

playing pool and mowing lawns for money, committing the crime in a sophisticated
way and then fleeing, testifying and representing himself at trial, and developing
skills in prison. Those strengths, the court reasoned, undercut the significance of
Moore’s adaptive limitations.”) (internal citations omitted).
In response, the State argued Mr. Phillips is procedurally barred from proving
his intellectual disability (ID) because he failed to meet the definition of ID under
pre-Hall Florida law. The State did not argue that Walls was incorrectly decided and,
in fact, conceded that Hall was retroactive. (Answer Brief, p. 27).
During the pendency of Mr. Phillips’ appeal before this Court, four of the
Justices who formed the majority in Walls v. State mandatorily retired, one in 2016
(Justice Perry) and three in 2019 (Justices Lewis, Quince, and Pariente). 3 Two new
Justices who were appointed to the Florida Supreme Court were subsequently
appointed to the United States Court of Appeals for the Eleventh Circuit. Two other
newly appointed Justices, Justice Lawson and Justice Muniz, remain on the Court.
Justice Canady became Chief Justice starting July 1, 2018.4

3

The law at the time mandated retirement at age 70. That law was changed to
age 75 in 2018 but because the new law did not become effective until July 2019,
the Justices were bound by the prior law at the time of their January 2019
retirements.
4

Our Chief Justice was also Chief Justice from July 2010 through June 2012.
He was elected by his colleagues to serve as Chief Justice for a second time starting
July 1, 2018, and a third time starting July 1, 2020. There were two vacancies on the
Court when Phillips was issued May 21, 2020.
5

017a

On May 21, 2020, the newly constituted five-Justice Florida Supreme Court
sua sponte revisited Walls in this case, Phillips v. State, --- So. 3d --- (Fla. May 21,
2020) (SC18-1149) (Slip Op.). The majority–comprised of the dissenters in Walls v.
State (Chief Justice Canady and Justice Polston) and the two new Justices (Justice
Lawson and Justice Muniz)—receded from Walls v. State and held that “because
Hall does not apply retroactively, it does not entitle Phillips to a reconsideration of
whether he meets the first prong of the intellectual disability assessment.” Phillips,
at 22.
Justice Labarga, the only remaining Justice on the Florida Supreme Court who
was in the majority in Walls, dissented. Justice Labarga wrote that, “Yet again, this
Court has removed an important safeguard in maintaining the integrity of Florida’s
death penalty jurisprudence. The result is an increased risk that certain individuals
may be executed, even if they are intellectually disabled[.]” Phillips, at 23. The
majority’s decision produces an “arbitrary result” where an intellectually disabled
capital defendant is “completely barred from proving” his intellectual disability
“because of the timing of his legal process.” Id. at *25.
I.

THIS COURT ABUSED ITS DISCRETION WHEN IT
ADDRESSED AN ISSUE – RETROACTIVITY – THAT
WAS NEITHER BRIEFED NOR RAISED BY THE
PARTIES.

This Court reached down to reverse settled precedent about the retroactive
effect of Hall when neither party raised it, and, indeed, the State conceded Hall was
6

018a
retroactive in its Answer Brief. See Answer Brief at 27 (“just because Hall is now
retroactive…”). This Court abused its discretion and departed from its role as a
neutral arbiter.
The Nation's adversarial adjudication system follows the
principle of party presentation. Greenlaw v. United States, 554 U.S.
237, 243, 128 S. Ct. 2559, 171 L.Ed.2d 399. “In both civil and criminal
cases, ... we rely on the parties to frame the issues for decision and
assign to courts the role of neutral arbiter of matters the parties present.”
Id., at 243.
United States v. Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020).
“[C]ourts are essentially passive instruments of government.”
United States v. Samuels, 808 F.2d 1298, 1301 (CA8 1987) (Arnold, J.,
concurring in denial of reh'g en banc). They “do not, or should not, sally
forth each day looking for wrongs to right. [They] wait for cases to
come to [them], and when [cases arise, courts] normally decide only
questions presented by the parties.” Ibid.
Sineneng-Smith, at 1579.
This Court’s sua sponte ruling undermines confidence in the Florida judiciary.
There having been no change between Walls and Phillips other than the membership
of this Court, Appellant respectfully suggests that by sua sponte addressing the
application of Walls, this Court “could not pretend to be reexamining the prior law
with any justification beyond a present doctrinal disposition to come out differently
from the Court” in Walls. Planned Parenthood v. Casey, 505 U.S. 833, 864 (1992);
see also id., citing and quoting Mitchell v. W. T. Grant Co., 416 U. S. 600, 636 (1974)
(Stewart, J., dissenting) (“A basic change in the law upon a ground no firmer than a

7

019a

change in our membership invites the popular misconception that this institution is
little different from the two political branches of the Government. No misconception
could do more lasting injury to this Court and to the system of law which it is our
abiding mission to serve.”).
This Court, however, violated the principles identified above when it reversed
established precedent not raised or briefed by either party. The Court failed to even
notify the parties that it was reaching on its own to consider such an issue. On that
fact alone, this Court should reverse its decision.
II.

THIS COURT ERRED IN HOLDING THAT HALL
ANNOUNCED A NEW NON-WATERSHED RULE OF
FEDERAL EIGHTH AMENDMENT LAW FOR
PURPOSES OF TEAGUE V. LANE, 498 U.S. 288 (1989)
AND WITT V. STATE, 387 So. 2d 982 (Fla. 1980).

This Court’s May 21, 2020 holding in Mr. Phillips’ case - that Hall announced
a new non-watershed rule of federal Eighth Amendment law for purposes of Teague
and Witt - was error. This Court’s holding violates Witt and Teague. As this Court
stated:
The doctrine of finality should be abridged only when a more
compelling objective appears, such as ensuring fairness and uniformity
in individual adjudications. Thus, society recognizes that a sweeping
change of law can so drastically alter the substantive or procedural
underpinnings of a final conviction and sentence that the machinery of
post-conviction relief is necessary to avoid individual instances of
obvious injustice. Considerations of fairness and uniformity make it
very difficult to justify depriving a person of his liberty or his life, under
process no longer considered acceptable and no longer applied to
indistinguishable cases.
8

020a

Witt v. State, 387 So. 2d 922, 925 (Fla. 1980) (internal quotations and citations
omitted). But this is precisely what this Court has done in holding in this case that
Hall announced a new, non-watershed rule of law for Eighth Amendment purposes.
The reasoning of this Court’s analysis applying the Witt factors to Hall in Walls
should not be disturbed.
The Court’s holding raises a grave risk that Florida will execute intellectually
disabled capital defendants. This Court’s determination that Hall announced a new
non-watershed rule was error. See Bousley v. United States, 523 U.S. 614, 620
(1998). This Court should reverse.
III.

THIS COURT’S HOLDING IS PREDICATED UPON AN
ERRONEOUS UNDERSTANDING OF THE DECISION IN
HALL V. FLORIDA AND IS INCONSISTENT WITH
WHAT THE UNITED STATES SUPREME COURT
ACTUALLY HELD IN HALL.

Mr. Phillips was initially denied the relief to which he was entitled
under Atkins v. Virginia because this Court in Cherry placed an unconstitutional
interpretation on Florida’s intellectual disability statute. See Hall v. State, 109 So.
3d 704, 708 (2012) (“In Cherry . . . we determined the proper interpretation
of section 921.137.” (emphasis added)); Phillips v. State, 984 So. 2d 503, 510 (Fla.
2008) (“Section 921.137(1) defines subaverage general intellectual functioning as
‘performance that is two or more standard deviations from the mean score on a
standardized intelligence test specified in the rules of the Agency for Persons with
9

021a
Disabilities.’ We have consistently interpreted this definition to require a defendant
seeking exemption from execution to establish he has an IQ of 70 or below.”
(emphasis added)).
The United States Supreme Court’s effective overruling of Cherry did not
hold the statute itself unconstitutional. It merely held that Cherry’s glossing of the
statute was federally impermissible. In consequence, this Court must now apply the
statute without the Cherry gloss. Decisions explicating statutes favorably to
criminal defendants are – and as a matter of federal constitutional due process and
equal protection must be –applied retroactively. See Bousley v. United States, supra,
at 620-621; Schriro v. Summerlin, 542 U.S. 348, 351 (2004) (distinguishing
“decisions that narrow the scope of a criminal statute by interpreting its terms” from
“constitutional determinations”). Ignoring this point, the Phillips decision of May
21, 2020 confuses statutory interpretation with constitutional innovation.
IV.

THIS COURT’S HOLDING WILL RESULT IN A DEATH
PENALTY SYSTEM THAT VIOLATES THE EIGHTH
AMENDMENT PROHIBITION AGAINST ARBITRARY
IMPOSITION OF THE DEATH PENALTY AND EQUAL
PROTECTION OF THE LAWS.

“[T]he Eighth and Fourteenth Amendments cannot tolerate the infliction of a
sentence of death under legal systems that permit this unique penalty to be so
wantonly and so freakishly imposed.” Furman v. Georgia, 408 U.S. 238, 309-10
(1972) (Stewart, J., concurring); see also id. at 313 (White, J., concurring) (“[T]he

10

022a

death penalty is exacted with great infrequency even for the most atrocious crimes
and . . . there is no meaningful basis for distinguishing the few cases in which it is
imposed from the many cases in which it is not”). The death penalty may not be
“inflicted in an arbitrary and capricious manner.” Gregg v. Georgia, 428 U.S. 153,
188 (1976) (joint opinion of Stewart, Powell, and Stevens, JJ.); see also Godfrey v.
Georgia, 446 U.S. 420, 428 (1980).
Other Florida inmates, challenging their sentences on collateral review, have
been resentenced to life imprisonment based on Hall and Walls. There is no nonarbitrary, rational basis that justifies this Court ordering that Mr. Phillips -but not
other similarly-situated defendants - be denied the benefit of Hall. Factors such as
slow moving court calendars in heavily populated areas of the State such as MiamiDade, or the proclivities of prosecutors to move cases quickly or slowly, should not
determine whether a capital defendant lives or dies. There is no meaningful
difference between Mr. Phillips’ case and those cases in which a capital defendant
was able to press his claim under Hall and a life sentence was obtained. A death
penalty “cannot be predicated on mere ‘caprice’ or on ‘factors that are
constitutionally impermissible or totally irrelevant to the sentencing process.’”
Johnson v. Mississippi, 486 U.S. 578, 584–85 (1988) (quoting Zant v. Stephens, 462
U.S. 862, 884–885, 887 n.24(1983)). To deny Mr. Phillips the benefit of Hall simply
because of a change in the make-up of this Court violates his right to equal protection

11

023a

of the law under the Fourteenth Amendment to the United States Constitution. See
Yick Wo v. Hopkins, 118 U.S. 356 (1886); Skinner v. Oklahoma ex rel. Williamson,
316 U.S. 535 (1942)). The unevenness that flows from this decision, inconsistent
with the results in similarly-situated cases, flouts the fundamental fairness interests
enshrined in the Fourteenth Amendment’s concept of Due Process. See Carmell v.
Texas, 529 U.S. 513, 533 (2000) (holding “there is plainly a fundamental fairness
interest, even apart from any claim of reliance or notice, in having the government
abide by the rules of law it establishes to govern the circumstances under which it
can deprive a person of his or her liberty or life.”).
V.

THIS COURT’S DECISION AMOUNTS TO AN EX POST
FACTO CHANGE IN THE LAW.

Article I, § 10 of the federal Constitution prohibits state ex post facto laws.
See, e.g., Weaver v. Graham, 450 U.S. 24 (1981); Lindsey v. Washington, 301 U.S.
397 (1937). Federal Due Process erects the same prohibition against state judicial
action. Bouie v. City of Columbia, 378 U.S. 347 (1964). “[A]n unforeseeable judicial
enlargement of a criminal statute, applied retroactively, operates precisely like an ex
post facto law, such as Art. I, § 10, of the Constitution forbids. . . . If a state
legislature is barred by the Ex Post Facto Clause from passing such a law, it must
follow that a State Supreme Court is barred by the Due Process Clause from
achieving precisely the same result by judicial construction.” Id. at 353-354. See also
Marks v. United States, 430 U.S. 188 (1977).
12

024a

Bouie notes the thematic connection between the prohibition of ex post facto
liability and the doctrine of vagueness, citing Freund, The Supreme Court and Civil
Liberties, 4 VAND. L. REV. 533, 541 (1951), and Amsterdam, Note, 109 U. PA. L.
REV. 67, 73-74, n. 34. It is true that one of the traditional concerns of both the Ex
Post Facto Clause and the void-for-vagueness precept – the danger of punishing an
individual for acts which s/he had no notice would be criminal – is inapplicable here.
But that is not the only concern of either doctrine. Both also stand to protect against
malleable legal rules which “inject[ ] into the governmental wheel so much free play
that in the practical course of its operation it is likely to function erratically –
responsive to whim or discrimination . . . .” Amsterdam, supra, at 90. It is a
commonplace of ex post facto history that the prohibition was a response to
punishments exacted in England when one warring faction succeeded another and
proceeded to despoil the losers. See Calder v. Bull, 3 U.S. 386, (1798) (opinion of
Justice Chase). Protection against retroactive punishment resulting from regime
change was very much in the mind of the Framers when they included two ex post
facto clauses in the federal Constitution. See Cummings v. Missouri, 71 U.S. 277,
322 (1866).5

There is another as well: “The counsel for Missouri closed his argument in
this case by presenting a striking picture of the struggle for ascendency in that State
during the recent Rebellion between the friends and the enemies of the Union, and
of the fierce passions which that struggle aroused. It was in the midst of the struggle
that the present constitution was framed, although it was not adopted by the people
5

13

025a
In Calder, “Justice Chase explained that the reason the Ex Post Facto Clauses
were included in the Constitution was to assure that federal and state legislatures
were restrained from enacting arbitrary or vindictive legislation.” Miller v. Florida,
482 U.S. 423, 429 (1987). No lesser restraint is imposed upon state judicial action
by the ex post facto component of federal Due Process.
WHEREFORE, Mr. Phillips respectfully requests this Court grant rehearing
and reconsider the ruling of May 21, 2020 holding that Hall announced a new nonwatershed rule for Eighth Amendment purposes.6

until the war had closed. It would have been strange, therefore, had it not exhibited
in its provisions some traces of the excitement amidst which the convention held its
deliberations. “It was against the excited action of the States, under such influences
as these, that the framers of the Federal Constitution intended to guard. In Fletcher
v. Peck [10 U.S. 87, 137-138], Mr. Chief Justice Marshall, speaking of such action,
uses this language: ‘Whatever respect might have been felt for the State
sovereignties, it is not to be disguised that the framers of the Constitution viewed
with some apprehension the violent acts which might grow out of the feelings of the
moment; and that the people of the United States, in adopting that instrument, have
manifested a determination to shield themselves and their property from the effects
of those sudden and strong passions to which men are exposed. The restrictions on
the legislative power of the States are obviously founded in this sentiment; and the
Constitution of the United States contains what may be deemed a bill of rights for
the people of each State.’”
6

At the time of this filing, this Court has not yet ruled on the Motion for a 15Day Extension of Time in which to file a Motion for Rehearing or the Motion to Toll
Time. Therefore, in an abundance of caution, Mr. Phillips now files this Motion.
14

026a

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing Motion for Rehearing
has been furnished by electronic service to Lisa-Marie Lerner, Assistant Attorney
General, Office of the Attorney General, on June 12, 2020.
/s/ William M. Hennis III
WILLIAM M. HENNIS III
Florida Bar No. 0066850
Litigation Director
hennisw@ccsr.state.fl.us
MARTA JASZCZOLT
Florida Bar No. 119537
Staff Attorney
jaszczoltm@ccsr.state.fl.us
Office of the Capital Collateral
Regional Counsel- South
110 SE 6th St., Suite 701
Fort Lauderdale, FL 33301
P: 954-713-1284
Counsel for Mr. Phillips

15

027a

APPENDIX D

~·r1t;r .

1
:~~

IN THE CIRCUIT COORT ~if:~m6filt.H JUDICIAL CIRCUIT,
IN AND FOR MIAMJcDADE COUNTY, FLORIDA

2111 JllN Iq
STATE OF FLORIDA,
Plaintiff,

Cl.Cf!.

·-

M-1 3: )2

:mW\! & .C9U.HTJ-'90URJ~k

01,DE·CW~H.rfP'.,.

.,

~,re,,,, tBJH\N/il(I~ CAst NO.: CASE NO. F83-435
DIVISION: F061
JUDGE NUSHIN G. SA YFIE

v.
HARRY FRANKLIN PHILLIPS,
Defendant.

______________/
ORDER DENYING SUCCESSIVE MOTION TO VACATE JUDGMENT OF
CONVICTION AND SENTENCE
This cause having come before the court on Defendant's Successive Motion to Vacate
Judgment of Convictions and Sentence of Death, filed on February 28, 2018, and this Court
having reviewed the Defendant's Motion, the State's Answer filed on March 27, 2018, and
having heard argument of the parties at the Huff hearing held on April 19, 2018, finds as follows:
The facts and procedural history are set forth in the Defendant's Motion and the State's
Answer. For purposes of this motion, the relevant facts are that the Defendant was sentenced to
death pursuant to a jury recommendation of 7 to 5. His death sentence became final in 1998.

Phillips v. Florida, 525 U.S. 880 (1998). Subsequently, the Defendant filed a motion for
determination of mental retardation (now referred to as intellectual disability). After a lengthy
evidentiary hearing the motion was denied (see order of Judge Israel Reyes, 5/5/06) and the
denial was affirmed. Phillips v. State, 984 So.2d 503 (Fla. 2008). The Defendant subsequently
filed a motion to vacate pursuant to Hurst v. Florida, 136 S. Ct. 616 (2016), which was denied
because Defendant's sentence of death, though based non;unarrimous jury recommendation, was
final in 1998, prior to Ring v. Arizona, 536 US 584 (2002), the bright line that the Florida
Supreme Court has drawn for the retroactivity of Hurst. This denial was affirmed. Phillips v.

State, 234 So.3d 547 (Fla. 2018).

028a

The Defendant contends that the prior denial of his claim of Intellectual Disability (ID)
must be reheard and determined under new constitutional law that requires that a court
holistically consider all three prongs of the definition of ID, not just IQ scores. Hall v. Florida,
134 S. Ct. 1986 (2014); Walls v. State, 213 So.3d 340 (Fla. 2016). Additionally, in assessing ID,
a court must look to "prevailing clinical standards" and must not rely too heavily on "adaptive
strengths developed in a controlled setting such as a prison." Moore v. Texas, 137 S. Ct. 1039
(2017).
A case management conference/Hu.fl hearing pursuant to Hu.ff v. State, 622 So.2d 982
(Fla. 1993), was held on April 19, 2018. Defendant argued that in light of the new law and a
new evaluation prepared by Dr. Denis Keyes, who had testified at the 2006 hearing, he should be
entitled to a new evidentiary hearing. In the alternative, counsel requested that this court
reevaluate the evidence presented at the 2006 hearing, along with the new report of Dr. Keyes.
The State argued that the Defendant presented evidence on all three prongs and that all three
prongs were sufficiently addressed in the 2006 hearing. This court agreed to review all
transcripts and evidence presented at the hearing in 2006, as well as the new report prepared by
Dr. Keyes.·
ANALYSIS
The definition of intellectual disability (hereinafter referred to as ID) is (1) subaverage
intellectual functioning with (2) concurrent deficits in adaptive functioning and (3) onset before
the age of 18. Dr. Glenn Caddy testified on behalf of the Defendant in 2006.

Dr. Caddy

administered the WAIS-III and obtained a full scale score of 70. Dr. Caddy also relied on the
report of Dr. Dennis Keyes, who obtained a full scale score of 74 on the same test in 2000. Dr.
Carbonell tested the Defendant in 1987 and also obtained a full scale score of 75. Dr. Caddy

2

029a

testified that Defendant is functioning at an IQ of 70. Dr. Enrique Suarez, the State's expert,
while disagreeing with all scores obtained by the other experts, still found that at best the
Defendant was functioning in the borderline range.
Both section 921.137 and rule 3.203 provide that significantly subaverage general
intellectual functioning means "performance that is two or more standard deviations from the
mean score on a standardized intelligence test." One standard deviation on the WAIS-III, the IQ
test administered in the instant case, is fifteen points, so two standard deviations away from the
mean of 100 is an IQ score of 70. Cherry v. State, 959 So. 2d 702, 712-13 (Fla. 2007), abrogated
by Hall v. Florida, 134 S. Ct. 1986 (2014). However, in Hall, supra, it became clear that the
standard error of measurement should be ta!cen into account. The standard error of measurement
is plus or minus five points. An IQ up to 75 would meet the definition of ID. The Defendant has
clearly proven the first prong by clear and convincing evidence.

Moving to the third prong, onset before age 18, the Court finds that Dr. Keyes testimony
from the 2006 hearing is credible and sufficient to prove onset before 18. Again, Dr. Keyes
interviewed family members and a friend who had known the Defendant in childhood, He also
managed to locate school records that substantiated onset before age 18. (Transcript of2006
hearing at p. 219, hereinafter referred to at "T").
The second prong of the test is concurrent deficits in adaptive behavior. Adaptive
behavior is the ability to function normally in daily life. The Diagnostic Manual of Mental
Disorders-5 (DSM-5) defines and gives examples of deficits in adaptive behavior. The chart is
attached.

The Court notes that Dr. Denis Keyes reviewed the reports of all experts in preparation

3

030a

for testifying in the case in 2006. (Tat 222-223), He agreed with all of the experts with the
exception of Dr. Suarez, the State's expert. (Tat 223-224, 227-236). Dr. Suarez reviewed on1y
the reports of Dr. Keyes and Dr, Caddy. (T at 340). Dr. Suarez also relied heavily on prison
records and interviews with prison personnel. (Tat 457-470). He did not interview any family
members or friends from the Defendant's past. He did not review school records, and while he
emphasized the importance of an individual's history, he relied solely on the Defendant's selfreport for a life history. His testing methods were flawed. (Tat 227-236), Finally, his entire
evaluation and focus appear to be geared towards a desired result, namely undermining a finding
of ID, rather than being the neutral findings of an expert clinician. For these reasons, this Court
does not find the testimony of Dr. Suarez to be credible and gives it little or no weight in
determining ID.
In the practical domain, an individual with ID requires help with complex daily living
tasks. They may require support with grocery shopping, transportation, home or child-care, food
preparation, banking and money management. Defendant knew how to drive. He had two jobs
as a dishwasher and a job as a short order cook. Dr. Keyes testified that Defendant's job as a
short order cook was ''tmusual" because "there is sometimes a Jot of pressure on people in that
job, and sometimes people with mental retardation do not respond well to pressure ... " (T at 222).
He went on to say that this could be explained by his love for the job.
People with ID are also at risk of being manipulated. Dr. Keyes testified about the
Defendant being manipulated by his childhood friends into acting as a decoy so that they could
steal cokes from the local store. (Tat 211). This appears to indicate he was manipulated as a
child. However, following the homicide, he was interrogated by Detective Greg Smith on three
separate occasions and each occasion he did not confess. Dr. Keyes suggests that this could be
4

031a

learned behavior as a result of exposure to the criminal justice system, (Tat 242)
According to the DSM, in an ID adult, abstract thinking and executive function (i.e.,
planning, strategizing, priority setting, and cognitive flexibility) are impaired. In the instant case
the Defendant planned the murder of his parole officer. He had to wait for the officer to leave
his office. After shooting him, he removed all of the bullet casings to avoid detection. He also
hid the gun. (T 241 ). After being anested he remained silent, he did not give any statements to
the police. (T242). From jail he authored a letter setting up an alibi and outlining an attempt to
eliminate the state's witnesses who would be testifying against him. (T 257). Dr. Keyes, again,
explains the crime itself and the disposal of the casings and the gun as "learned" behavior from
repeated exposure to the criminal justice system. Dr. Keyes acknowledged that the "Bro White"
alibi letter, was certainly an example of executive functioning. But he expressed doubt about
whether Mr. Phillips wrote the Jetter himself without assistance. He found the handwriting to be
unfamiliar and he believed that the level of sophistication was inconsistent with all else he knew
about the Defendant. (T257-260).
CONCLUSION
The Defendant does meet both the first and third prongs of intellectual disability.
However, in reviewing the entirety of the record this Court flnds that the Defendant has failed to
demonstrate by clear and convincing evidence, the existence of a concurrent deficit in adaptive
behavior. At all stages of his life there are indications that he has some adaptive behaviors. He
has been employed for sustained periods of time at jobs that include pressured environments. He
is not easily manipulated, even in circumstances where a person who is not ID would succumb to
coercion. And finally, the planning, execution and subsequent cover-up of the murder are
indicative of highly adaptive behavior. The idea that the Defendant could "learn" this behavior
5

032a

also seems to suggest functioning well above someone who could be considered ID. Moreover,
while Dr. Keyes' testimony was substantiated by science on almost every point, he was not able
to point to any prevailing standard to suggest that criminal behavior could not be considered as
evidence of adaptive behavior. And while the Court understands Dr. Keyes concern with the
"Bro White" letter as an aberration in the Defendant's behavior, there is simply no evidence to
suggest that the Defendant was not the author of the letter.
WHEREFORE, it is ORDERED AND ADJUDGED that Defendant's Successive Motion
for Vacate Judgments of Conviction and Sentence is DENIED.
Done and Ordered in Miami-Dade County this

Copies to:
William Hennis III, counsel for Defendant
Marta Jaszczolt, counsel for Defendant
Melissa Roca Shaw, AAG
Christine Zahralban, ASA

6

/ f:::ay of June, 2018.

Phillips v. State, 984 So.2d 503 (2008)

APPENDIX E

33 Fla. L. Weekly S219

984 So.2d 503
Supreme Court of Florida.

Harry Franklin PHILLIPS, Appellant,
v.
STATE of Florida, Appellee.
No. SC06–2554.
|
March 20, 2008.
|
Rehearing Denied June 12, 2008.
Synopsis
Background: After defendant's death sentence was affirmed,
705 So.2d 1320, and denial of postconviction relief was
affirmed, 894 So.2d 28, defendant filed motion for mental
retardation determination. The Circuit Court, Dade County,
Israel U. Reyes, J., determined that defendant was not
mentally retarded. Defendant appealed.

Holdings: The Supreme Court held that:
defendant did not satisfy “significantly subaverage
intellectual level” prong of definition of mental retardation;
defendant did not satisfy “deficits in adaptive behavior” prong
of definition of mental retardation;
defendant failed to prove “onset before age 18” prong of
definition of mental retardation; and
competent, substantial evidence supported trial court's
determination that defendant was not mentally retarded.

033a

Bill McCollum, Attorney General, Tallahassee, FL, and
Sandra S. Jaggard, Assistant Attorney General, Miami, FL,
for Appellee.
Opinion
PER CURIAM.
Harry Franklin Phillips, an inmate sentenced to death, appeals
an order denying his successive motion to vacate his judgment
and sentence and an order concluding that he is not mentally
retarded under Florida Rule of Criminal Procedure 3.203. We
have jurisdiction. See art. V, § 3(b)(1), Fla. Const. For the
reasons that follow, we affirm the circuit court's finding that
Phillips is not mentally retarded and affirm its denial of relief.

I. FACTS AND PROCEDURAL HISTORY
Phillips was convicted of first-degree murder for the 1982
shooting death of his parole supervisor, Bjorn Thomas
Svenson, and sentenced to death. On direct appeal, *506 this
Court affirmed his conviction and sentence. See Phillips v.
State, 476 So.2d 194, 197 (Fla.1985).1 After his death warrant
was signed, Phillips filed a petition for habeas corpus alleging
a violation of his rights under Caldwell v. Mississippi, 472
U.S. 320, 105 S.Ct. 2633, 86 L.Ed.2d 231 (1985), and the
Eighth and Fourteenth Amendments. This Court denied the
petition as procedurally barred. Phillips v. Dugger, 515 So.2d
227, 228 (Fla.1987).
1

Phillips raised five issues: (1) the trial court erred in
allowing the State to elicit collateral crimes testimony;
(2) prejudicial comments elicited by the State deprived
Phillips of a fair trial; (3) the trial court erred in refusing
to give a requested alibi instruction; (4) the trial court
erroneously found the HAC aggravator; and (5) the trial
court improperly found the CCP aggravator.

Affirmed.

Phillips filed an amended motion for postconviction relief,
raising twenty-four claims. See Phillips v. State, 894 So.2d

Attorneys and Law Firms

28, 33–34 (Fla.2004).2 After a Huff3 hearing, the trial court
summarily denied the amended motion. Phillips appealed
the denial and petitioned for a writ of habeas corpus. See

*505 Neal Dupree, Capital Collateral Regional Counsel,
William M. Hennis, III, Assistant CCRC, Southern Region,
Fort Lauderdale, FL, for Appellant.

Phillips, 894 So.2d at 34.4 Phillips filed a “Notice of
Supplemental Authority and Motion for Permission to Submit
Supplemental Briefing” related to the United States Supreme
Court's decisions in Ring v. Arizona, 536 U.S. 584, 122 S.Ct.
2428, 153 L.Ed.2d 556 (2002), and Atkins v. Virginia, 536

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

034a

Phillips v. State, 984 So.2d 503 (2008)
33 Fla. L. Weekly S219

U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002), and
this Court permitted supplemental briefing on the mental
retardation issues. We affirmed the denial of postconviction
relief and denied the habeas petition. Phillips, 894 So.2d at
34. Regarding the mental retardation determination, we noted
that “Phillips is free to file a motion under rule 3.203,” but
expressed “no opinion regarding the merits of such a claim.”
Id. at 40. We later relinquished jurisdiction for a determination
of mental retardation pursuant to Florida Rule of Criminal
Procedure 3.203.

dropped out of school during the tenth grade. While in school
he earned “mostly D's and C's.” Phillips's academic trouble
related partly to his absenteeism—he often skipped school
and was suspended on a number of occasions.

2

See id. at 34 n. 4 (listing claims).

3

Huff v. State, 622 So.2d 982 (Fla.1993).

described as helpful and a good worker.6 He was later arrested
and convicted on an armed robbery charge, for which he was
incarcerated until 1982. He was released, and records indicate
that he violated his parole. Shortly thereafter, Phillips was
convicted of murder and has been incarcerated on death row
since 1983.

4

Phillips raised eleven claims on appeal, and filed a habeas
petition raising four claims of ineffective assistance of
appellate counsel. Id. at 34–35, 40 (listing claims).

The Evidentiary Hearing
The trial court conducted a two-day evidentiary hearing on
Phillips's mental retardation claim. At the hearing, the defense
presented two expert witnesses: Dr. Glen Caddy and Dr.
Denis Keyes. The State presented the expert testimony of Dr.
Enrique Suarez. Dr. Joyce Carbonell's intellectual evaluation
of Phillips was also introduced through the testimony of Dr.
Caddy.5 The evidence is summarized below.
5

Dr. Carbonell was requested to evaluate Phillips to
“assess his current level of functioning as well as his
functioning as it may have related to his 1983 case.”
Specifically, Dr. Carbonell was to focus on Phillips's
competency to stand trial and the existence of mitigating
factors.

Phillips was born in Belle Glade, Florida, and moved to
Miami accompanied by his parents and two siblings when he
was about six years old. Before moving to Miami, Phillips's
parents made their living picking vegetables or working in
the fields. Phillips's father eventually obtained employment
as a truck driver and was frequently gone from home. The
family did not benefit much from the improvement in the
father's employment as they did not “see much, if any, of his
paycheck.”
Phillips lived his life in serious poverty, suffered emotional
and physical abuse from his father, suffered the loss of his
only male role models (both the father and older brother
left the home) and had academic *507 difficulties. Phillips

As a juvenile Phillips briefly was incarcerated in a youth
home. After dropping out of school, he worked as a
dishwasher at the Miami Heart Institute. In 1962, he was
convicted and sentenced as an adult for the first time
and paroled in 1970. Upon his release, he worked for the
Department of Sanitation in Dade County, where he was

6

Phillips's employment history also includes a position in
the produce section of a grocery store, lawn maintenance,
and multiple years as a short order cook.

Dr. Joyce Lynn Carbonell
In 1987, Dr. Joyce Carbonell was asked to assess Phillips's
current level of functioning as well as his functioning as it
related to his case. Her assessment was based on affidavits
from family and friends, an interview with a former teacher,
the court and Department of Corrections' records, and other
available materials.
Dr. Carbonell performed several tests on Phillips: the
Wechsler Adult Intelligence Scale (WAIS)—Revised; the
Wide Range Achievement Test–Revised (WRAT–R2); the
Peabody Individual Achievement Test (PIAT); the Weschsler
Memory Scale (WMS); and the Rorschach Test. Based
on Phillips's test performance, Dr. Carbonell concluded
that while he was functioning in the borderline range of
intellectual functioning, his IQ score of 75 “technically ...
would not qualify as mental retardation.”

Dr. Denis Keyes
In 2000, Dr. Keyes, an Associate Professor of Special
Education at the College of Charleston in South Carolina,
examined Phillips for the defense. Dr. Keyes tested Phillips's
intellectual functioning utilizing the following tests: Draw–

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

035a

Phillips v. State, 984 So.2d 503 (2008)
33 Fla. L. Weekly S219

a–Person test; a Developmental Test of Visual–Motor
Integration; the Bender–Gestalt test-which also tests visual
and motor integration; the Woodcock–Johnson—testing
cognitive achievement; and the WAIS–III. Based on Phillips's
test performance, Dr. Keyes opined that he performed at a
significantly subaverage intellectual level.
In concluding that Phillips had significant deficits in
adaptive functioning, Dr. Keyes conducted a retrospective
diagnosis.7 To evaluate Phillips's adaptive behavior, Dr.
Keyes interviewed Phillips, his mother and sister, and
Phillips's childhood friend and fellow death row inmate,
Norman Parker.8 Dr. Keyes also reviewed Phillips's school
records. Those records revealed that while Phillips attended
*508 school from elementary to tenth grade, he earned C's,
D's and F's. Phillips's school history also revealed that he
attended school when the system was segregated and special
education was not available to him.
7

8

Although Dr. Keyes claims to have assessed deficits in
Phillips's adaptive functioning that existed concurrently
with his subaverage intellectual quotient, the record
does not support his contention. In 2000, Phillips did
have an IQ of 70; however, his adaptive functioning
was assessed by evaluating his behavior at or around
age eighteen. As stated above, Dr. Keyes interviewed
Phillips's family and friends, who admittedly had not
had any significant contact with him since at least his
incarceration for this crime in 1983. Immediately before
his current incarceration, Phillips had served seventeen
years of a twenty-year sentence.
Parker has been incarcerated since 1981.

From these record observations and tests, Dr. Keyes
concluded that Phillips's full scale IQ was 74 and that the
onset of his intellectual functioning and adaptive deficits
occurred before age 18. Even though Dr. Keyes's evaluation
did not establish that Phillips had deficits in his adaptive
functioning existing concurrent with his subaverage intellect,
he opined that Phillips is mentally retarded.

Dr. Glen Caddy
Dr. Caddy, a Ph.D. in clinical psychology, testified as
a defense expert. To assess Phillips's current intellectual
functioning, Dr. Caddy administered the WAIS–III. Dr.
Caddy did not test Phillips's adaptive functioning.

Phillips achieved a full-scale IQ of 70 on the WAIS–III,
placing him in the borderline range of mental retardation.
Dr. Caddy described the different categories of intellectual
functioning as follows: an IQ score below 70 is formally
labeled mentally retarded and now called “extremely low”; an
IQ between 70 and 79 is borderline, and generally borderline
is not retarded; an IQ between 80 and 89 qualifies as a low
normal intellect; and an IQ score within the 90 and 110 range
is average.
When asked whether he had an opinion as to whether Phillips
was mentally retarded, Dr. Caddy answered: “I have an
opinion that he is functioning at an IQ of 70. I have an opinion
that says that this condition has existed since very early in
his life. I have not done personally those tests that look at
adaptive functioning. I have simply read those from others.”
Dr. Caddy ultimately concluded that based on his evaluations
and everything he read, he would place Phillips in the retarded
category in some areas and the borderline category in others.

Dr. Enrique Suarez
Dr. Enrique Suarez, a specialist in neuropsychology, was the
State's only expert. Dr. Suarez holds a Ph.D. in psychology
and has conducted over 3000 forensic psychiatric evaluations.
Dr. Suarez defined the criteria for mental retardation as
significantly subnormal intellectual functioning, concurrent
and present impairments in adaptive functioning in at least
two areas,9 and onset before age 18.
9

The defendant must suffer from deficits or impairments
in adaptive functioning in at least two of the following
areas: communication, self-care, home living, social
interpersonal skills, use of community resources, self
direction, functional academic skills, work, leisure,
health, and safety.

To assess Phillips's intellectual functioning, Dr. Suarez
administered the Test of Nonverbal Intelligence–III (TONI–
III). He did not utilize the WAIS–III test because Phillips had
previously been administered the WAIS and Dr. Suarez was
concerned that Phillips had become familiar with the format.
Phillips scored an IQ of 86 on the TONI–III, which is in the
low average range.10
10

The court did not consider the results of Dr. Suarez's
intellectual testing in its determination because the only
two testing instruments provided for under Florida Rule

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

036a

Phillips v. State, 984 So.2d 503 (2008)
33 Fla. L. Weekly S219
of Criminal Procedure 3.203 and Florida Administrative
Code Rule 65G–4.011 are the Stanford–Binet and the
WAIS–III.

To determine whether Phillips was malingering, Dr. Suarez
also administered various validity tests. Based on the
inconsistent scores obtained, Dr. Suarez opined that Phillips
was not putting forth sufficient effort or was actively
attempting to *509 provide incorrect information. Dr.
Suarez suggested that Phillips malingered on these tests
because to do otherwise “could have dire negative effects on
the examinee's life.”
Dr. Suarez was the only expert to conduct validity testing
on Phillips. He opined that “if you do a cognitive or
neurocognitive evaluation and you don't do validity testing,
you've done an incomplete assessment.” The other doctors
disagreed and did not believe that validity testing was
necessary.
Based on his evaluations, Dr. Suarez opined that although
Phillips is functioning at a low average level of intelligence,
he is not mentally retarded. Phillips has neither the requisite
IQ to classify him as mentally retarded nor the necessary
concurrent deficits in adaptive functioning. Dr. Suarez also
noted that
[t]he information that's available prior to my evaluating
him in and of itself would suggest that he's not mentally
retarded, and that a lot of the results that have been obtained
by previous evaluators [have] been obtained without the
benefit of concurrent validity testing, which eliminates the
ability to specify whether those instances reflected good
efforts and an intention to do the best one can on these tests.
After hearing the testimony and reviewing the evidence,
the trial court concluded that Phillips did not prove mental
retardation by clear and convincing evidence. Phillips appeals
that decision, raising the issues discussed below.

II. ANALYSIS
Phillips challenges the circuit court's determination that he
is not mentally retarded in accordance with the definitions
outlined in Florida Rule of Criminal Procedure 3.203 and
section 921.137(1), Florida Statutes (2006). The Florida
Legislature enacted section 921.137 in 2001. It exempts the
mentally retarded from the death penalty and establishes
a method for determining whether capital defendants are

mentally retarded. See § 921.137, Fla. Stat. We adopted
rule 3.203 in response to the United States Supreme Court's
decision in Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242,
153 L.Ed.2d 335 (2002), which held it unconstitutional to
execute the mentally retarded.
Pursuant to both the statute and the rule, a defendant must
prove mental retardation by demonstrating: (1) significantly
subaverage general intellectual functioning, (2) existing
concurrently with deficits in adaptive behavior, and (3) which
has manifested during the period from conception to age 18.
§ 921.137(1), Fla. Stat.; see also Fla. R.Crim. P. 3.203(b).
The circuit court concluded that Phillips failed to prove
any of these factors by clear and convincing evidence. We
review the circuit court's decision to determine whether it
is supported by competent substantial evidence. See Cherry
v. State, 959 So.2d 702, 712 (Fla.2007) (“In reviewing
mental retardation determinations in previous cases, we have
employed the standard of whether competent, substantial
evidence supported the circuit court's determination.”) We
review each of the factors in turn.11
11

Phillips also argues that the clear and convincing
evidence standard of section 921.137(4), Florida Statutes
(2001) (prohibiting the execution of a mentally
retarded defendant), which the trial court applied, is
unconstitutional. However, we do not address this claim.
Singletary v. State, 322 So.2d 551, 552 (Fla.1975)
(“[C]ourts should not pass upon the constitutionality
of statutes if the case in which the question arises
may be effectively disposed of on other grounds.”).
Here, there was no evidence demonstrating Phillips has
significant subaverage intellectual functioning existing
concurrently with deficits in his adaptive behavior.
Therefore, Phillips's claim fails even under the more
lenient preponderance-of-the-evidence standard.

*510 A. Intellectual Functioning
Phillips first argues that the circuit court erred in finding that
he does not function at a significantly subaverage intellectual
level. Phillips claims that because there is a measurement
error of about five points in assessing IQ, mental retardation
can be diagnosed in individuals with IQs ranging from 65
to 75. We disagree, and affirm the trial court's finding that
Phillips did not satisfy the first prong of the mental retardation
definition.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

037a

Phillips v. State, 984 So.2d 503 (2008)
33 Fla. L. Weekly S219

Section 921.137(1) defines subaverage general intellectual
functioning as “performance that is two or more standard
deviations from the mean score on a standardized intelligence
test specified in the rules of the Agency for Persons with
Disabilities.” We have consistently interpreted this definition
to require a defendant seeking exemption from execution to
establish he has an IQ of 70 or below. See Cherry, 959 So.2d
at 711–714 (finding that section 921.137 provides a strict
cutoff of an IQ score of 70); Zack v. State, 911 So.2d 1190,
1201 (Fla.2005) (finding that to be exempt from execution
under Atkins, a defendant must meet Florida's standard for
mental retardation, which requires he establish that he has an
IQ of 70 or below); see also Jones v. State, 966 So.2d 319,
329 (Fla.2007) (“[U]nder the plain language of the statute,
‘significantly subaverage general intellectual functioning’
correlates with an IQ of 70 or below.”)

the defendant scored an IQ of 69 on one of the expert's IQ
tests, the defendant did not meet the first prong of the mental
retardation determination because the more credible expert
scored the defendant's IQ at 74).
*511 Here, the majority of Phillips's IQ scores exceed
that required under section 921.137. Moreover, the court
questioned the validity of the only IQ score falling within the
statutory range for mental retardation. Therefore, competent
substantial evidence supports the trial court's finding that
Phillips did not meet the first prong of the mental retardation
definition.

B. Adaptive Behavior

Phillips's scores on the WAIS were as follows: 75 (1987),
74 (2000), and 70 (2005). Based on these scores, the defense
experts opined that Phillips has “significantly subaverage
intellectual functioning.” The State's expert concluded to
the contrary, finding that Phillips's low intellectual scores
were a result of malingering, not mental retardation. Because
both defense experts failed to perform a complete evaluation
of Phillips—i.e., they did not test for malingering—the
court accepted the state's expert's opinion over that of the
defense's experts. Although Phillips challenges the trial
court's credibility finding, we give deference to the court's
evaluation of the expert opinions. See Brown v. State, 959
So.2d 146, 149 (Fla.2007) (“This Court does not ... secondguess the circuit court's findings as to the credibility of
witnesses.” (citing Trotter v. State, 932 So.2d 1045, 1050
(Fla.2006))); Bottoson v. State, 813 So.2d 31, 33 n. 3
(Fla.2002) (“We give deference to the trial court's credibility
evaluation of Dr. Pritchard's and Dr. Dee's opinions.”); Porter
v. State, 788 So.2d 917, 923 (Fla.2001) (“We recognize and
honor the trial court's superior vantage point in assessing the
credibility of witnesses and in making findings of fact.”).

Next, Phillips argues that the trial court erred in concluding
that he failed to demonstrate deficits in adaptive functioning
sufficient for a diagnosis of mental retardation. In Florida,
defendants claiming mental retardation are required to show
that their low IQ is accompanied by deficits in adaptive
behavior. Rodriguez v. State, 919 So.2d at 1252, 1266
(Fla.2005) (“[L]ow IQ does not mean mental retardation. For
a valid diagnosis of mental retardation ... there must also
be deficits in the defendant's adaptive functioning.” (quoting
trial court's order)). “Adaptive functioning refers to how
effectively individuals cope with common life demands
and ‘how well they meet the standards of personal
independence expected of someone in their particular age
group, sociocultural background, and community setting.’ ”
Id. at 1266 n. 8 (quoting American Psychiatric Association,
Diagnostic and Statistical Manual of Mental Disorders 42
(4th ed.2000)). To be diagnosed mentally retarded, Phillips
must show “significant limitations in adaptive functioning
in at least two of the following skill areas: communication,
self-care, home living, social/interpersonal skills, use of
community resources, self-direction, functional academic
skills, work, leisure, health, and safety.” Id.

Even were we to disregard the circuit court's credibility
finding, Phillips's IQ scores do not indicate that he is mentally
retarded. In Jones, 966 So.2d at 329, we found that IQ
scores ranging from 67 to 72 did not equate to significantly
subaverage general intellectual functioning. See also Rodgers
v. State, 948 So.2d 655, 661 (Fla.2006) (finding that the
defendant did not prove he was retarded under section
921.137 despite the defense expert's finding that the defendant
had an IQ of 69 and was mentally retarded); Burns v. State,
944 So.2d 234, 247 (Fla.2006) (finding that even though

The State's expert, Dr. Suarez, was the only mental
health expert to test Phillips's adaptive functioning
contemporaneously with his IQ. Dr. Keyes, the only defense
expert to evaluate Phillips's adaptive functioning, relied
on the technique of retrospective diagnosis, focusing on
Phillips's adaptive behavior before age 18. However, in
Jones, 966 So.2d at 325–27, we held retrospective diagnosis
insufficient to satisfy the second prong of the mental
retardation definition. We found that both the statute and
the rule require significantly subaverage general intellectual

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

038a

Phillips v. State, 984 So.2d 503 (2008)
33 Fla. L. Weekly S219

functioning to exist concurrently with deficits in adaptive
behavior. Id. (citing § 921.137(1), Fla. Stat. (2007); Fla.
R.Crim. P. 3.203(b)). Dr. Keyes tested Phillips's intellectual
functioning in 2000; however, he did not assess Phillips's
adaptive functioning as of that date.
Moreover, the record contains competent substantial evidence
that Phillips does not suffer from deficiencies in adaptive
functioning. Phillips supported himself. He worked as shortorder cook, a garbage collector, and a dishwasher. The mental
health experts generally agreed that Phillips possessed job
skills that people with mental retardation lacked. Specifically,
the defense's expert admitted that Phillips's position as a shortorder cook was an “unusually high level” job for someone
who has mental retardation.
Phillips also functioned well at home. He resided with his
mother. According to her, he paid most of the bills and did the
majority of the household chores. Phillips was also described
as a great son, brother, and uncle. Phillips purchased a new
car for his mother and a typewriter for his sister. He spent a
lot of time with his nieces and nephews, and “was real good
with them.” Phillips often kept the children overnight, took
them for ice cream, and would give them rides when needed.
In addition to driving, Phillips cooked and went grocery
shopping, skills that are indicative of the ability to cope with
life's common demands.
*512 The experts also agreed that the planning of the murder
and cover-up in this case are inconsistent with a finding that
Phillips suffers from mental retardation. Although Phillips
argues that his maladjusted behavior does not constitute
adaptive behavior, we agree with the circuit court that
argument is untenable. The mental health experts generally
agreed that persons suffering from mental retardation lack
goal-directedness and the ability to plan. Phillips had both. To
commit the crime, Phillips, having discovered that his parole
officer was generally the last to leave the office, lay in wait
behind dumpsters outside of the building. When the parole
officer emerged and there were no witnesses present, Phillips
unloaded his gun into the officer. He reloaded the gun and shot
the parole officer three more times. Phillips then retrieved the
shell casings from the ground, fled the scene, and disposed of
the gun. After he was apprehended, officers tried on several
occasions to interview Phillips, but he refused to speak.
Also, while in jail, Phillips authored an alibi letter and a letter
dubbed the “Bro White” letter. In the “Bro White” letter,
Phillips informed the recipient that he was aware of the State's

witnesses against him and that he had sent the names and
addresses of their family members to a “reliable source on the
outside world.” He further penned, “I hate like hell to do that.
But the innocent must suffer.”
Phillips's ability to orchestrate and carry out his crimes, his
foresight, and his acts of self-preservation indicate that he
has the ability to adapt to his surroundings. Also noteworthy
is that Phillips killed the parole officer in a cold, calculated,
and premeditated manner. A cold, calculated, premeditated
murder is “the product of cool and calm reflection and not
an act prompted by emotional frenzy, panic, or a fit of
rage.” Franklin v. State, 965 So.2d 79, 98 (Fla.2007). A
CCP killing demonstrates “that the defendant had a careful
plan or prearranged design to commit murder before the
fatal incident ...; that the defendant exhibited heightened
premeditation.” Id. The actions required to satisfy the CCP
aggravator are not indicative of mental retardation. See
Atkins, 536 U.S. at 319–20, 122 S.Ct. 2242 (“Exempting the
mentally retarded from [the death penalty] will not affect the
‘cold calculus that precedes the decision’ of other potential
murderers. Indeed, that sort of calculus is at the opposite
end of the spectrum from behavior of mentally retarded
offenders.”)
It is clear from the evidence that Phillips does not suffer from
adaptive impairments. Aside from personal independence,
Phillips has demonstrated that he is healthy, wellnourished
and wellgroomed, and exhibits good hygiene. Likewise, there
was “no evidence of deficits of adaptive behavior in regards
to home living, use of community resources, or leisure.”
Thus, as the foregoing illustrates, competent substantial
evidence supports the trial court's conclusion that Phillips
failed to prove the second prong—impairments in adaptive
functioning.

C. Onset Before Age Eighteen
The final factor in determining mental retardation is onset
before age 18. Ample evidence supports the trial court's
conclusion that Phillips failed to prove this prong. Phillips's
school history does not suggest onset before the age of 18.
While it is true that Phillips achieved C's and D's in school,
his poor performance is easily attributed to his truancy,
his repeated suspensions from school, and his juvenile
delinquency. As the trial court found, “there was no evidence
[t]o support the Defendant's contention that his poor grades
were a result of mental retardation.”

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

039a

Phillips v. State, 984 So.2d 503 (2008)
33 Fla. L. Weekly S219

*513 Moreover, anecdotes about Phillips's childhood do not
suggest a manifestation of low IQ and adaptive deficits before
age 18. For example, the defense suggests that Phillips was
adaptively impaired because he would swim in his clothes
rather than in his underwear when he and his childhood
friends broke into pool areas. However, as the defense expert
agreed, Phillips could have swum fully clothed due to shyness
rather than because of any mental retardation. In short,
Phillips does not meet the third criterion, onset of significantly
subaverage general intellectual functioning with deficits in
adaptive behavior before age 18. Thus, contrary to Phillips's
contentions, he is not so impaired as to fall within the range of
mentally retarded offenders exempt from the death penalty.

III. CONCLUSION
For the reasons discussed above, we affirm the trial
court's order denying Phillips's successive 3.851 motion and
concluding that Phillips is not mentally retarded.
It is so ordered.

LEWIS, C.J., and WELLS, ANSTEAD, PARIENTE,
QUINCE, CANTERO, and BELL, JJ., concur.
All Citations
984 So.2d 503, 33 Fla. L. Weekly S219

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

,_

040a

APPENDIX F

.

IN THE CIRCUIT COURT OF THE ELEVENTH JU1 ,1c1

1l tnt t@ \)

IN AND FOR MIAMI-DADE COUNTY, Fl OR:A5A
I
,-

CRIMINAL DIVISION

i

THE STATE OF FLORIDA,
I

_MAY_~~ zaoo,::
CLE RKt f

Plaintiff,

vs.

CASE NO. 83-435

JUDGE ISRAEL REYES

HARRY PHILLIPS,
Defendant.
I

ORDER
DENYING DEFENDANT'S MOTION TO VACATE
JUDGMENT OF SENTENCE

THIS CAUSE having come on to be heard on Defe
ndant Harry Phillips' Motion to
Vacate Judgment of Sentence and Request for Evid
entiary Hearing, and the Court having
reviewed said motion, taken testimony during an evide
ntiary hearing on said motion from three
expert witnesses, having examined the file, heard
argument of counsel, examined all of the
admitted exhibits, reviewed memoranda of law, read
the transcripts of said hearing, and being
otherwise fully advised in the Premises, it is hereby:
CONSIDERED, ORDERED AND ADJUDGED that
the Defendant's Motion to Vacate
Judgment of Sentence is DENIED. The Defendan
t has not proven by clear and convincing
evidence that he is mentally retarded.
DEFENDANT'S CLAIMS/ARGUMENTS
DEFENDANT'S CLAIMS

The Defendant's primary claim is that he is ment
ally retarded. Thus, he alleges that
pursuant to the holding of Atkins v. Virginia, 536
U.S. 304 (2004), his death sentence is in
conflict with his right not be subjected to cruel and
unusual punishment as guaranteed by the

22Q 9

309

'

041a

'\

Eighth and Fourteenth Amendments to the United States Constitution and the corresponding
provisions of the Florida Constitution. Accordingly, he is requesting that this Court find that he
is mentally retarded, enter a written order prohibiting the imposition of the death penalty,
resentence him to life imprisonment, and set forth its findings specially in a written order.
The Defendant also claims that the procedure provided by Fla. R. Crim. P. 3.203 violates
the Sixth, Eighth, and Fourteenth Amendments of the United States Constitution.
DEFENDANT'S ARGUMENTS

The Defendant argues that the controlling definition of mental retardation is that of the
th
American Association on Mental Retardation (AAMR), which published the 10 Edition of their

text, Mental Retardation, Definition, Classification, and Systems ofSupport, in 2002 and reads as
follows:
Mental retardation is a disability characterized by significant
limitations both in intellectual functioning and adaptive behavior
as expressed in conceptual, social, and practical adaptive skills.
This disability originates before age 18.
Additionally, the Defendant argues that although he is proceeding as required under Fla.
R. Crim. P. 3.203, he objects to certain omissions and procedures contained in the rule that
render the rule violative of the Sixth, Eighth, and Fourteenth Amendments to the United States
Constitution. He adds that these issues must be resolved before an evidentiary hearing takes

place so he has notice of the procedures which will be followed in his case. The Defendant
states that Fla. R. Crim. 3.203, as currently written, does not provide a constitutionally adequate
procedure for resolution of mental retardation claims presented by those persons whose death

2

2210

310

042a

sentences were final before the United States Supreme Court decided Atkins v. Virginia, 536 U.S.
304 (2002).
The Defendant adds that because of this constitutionally-infirmed procedure, any pending
death sentence must be vacated where a prima facie showing of mental retardation is made, and a
criminal trial that comports with the Sixth Amendment must be ordered to determine whether the
Defendant is, in fact, mentally retarded.
The Defendant adds that Fla. R. Crim. P. 3.203 does not contain a standard of proof.
Therefore, the omission of a standard of proof from that rule gives him no notice regarding what
standard will be applied to his claim and this violates his due process rights. He objects to the
clear and convincing evidence standard contained in Section 921.137, Fla. Stat. (2005). The
Defendant concludes this argument by stating that the jury should make the decision and the
burden should be on the State to prove beyond a reasonable doubt that the Defendant is not
mentally retarded. However, if he is required to provide proof of his mental retardation, his
burden of proof should be no higher than the preponderance of the evidence standard.
STATE'S CLAIMS/ARGUMENTS

The Defendant's motion should be denied because be is collaterally estopped from
claiming he is mentally retarded.

Even if the Defendant is not collaterally estopped, the Defendant has not proven by clear
and convincing evidence that he has significantly sub-average intellectual functioning, existing
concurrently with deficits in adaptive behavior, and that his condition originated before he
reached the age of 18.
Lastly, the correct standard of proofis clear and convincing evidence.

3

221.1

311

I

043a

"',

FACTS
The facts of this case are contained in Phillips v. State, 894 So. 2d 28 (Fla. 2004). During
the evening of August 31, 1982, witnesses heard several rounds of gunfire in the vicinity of the
An investigation revealed the body of Bjorn

Parole and Probation building in Miami. Id.

Thomas Svenson, a parole supervisor, in the parole building parking lot. Id. Svenson was the
victim of multiple gunshot wounds. Id.. There apparently were no eyewitnesses to the homicide.

Id.
As parole supervisor, the victim had responsibility over several probation officers in
charge of the Defendant's parole. Id. The record indicates that for approximately two years prior
to the murder, the victim and the Defendant had repeated encounters regarding the Defendant's
unauthorized contact with a probatii;>n officer. Id. On each occasion, the victim advised the
Defendant to stay away from his employees and the parole building unless making an authorized
visit. Id. After one incident, based on testimony of the victim and two of his probation officers,
the Defendant's parole was revoked and he was returned to prison for approximately twenty
months. Id.
On August 24, 1982, several rounds of gunfire were shot through the front window of a
home occupied by the two probation officers who had testified against the Defendant.

Id.

Neither was injured in the incident, for which the Defendant was subsequently charged. Id.
Following the victim's murder, the Defendant was incarcerated for parole violations. Id.
Testimony of several inmates indicated that the Defendant told them he had killed a parole
officer. Id.
The sentencing order reflects additional facts:

4

221.2

312

r

044a

"

Mr. Svenson was the last person to leave the parole office, shortly after 8:30 p.m.
The last person who left before Mr. Svenson had left at 8:30 p.m. There was only
one car in the parking lot at the time of the homicide and large piles of sand. At
the time he was killed, Mr. Svenson was carrying old phone books and depositing
them in a ... dumpster garbage bin, located in the rear parking lot. The evidence
showed that Mr. Svenson was shot three times by the [dumpster]: twice in the left
side of the chest, and once, a graze wound to the head. The evidence indicates
that the Defendant hid and waited for Mr. Svenson before he shot him. Mr.
Svenson then ran approximately one hwidred (100) feet and was then shot four
times in the head, and once in the spine. The evidence indicated that because
eight shots were fired, from a six-shot revolver and witnesses heard two volleys of
shots the defendant had reloaded between the two volleys. In addition, the
murder weapon was taken from the scene and never recovered, nor were at least
seven of the spent casings. Furthennore, there was evidence at the trial that prior
to the homicide; the Defendant told an acquaintance that "I'm not going to jail
again" and that he wanted to put an end to his problem with his parole officer.
The Defendant had threatened to "get them" if he was violated, and he bragged
about the killing shortly thereafter and said it was because they were harassing
him.
The Defendant was thereafter indicted for first-degree murder.
PROCEDURAL HISTORY

PRIOR TO FILING OF INSTANT MOTION
The procedural history of this case, prior to the filing of the instant motion, is thoroughly
outlined in Phillips v. State, 894 So. 2d 28 (Fla. 2005). In that opinion, the Florida Supreme
Court remarked that it was not precluding the Defendant from addressing the potential merits of
a mental retardation claim under Atkins v. Virginia, 536 U.S. 304 (2002) or Fla. R. Crim. P.
3.203. Id. The Florida Supreme Court added that the Defendant was free to file a motion to
vacate death sentence Wlder the aforementioned rule. Id. However, the Court did not express

any opinion regarding the merits of such a claim. Id. 1

1

Section 921.137, Fla. Stat. (2004), the statute prohibiting the execution of mentally retarded defendants, was
enacted on June 12, 2001, and therefore did not cx.ist at the time of the Defendant's resentencing or subsequent
dir~t appeal. Phillips v. State, 894 So. 2d 28, 40 (Fla. 2004). See Section 921.137 (8), Fla. Stat. (2004) (This
section does not apply to a defendant who was sentenced to death prior to the effective date of this act.) As the
Sentencing Order reflects, the Defendant was resentenced on April 20, 1994.

5

221.3

313

I

\

045a

J.

On November 30, 2004, the Defendant filed a motion requesting the Florida Supreme
Court to relinquish jurisdiction to this Court for determination of mental retardation.
On January 27, 2005, the Florida Supreme Court denied the Defendant's motion to
relinquish jurisdiction to the circuit court for a determination of mental retardation without
prejudice to file a motion under Fla. R. Crim. P. 3.203 within sixty (60) days.

INSTANT MOTION'S
PSYCHOLOGICAL EVALUATIONS IN SUPPORT THEREOF
AND
EVIDENTIARY HEARING
Subsequently, on March 28, 2005, the Defendant, as a result of the Florida Supreme
Court's ruling, filed the instant motion.
On February 13, 14, 15, and 16, 2006, this Court granted the Defendant's request and
conducted an evidentiary hearing.

At the commencement of the hearing counsel for the

Defendant announced that the instant motion was actually a Fla. R. Crim. P. 3.851 motion
2
relying on Fla. R. Crim. P. 3.203.

During said evidentiary hearing, the following witnesses testified and exhibits were

admitted:
Defense Witnesses

Glenn Ross Caddy, Ph.D., A.B.P.P.,
a clinical psychologist
Denis Keyes, B.S., M.Ed., M.S., Ed.S., Ph.D., NCSP, FAAMR,
Associate Professor of Special Education

2

Fla. R. Crim. P. 3.85l(d)(4).

6

221.4

314

'

~

046a

,

Defense Exhibits
Defense Exhibit A:

Dr. Caddy's Brief Intellectual Assessment of the Defendant dated 2/1/06
documenting an examination conducted on 5/l 0/05

Defense Exhibit B:

Dr. Keyes' Psychoeducational Report of the Defendant dated 10/21 /05
along with a letter explaining his findings and containing his opinions

Defense Exhibit C:

Letter dated 11/10/87 written by Dr. Carbonell

Defense Exhibit D:

Dr. Suarez' Psychological Evaluation of the Defendant dated 09/21 /05
signed 12/8/05

Defense Exhibit E:

Dr. Hyde's Comprehensive Behavioral Neurological Evaluation of the
Defendant dated 10117/05

Defense Exhibit F:

Defendant's Department of Corrections Medical Records

Defense Exhibit O

Dr. Keyes' Curriculwn Vitae

Defense Exhibit H:

Blue Binder of Background Materials Volume 2 Supplement containing:
Tab 1: Police Report and Note Concerning Larry Hunter
Tab 2: School Records, 1958•59, 1959-60 (multiple copies)
Tab 3: Miramar Police Report re: Shooting Incident
Tab 4: Prison Medical Records as of 1990
Tab 5: FDLE Rap Sheet: 10/29/87
Tab 6: Brevard County Records: 1963-64
Tab 7: Selected DDC and Probation Records: l 963-1984
Tab 8: Witness Affidavits and Testimony and Personnel Records
Julius Phillips
Ida Stanley
Laura Phillips
Reverent Jenkins
Mary Williams
Samuel Forde
Robert Cummings
City of Miami Work Records
Neighbors Restaurant Work Records
Ocilla Curry
J.
Georgia Ayers
k.
Tab 9: Fla. R. Crim. P. 3.203
Tab 10: Section 921.137, Fla. Stat. (2005)
Tab 11: Fla. Admin. Code R. 65B-4.032 (2005)
a.
b.
c.
d.
e.
f.
g.
h.
i.

Defense Exhibit I:

Blue Binder of Background Materials Supplemental Volume
7

I

047a

'

Tab 1: Florida Statute: Aggravating and Mitigating Circumstances
Tab 2: Florida Supreme Court Opinion on Direct Appeal
Tab 3: Sentencing Order (Dated April 20, 1994)
Tab 4: Supplemental Police Report dated 11/124/82
Tab 5: Transcript of Clemency Hearing dated June 12, 1987
Tab 6: Bro White Letter (See State's Exhibit 2)
Tab 7: Psychological reports
Dr. Haber
Dr. Miller
Dr. Carbonell
Tab 8: Letter to Dr. Jethro Toomer re: background materials
Tab 9: Hearing Transcripts
Dr. Haber:
1988 Evidentiary Hearing
1994 Re-sentencing
Dr Miller:
1988 Evidentiary Hearing
1994 Re-sentencing
Dr. Carbonell: 1988 Evidentiary Hearing
1994 Re-sentencing
Dr. Toomer: 1988 Evidentiary Hearing
1994 Re-sentencing
Tab 10: Department of Corrections Records
Defense Exhibit J:

White Binder of Background Materials Volume 3
Tab 1: DOC Medical Records 1990-2005

Defense Exhibit K:

Dr. Keyes' Dissertation on Malingering

Defense Exhibit L:

Article: Use of the Minnesota Multiphasic Personality Inventory (MMPI)
to Identify Malingering Mental Retardation, AAMR, Vol. 42, No. 2; April
2004

Defense Exhibit M:

Defendant's TONI-3 Score Sheet

Defense Exhibit N:

Examiner's Manual TONI-3 (Preface/ 27-32)

Defense Exhibit 0:

Defendant's WRAT-3 4 Score Sheet dated 9-20#05

3

3

The TONI-3, a major revision of the ... Test of Nonverbal Intelligence, is a norm-referenced measure of
intelligence, aptitude, abstract reasoning, and problem solving that is completely free of the use of language. The test
requires no reading, writing, speaking, or listening on the part of the test subject. It is completely nonverbal and
largely motor-free, requiring only a point, nod, or symbolic gesture to indicate response choices. AGS Publishing,
Products,
TONl-3:
Test
of
Nonverbal
Intelligence,
Third
http://www.agsnet.com/Group.asp?nGroupinfoID=al9IOO (last visited on March 26, 2006).

Edition

at

8

22~t6

316

I

048a

'

Defense Exhibit P:
Defense Exhibit Q:

Technical Assistance PaperTONI-3
Defendant's General Corrections Interpretive Report for the MMPI-2 for
an Assessment Dated 9/21/05

Defense Exhibit R:

Defendant's VIP 5 Raw Data; Test Date of09/21/05

Defense Exhibit S:

ABAS 6 Form: Off. Garry Paxton dated 11/16/05

Defense Exhibit T:

ABAS Fonn: Jerome Lee dated 11/17/05

Defense Exhibit U:

ABAS Fonn: Demetress Williams dated 11/16/05

Defense Exhibit V:

ABAS Form: Off. Thomas Harvey dated 11/17/05

Defense Exhibit W:

ABAS Form: Sgt. Henry Walker dated 11/16/05

4

The ... WRAT-3 allows educators to examine students' development of reading, spelling, and arithmetic. Spelling
and arithmetic may be adminisiered to groups or individuals; reading, to an individual only. The WRAT-3 can be
used to diagnose learning disabilities in reading, spelling, and arithmetic when given with a comprehensive test of
ability. The WRAT-3 subtests include recognizing and naming letters, pronouncing printed wprds, vm.ting letters and
words from dictation, counting, reading number symbols, and oral and written computation. Super Duper
at
Publications for Education Materials, Wide Range Achievement Test - 3rd Edition,
http://www.superduperinc.com/TUV_Pages/tm589.htm (last visited on March 26, 2006) .
.1 Designed to help meet the increasing need for a well-validated, psychometrically sound test that can provide
empirical support in courtrooms and other Legal institutions, the Validity Indicator Profile (VIP) test provides a
broad spectrum of infonnation about an individual's performance on an assessment battery. As a measure of
response styles, test results help assess whether the results of cognitive, neuropsychological or other types of testing
should be considered representative of an individual's overall capacities. The VIP test is a validity indicator designed
to be administered with tests that assess cognitive capacity. The individual's response style is classified into one of
four categories: Compliant, Inconsistent, Irrelevant, or Suppressed. Results of the VIP test indicate whether the
individual's performance on other tests of cognitive capacity should be considered a vali'd representation of his or
her abilities. http;//www.pearsonassessments.com/tests/vip,htm (Last visited on May 3, 2006).

6

Adaptive Behavior Assessment System®-Second Edition (ABAS®-Second Edition). A complete assessment of
adaptive skills functioning. Now including ages birth to five years, the Adaptive Behavior Assessment System'™-

Second Edition (ABAS™-Second Edition) is the only instrument to: incorporate current American Association of
Mental Retardation (AAMR) guidelines for evaluating the three general areas of adaptive behavior (Conceptual,
Social, Practical) and assess all 10 specific adaptive skills areas specified in the DSM-IV. It is used to: detennine
how individual is responding to daily demands; develop treatment and training goals; determine eligibility for
services and Social Security benefits; assess individuals with mental retardation, learning difficulties, ADD/ADHD,
or other impairments; and assess capability of adults to live independently.
Harcourt Assessment, at

http://harcourtassessment.com/haiweb/Cultures/en-US/Products/Product+Detail.htm?CS ProductlD=0l5-8004507 &CS_Categol)""SPsychological&CS_Catalog=TPC-USCatalog (last visited on March 26, 2006).

9

049a

' '

Defense Exhibit X:

ABAS Fonn: Lisa Wiley dated I 1/16/05
State Witness

Enrique Suarez, Ph.D., Neurophysiologist

State Exhibits
State's Exhibit 1:

Alibi Note

State's Exhibit 2:

Letter written by Defendant a/k/a Bro White Letter

State's Exhibit 3:

TONI-3 Validity & Mental Measurement Citation/Examiner's Manual
(Pages 26-70 are omitted) (See Court Exhibit 2)

State's Exhibit 4:

Position Paper of the National Academy ofNeuropsychology on Symptom
validity assessment: Practice issues and medical necessity; accepted
02/28/05

State's Exhibit 5:

TONI-3 Examiner's Manual Page 32

State's Exhibit 6:

Fifteen Item Memory Test Chart

State's Exhibit 7:

Defendant's Fifteen Item Memory Test Results

State's Exhibit 8:

Defendant's Recognition Test Results

State's Exhibit 9:

AAMR Manual Pages 75 and 79
Court Exhibits

Court Exhibit 1:
Court Exhibit 2:
Court Exhibit 3:

Peer to Peer Review of TONJ-3
TONI-3 Pages 26-70 (See State's Exhibit 3)
Handbook of Nonverbal Assessment
CONCLUSION

On February 24, 2006, the State submitted to this Court its Post Hearing Memorandum.
On February 27, 2006, the Defendant filed with the Court his Post Evidentiary Hearing
Memorandwn.

10

221.8

318

l

050a

'

Counsel for all parties declined this Court's offer to allow for oral argument on the merits
of the motion.

FINDINGS OF FACT
In addition to the facts developed during the evidentiary hearing, this Court is
adopting/taking judicial notice of the facts as outlined in Phillips v. State, 894 So. 2d 28 (Fla.
2004), and the facts contained in the Sentencing Order dated April 20, 1994.7
Additionally, on April 29, 1982, the Defendant wrote an alibi note as evidenced by
State's Exhibit 1. The Defendant wrote a letter as evidenced by State's Exhibit 2, the Bro White
Letter. On November 10, 1987, Dr. Carbonell prepared a letter documenting her findings. On
April 2, 2004, the AAMR published an article on the Use of the Minnesota Multiphasic

Personality Inventory (MMPI) to Identify Malingering Mental Retardation as evidenced by
Defense Exhibit L. On February 28, 2005, a Position Paper of the National Academy of
Neuropsychology on Symptom validity assessment: Practice issues and medical necessity was
accepted as evidenced by State's Exhibit 4.

On May 10, 2005, Dr. Caddy conducted an

intellectual assessment of the Defendant. During May, of 2005 the Bureau of Exceptional
Education and Student Services prepared a Technical Assistance Paper for the TONI-3 as
evidence by Defense Exhibit P. On September 20, 2005, the Defendant underwent a Wide
Range Achievement Test (WRAT-3) as evidenced by Defense Exhibit 0. On September 21,
2005, Dr. Suarez prepared his Psychological Evaluation of the Defendant.

A General

Corrections Interpretive Report for the MMPI-2 for an Assessment Dated 9/21/05, Defense
Exhibit Q, was also generated. On September 21, 2005, the Defendant underwent a VIP as
evidenced by Defense Exhibit R. On October 17, 2005t Dr. Hyde prepared his Comprehensive

11

221-9

319

051a

....

Behavioral Neurological Evaluation of the Defendant. On October 21, 2005, Dr. Keyes prepared
his Psycho Educational Report of the Defendant explaining his findings and containing his
opinions.

On November 16, 2005, Officer Gary Paxton underwent an Adaptive Behavior

Assessment System Test as evidenced by Defense Exhibit S. On November 16, 2005, Officer
Demetress Williams underwent an Adaptive Behavior Assessment System Test as evidenced by
Defense Exhibit U.

On November 16, 2005, Sgt. Henry Walker underwent an Adaptive

Behavior Assessment System Test as evidenced by Defense Exhibit W. On November 16, 2005,
Officer Lisa Wiley underwent an Adaptive Behavior Assessment System Test as evidenced by
Defense Exhibit X.

On November 17, 2005, Officer Jerome Lee underwent an Adaptive

Behavior Assessment System Test as evidenced by Defense Exhibit T. On November 17, 2005,
Officer Thomas Harvey underwent an Adaptive Behavior Assessment System Test as evidenced
by Defense Exhibit V. On February 1, 2006, Dr. Caddy drafted his report documenting his
findings from the May 5, 2005 intellectual assessment of the Defendant. In 2005, the Defendant
underwent a Test of Nonverbal Intelligence as evidenced by Defense Exhibit M. In 2005, the
Defendant underwent a Fifteen Item Memory Test as evidenced by State's Exhibit 7. In 2005,
the Defendant underwent a Recognition Test as evidenced by State's Exhibit 8.

7

Section 90.202(6), Fla. Stat. (2005) states that a court may take judicial notice of the records of any court of this

state.

12

2220 320

052a

EXPERT WITNESS TESTIMONY

8

Three witnesses (two for the Defendant and one for the State) testified during the subject

evidentiary hearing. For the reasons stated below, this Court finds that all three are experts in
9
their fields and thus, their opinions are admissible. However, the weight this Court will accord

the testimony is discussed in the Legal Analysis section of this Order.
Defendant's Two Experts
Dr. Caddy

Dr. Caddy, the Defendant's expert, holds a Ph.D. in clinical psychology and is licensed in
the State of Florida. He is also a Fellow of the American Academy of Clinical Psychology and
certified in Behavioral Medicine. He js also boaro•certified in Forensic Psychology.

8

It is a trial court's duty to decide what weight to give conflicting testimony. Oats v. Dugger, 638 So. 2d 20 (Fla.
1994). In making these fmclings of fact, this court, based on the in court testimony, considered whether; each
witness seemed to have an opportunity to see and know the things about which the wibless testified, each witness
seemed to have accurate memory, the witness was honest and straightforward in answering the attorneys' questions,
the witness had some interest in how the case should be decided, the witness' testimony agreed with the other
testimony and other evidence in the case, the witness had been offered or received any money, preferred treatment
or other benefit in order to get the witness to testify, whether any pressure or threat been used against the witness
that affected the truth of the witness' testimony, the witness at some other time make a statement that is inconsistent
with the testimony he gave in court, it was proved that the witness had been convicted of a crime, and/or it was
proved that the general reputation of the witness for telling the truth and being honest was bad. See Fla. Std. Jury
Instr. (Crim.) 3.9 and J.9(A). ("Expert witnesses are like other witnesses, with one exception - the law permits an
expert witness to give his opinion. However, an expert's opinion is reliable only when given on a subject about
which you believe him to be an expert. Like other wiblesses, you may believe or disbelieve all or any part of an
expert's testimony.")
9
If scientific, technical, or other specialized knowledge will assist the trier of fact in understanding the evidence or
in determining a fact in issue, a witness qualified as an expert by knowledge, skill, experience, training, or education
may testify about it in the form of an opinion; however, the opinion is admissible only if it can be applied to
evidence at trial. Section 90.702, Fla. Stat. (2004) . There is a four-prong test for the admissibility of expert
111
testimony. See CSX Transp.• Inc. v. Whittler, 584 So. 2d 579, 584 (Fla. 4 DCA 1991), review denied, 595 So.2d
556 (Fla.1992) (Setting forth the "four-prong test for the admissibility of expert testimony; ( 1) the opinion evidence
must be helpful to the trier of fact; (2) the witness must be qualified as an expert; (3) the opinion evidence must be
applied to evidence offered; and (4) the evidence, although technically relevant, must not present a substantial
danger of unfair prejudice that outweighs its probative value."). Whether a witness possesses adequate
qualifications to submit expert testimony is a question of fact to be decided by the trial court."). See Wright v.
Schulte, 441 So.2d 660, 662 (Fla. 2d DCA 1983) ("Our supreme court has commented that the rule is very well
settled that, to give an opinion on medical questions, one may be qualified by study without practice, or by practice
without study .... Florida courts have made it clear that one need not be of the same specialty or branch of medicine,
yet may be qualified to give expert testimony. 'J

13

2221-

321

053a

At the evidentiary hearing, Dr. Caddy testified for the Defendant. Dr. Caddy testified
that half of his practice consists of forensic work, with one-third of the forensic work relating to

criminal law matters. He has been hired approximately fifteen times in fifteen years by CCR 10
throughout the state. He has never been hired as an expert by the State.
On May 10, 2005, Dr. Caddy conducted an intellectual assessment of the Defendant. The
instrument he used as part of his comprehensive intellectual assessment was the Wechsler Adult
Intelligence Scale III (WAIS-III) and he took about three hours to administer the test to the
Defendant. He testified that the WAIS-III is the substantially used single measure of intellectual
assessment. He added that it is an interactive administration process where you follow

very

specific guidelines for the administration. There are a series of subtests and in the series of
subtests the examinee responds to questions that are either administered orally, or in some

instances the tasks are performance based tasks that the person is required to complete. When
they have completed these tasks and have answered the questions, the answers and the nature of
their completion activities is scored against the standard. Then that score is translated into a
score against the distribution of IQ's in the normative population.
On the WAIS-III, the Defendant achieved a full-scale score of 70, which placed him in
the borderline range of mental retardation. His verbal dimension score was 69, overall score was
69, and his performance Intelligence Quotient (IQ) score was 76. Dr. Caddy explained that the
difference in the veroal and IQ scores could be due to the fact that low functioning individuals
have reduced capacities to express themselves verbally due to educational and cultural
10

To facilitate the expeditious resolution of collateral appeals, the Florida legislature created the Office of Capital
Collateral Representative (CCR), in 1985, as a State agency. Attorneys were employed to represent those on deathrow in State and Federal collateral proceedings. http://www.fedsoc.org,'Publications/practicegIQµpnewsletters/criminallaw/c!O} Q}!)J,htm (last visited May 3, 2006).

14

2222

322

054a

disadvantages.
Dr. Caddy also relied upon a report by Dr. Keyes, who administered the WAIS-III to the
Defendant in 2000. The scores obtained by Dr. Keyes · were a full scale score of 74, a
performance index of 76, and a verbal index of 75. Dr. Caddy stated that these scores are
consistent with the scores he obtained.
Dr. Caddy also testified that he had Dr. Joyce Carbonell's November 10, 1987 report.
Dr. Carbonell also gave the Defendant the WAIS-III. The results of Dr Carbonell's
administration of the WAIS-Ill were a full-scale score of 75, verbal score of 75, and perfonnance
score of 77.

Dr. Caddy testified that people who have severe mental limitations tend to function much
better in a highly-structured environment than if they were living on the streets. However, there
is no clear and convincing evid~ce in the record that the Defendant has severe mental
limitations. Dr. Caddy added that living within a structured environment could actually have the
effect of increasing some intellectual assessment scores due to the tendency for there to be more
opportunities to read in such a setting. It should be noted that the Defendant told Dr. Caddy he
does not read very often.
When asked on cross examination if he has an opinion regarding whether the Defendant
was mentally retarded, Dr. Caddy stated: "I have an opinion that he is functioning at an IQ of 70.
I have an opinion that says that this condition has existed since very early in life. I have not done
personally those tests that look at adaptive functioning."

Dr. Caddy further testified that .an IQ range of 70 through 79 is borderline and that
generally, borderline is not retarded.

When asked if he would put Harry Philips into the

borderline category or the mentally retarded category based on his evaluations and everything he
15

2223

323

055a

read, Dr. Caddy equivocated: "In some areas I put him in the retarded category and some areas I
put him in the borderline category."

Dr. Keyes
Dr. Keyes is an Associate Professor of Special Education at the College of Charleston in
South Carolina. He has 31 years of experience working with mental retardation. He has never
been hired by the State as an expert. When hired by the defense, he has found defendants to be
mentally retarded approximately half of the time. Regarding other cases, he has told CCR
several times that the defendant is not mentally retarded and that he would not be able to help.
Dr. Keyes is not licensed in Florida Dr. Keyes taught a class for the Florida Prosecuting
Attorneys Association in 200 I on how to recognize mental retardation.

He stated that

prosecutors should look for poor planning and coping skills.
In order to determine adaptive functioning, Dr. Keyes first had to detennine if there was
an onset of mental retardation before the age of 18. He looked at the Defendant's school and
work records and spoke with his family and friends. As a result of his conversations with the
Defendant's friend, he came to believe that the Defendant demonstrated significant adaptive
deficits before the age of 18. Dr. Keyes also administered the Scale of Independent Behavior
test.

It is the opinion of Dr. Keyes that the Defendant is mentally retarded. Dr. Caddy's test
results were similar. Dr. Keyes agrees with Dr. Hyde's report that the Defendant has brain
damage. It should be noted that Dr. Suarez's test results were based on different infonnation.
Dr. Keyes stated that he would not have administered the same tests as those given by Dr.
Suarez. Dr. Keyes believes that the ABAS test results are invalid and that the MMPI should
16

2224

324

056a

never be administered on persons with mental retardation. However, there is no clear and
convincing evidence that the Defendant is mentally retarded.

State's Expert Dr. Suarez_
Dr. Enrique Suarez, a specialist in Neuropsychology, was called by the State.
Neuropsychological tests are geared towards impairments that may reflect physical brain
damage. Impairments may be due to organic or anatomical trauma.
Dr. Suarez has done approximately 3,000 forensic evaluations. The overwhelming
majority of these evaluations have been for the defense. He currently has cases where he has

been hired by the Public Defender's Office. He also does evaluations for the CCR. It should be
noted that Dr. Suarez is not particularly fond of the death penalty.
Based on all the tests he ran, and the review of the full record in this case including the
testimony of Dr. Keyes and Dr. Caddy, Dr. Suarez does not think that the Defendant is mentally
retarded. However, there is substantial indication that he probably functions in the low average
range.
LEGAL ANALYSIS
PROCEDURE
Written Motion

A defendant who intends to raise mental retardation as a bar to execution must file a
written motion that includes ( 1) a statement that the defendant is mentally retarded and, (2) if the
defendant has been previously tested, evaluated, or examined by one or more experts, the names
and addresses of those experts, as well as copies of any expert reports.

Fla. R. Crim. P.

3.203(c)(2); 3.85l(d)(4). If the defendant has not been previously tested, evaluated. or examined
by an expert, he must include a statement to that effect. Fla. R. Crim. P. 3.203(c)(3).

17

2225

325

•

057a

•

In its opinion promulgating Rule 3.203, the Florida Supreme Court also noted that Rule
3.203 divides into three categories the types of cases in which a defendant/inmate may avail
himself of a detennination of mental retardation as a bar to execution including mental
retardation claims that arise in cases where the conviction for first-degree murder and sentence of
death have been affirmed on direct appeal on or before the effective date of the rule. In re

Amendments to Fla. Rules of Criminal Procedure and Fla. Rules of Appellate Procedure, 875
So. 2d at 565 (Fla. 2004); Fla. R. Crim P. 3.203(a) (This rule applies in all first-degree murder
cases in which the state attorney has not waived the death penalty on the record and the
defendant's mental retardation becomes an issue.)
Here, the Defendanfs claims arose before the effective date of Fla. R. Crim. P. 3.203,
(May 20, 2004) in that, his first-degree murder and sentence of death were affirmed on direct

appeal on August 30, 1985. Thus, the Defendant's case is a final case and subject to Fla. R.
Crim. P. 3.203 by operation of Fla. R. Crim. P. 3.851(d)(4). Phillips v. State, 476 So. 2d 194
(Fla. 1985); In re Amendments to Fla. Rules of Criminal Procedure and Fla. Rules of Appellate

Procedure, 875 So. 2d at 565 (Fla. 2004); Walls v. State, 2006 WL 300665 {Fla. 2006) ("A
death-sentenced prisoner is pennitted to file a motion for a detennination of mental retardation in
cases where the prisoner's direct appeal is final.").
Defendant,s Evaluation

After the defendant has filed a motion for a determination of mental retardation as a bar

to execution, the court must appoint two experts who must "promptly test, evaluate, or examine"
the defendant and submit a written report of any findings to the parties and to the court. Fla. R.
Crim. P. 3.203(c)(3).

18

2226

326

058a

,.

Here, the Defendant was examined/evaluated by the three aforementioned experts.
Evidentiary Hearing

The court must conduct an evidentiary hearing on the motion for a determination of
mental retardation, at which time it must consider the findings of experts and any other evidence
regarding the defendant's mental retardation. Fla. Crim. P. 3.203(e); § 921.137(4), Fla. Stat.
(2006).

This Court conducted an evidentiary hearing on February 13, 14, 15, and 16, 2006.
During the aforementioned hearing, the above thre~ expert witnesses testified and the above
listed exhibits and documents were admitted.
Court Order/Findings

If the court finds that the defendant has not established mental retardation, it must enter a
written order providing its specific findings in support of that determination. Fla. R. Crim. P.
3.203(e).

Herein is the written order providing this Court's specific findings in support of its
determination that the Defendant has not established by clear and convincing evidence that he is
mentally retarded.
DUE PROCESS
Substantive and Procedural

The United States Constitution protects the right to substantive and procedural due
process. Substantive due process protects fundamental rights from unwarranted encroachment
from the government. See Department of Law Enforcement v. Real Property, 588 So. 2d 957,
960 (Fla. 1991 ). In cases where substantive due process rights are at issue, procedural due
process protects an individual's right to a fair judicial proceeding. See id.

Nevertheless, a

19

2227

327

059a

Defendant has no right to a jury determination of whether he is mentally retarded. Rodriguez v.
State, 919 So. 2d 1252 (Fla. 2005). The reason for that is that there is no Sixth Amendment right

to jury sentencing, even where the sentence turns on specific findings of fact.

Hildwin v.

Florida, 490 U.S. 638 (1989). Additionally, sentencing matters are within the sole province of
judges. Grage v. State, 717 So. 2d 547 (Fla. 5th DCA 1998).
Therefore, the Defendant is incorrect when he states that the jury should make the
decision as to whether he is mentally retarded. Here, the death sentence has already been
imposed and affinned. The Defendant is trying to vacate his sentence, not oppose its imposition.
Nowhere in our jurisprudence is there a provision for juries to make legal determinations as to
whether a motion to vacate a sentence should be granted. That is strictly within the province of
the Court.
Regarding the Defendanfs Eighth Amendment argument, while it is true that the Atkin/ 1
Court opined that executing a mentally retarded offender is unconstitutionally cruel and unusual
punishment, it is axiomatic that there is no constitutional violation if the Defendant cannot prove
by clear and convincing evidence that he is mentally retarded. Id. As explained in this Order,
the Defendant has not proven by clear and convincing evidence that he is mentally retarded.
Thus, there is no Eighth Amendment violation.
Although, the Defendant is correct that Fla. R. Crim. P. 3.203 does not contain a standard
of proof, the omission of a standard of proof from that rule has no bearing on his notice

regarding what standard will be applied to his claim due to the Florida Supreme Court's opinion
in In re Amendments to Fla. Rules ofCriminal Procedure and Fla. Rules ofAppellate Procedure,
875 So. 2d at 565 (Fla. 2004). The aforementioned opinion placed the Defendant on constructive
20

2228

328

060a

notice of the standard of proof that would be applied to his claim. In fact, the Defendant cited to
the opinion in the subject motion. Clearly, he was on notice. Therefore, the Defendant's due
process rights have not been violated.
MENTAL RETARDATION
Background
In 2001, the Florida Legislature adopted Section 921.137 of the Florida Statutes,
prohibiting the imposition of the death penalty upon mentally retarded defendants who are
sentenced to death after the statute's effective date of June 12, 2001, and providing procedures to
determine whether a defendant is mentally retarded. § 921.137, Fla. Stat. (2005). One year later,
the United States Supreme Court in Atldns v. Virginia, 536 U.S. 304 (2002), found the imposition

of the death penalty upon mentally retarded offenders to be an unconstitutionally excessive
punishment.
In an effort to integrate the United States Supreme Courf s holding in Atkins (citations
omitted) into Florida law, the Florida Supreme Court in 2004 promulgated a new rule of criminal
procedure, Fla. R. Crim. P. 3.203, which prohibits the execution of all mentally retarded

defendants, including those convicted of a capital offense prior to the effective date of Section
921.13 7, and provides new procedures for determining mental retardation. Fla. R. Crim. P.
3.203; In re Amendments to Fla. Rules of Criminal Procedure and Fla. Rules of Appellate

Procedure, 875 So. 2d 563 (Fla. 2004). Section 921.137(1), of the Florida Statutes, and Rule
3.203(b) of the Florida Rules of Criminal Procedure share the same definition of mental

retardation discussed infra. The Defendant, however, argues that the governing definition of
mental retardation is the definition promulgated by the American Association on Mental
Retardation (AAMR).

II

536 u. S. 304 (2002)

21

2229

329

061a

American Association on Mental Retardation (AAMR)
Definition of Mental Retardation
The American Association on Mental Retardation (AAMR) defines mental retardation as
"a disability characterized by significant limitations both in intellectual functioning and in
adaptive behavior as expressed in conceptual, social, and practical adaptive skills. This disability
originates before the age of 18." 12 The AAMR states that an IQ score of 75 is "approximately 2
standard deviations below the mean, considering the standard error of measurement." 13 Under
the AAMR definition of mental retardation, limited intellectual functioning requires that an
individual have impainnent in general intellectual functioning that places him/her in the lowest
category of the general population.

Intelligence Quotient (IQ) scores alone are not precise

enough to identify the upper bowidary of mental retardation. Some experts generally agree that
mental retardation includes everyone with an IQ score of 70 or below, but the definition also
includes some individuals with IQ scores in the low to mid-70s. 14

Clinical judgments by

experienced diagnosticians are necessary to ensure accurate diagnoses of mental retardation. 15

12

American Association on Mental Retardation, AAMR Definition of Mental Retardation, at
http://www.aamr.org/Policies/faq_mental_retardation.shtml (last visited on Aug. 23, 2005); see also AMERICAN
AsSOCIATION ON MENTAL RETARDATION, MENTAL RETARDATION: DEFINITION, CLASSIFICATION, AND SYSTEMS OF
SUPPORTS 5 (9th ed. 1992) ("Mental retardation refers to substantial limitations in present functioning. It is
characterized by significantly sub average intellectual functioning, existing concurrently with related limitations in
two or more of the following applicable adaptive skill areas: communication, self-care, home living, social skills,
community use, self-direction, health and safety, functional academics, leisure, and work. Mental retardation
manifests before age 18").
13
American Association on Mental Retardation, AAMR Definition of Mental Retardation, al
http://www.aamr.org/Policies/faq_mental_retardation.shtml (last visited on Aug. 23, 2005).
14
See James W. Ellis, Mental Retardation and the Death Penalty: A Guide to State Legislative Issues, at 7 (2002)
(unpublished manuscript), available at www.deathpenaltyinfo.org/MREllisLeg.pdf (last visited on Aug. 23, 2005).
Ellis notes that "relevant professional organizations have long recognized the importance of clinical judgment in
assessing general intellectual functioning, and the inappropriaten~ and imprecision of 81'bitrarily assigning a single
IQ score as the boundary of mental retardation." Id. at 7 n.18; see also American Association of Mental Retardation,
Definition of Mental Retardation, at http://www.aamr.org/Policies/faq_mental_retardation.shtml (last visited on
Aug. 23 , 2005) (noting that "an obtained IQ score must always be considered in light of its standard error of
measurement," thus making the IQ ceiling for mental retardation rise to 75. Ho~ver, "an IQ score is only one
aspect in determining if a person has mental retardation."); AMERICAN ASSOCIATION Of MENTAL RETARDATION,
MEi-rTAL RETARDATION: DEFINITION, CLASSIFICATION, AND SYSTEMS OF SUPPORT 5 (Ruth Luckasson ed., 9th ed.

22

2230

330

062a

··---·- ·- ··> -- --

The AAMR definition of mental retardation includes adaptive behavior limitations,
which produce real-world disabling effects on a person's life, designed to ensure that an
individual is truly disabled and not simply a poor test-taker. 16 Under this definition, adaptive
behavior is "expressed in conceptual, social, and practical adaptive skills" and focuses on broad
categories of adaptive impairment, not service-related skill areas. 17
The AAMR also requires that mental retardation be manifested during the developmental
period, which is generally defined as up until the age of 18. This does not mean that a person
must have been IQ tested with scores in the mentally retarded range during the developmental
period, but instead, there must have been manifestations of mental disability, which at an early
age generally take the form of problems in the area of adaptive functioning:18 The age of onset
requirement is used to distinguish mental retardation from those fonns of mental disability that
can occur later in life, such as traumatic brain injury or dementia. 19

1992) (" Mental retardation is characterized by significantly sub average intellectual capabilities or 'low
intelligence.' If the IQ score is valid, this will generally result in a score of approximately 70 to 75 or below. This
upper boundary of IQs for use in classification of mental retardation is flexible to reflect the statistical variance
inherent in all intelligence tests and the need for clinical judgment by a qualified psychological examiner.");
AMERICAN ASSOCIATION ON MENTAL DEFICIENCY, CLASSIFICATION IN MENTAL RETARDATION 11 (Herbert J.
Grossman ed., 8th ed. 1983) ("This upper limit is intended as a guideline; it could be extended upward through IQ
75 or more, depending on the reliability of the intelligence test used. This particularly applies in schools and similar
settings if behavior is impaired and clinically determined to be due to deficits in reasoning and judgment.");
AMERICAN PSYCHIATRIC ASSOCIATION, DIAGNOSTIC AND STATISTICAL MANUAL OF MENTAL DISORDERS 41 ( 4 111 ed.

2000) ("Thus it is possible to diagnose Mental Retardation in individuals with IQs between 70 and 75 who exhibit
significant deficits in adaptive behavior.").
15
This fact is reflected in Atkins v. Virginia, 536 U.S. 304 (2002) where the Court noted that "an IQ between 70
and 75" is "typically considered the cutoff IQ score for the intellectual function prong of the mental retardation
definition." 536 U.S. 304,309 n.5 (2002).
16

11

18

Ellis, supra note 11, at 8.
Id.
Ellis, supra note I l .

23

2231.

331

063a

The Governing/Applicable
Defmition of Mental Retardation from
Fla. R. Crim. P. 3.203

The Defendant is incorrect when he argues that the AAMR definition of mental
retardation is governing in this instance. Having found, supra, that the Defendant's case is
subject to Fla R. Crim. P. 3.203, this Court must apply the definition espoused in the applicable
governing rule. Fla. R. Crim. P. 3.85l(d)(4); Phillips v. State, 476 So. 2d 194 (Fla. 1985); In re

Amendments to Fla. Rules of Criminal Procedure and Fla. Rules of Appellate Procedure, 875
So. 2d at 565 (Fla. 2004); Walls v. State, 2006 WL 300665 (Fla. 2006) (A death-sentenced

prisoner is permitted to file a motion for a determination of mental retardation in cases where the
prisoner's direct appeal is final.).
Florida Rule of Criminal Procedure 3.203(b) defines the term "mental retardation" as: (1)
"significantly sub average general intellectual functioning," (2) "existing concurrently with
deficits in adaptive behavior," and (3) which has "manifested during the period from conception
to age 18." Fla. R. Crim. P. 3.203(b); see Rodriguez v. State, 919 So. 2d 1252 (Fla. 2005) n 8.
(According to the Diagnostic and Statistical Manual of Mental Disorders, mental retardation is
"characterized by significantly sub average intellectual functioning (an IQ of approximately 70
or below) with onset before age 18 years and concurrent deficits or impairments in adaptive

functioning." American Psychiatric Association, Diagnostic and Statistical Manual of Mental
Disorders, 39 (4th ed. 2000)); see also §§ 393.063(38), 916.106(12), Fla. Stat. (2005) (both

defining mental retardation in the same manner as defined in Section 921.13 7, Fla. Stat. (2005)).

i9

Id.

24

2232

332

064a

.-

Significantly Sub Average
General Intellectual Functioning
"Significantly sub average general intellectual functioning'' is defined as "performance
that is two or more standard deviations from the mean score on a standardized intelligence test
specified in the rules of the Department of Children and Family Services." Fla. R. Crim. P.
3.203(b) (noting that the intelligence tests authorized by the Department of Children and Family
Services are found in Fla. Admin. Code R. 65B-4.032 (2005); Fla. Admin. Code R. 65B-4.032
21

20
(2005) (Requiring the Stanford-Binet Intelligence Scale and the Wechsler Intelligence Scale

tests to be administered to defendants convicted of a capital felony who are suspected of being

The Stanford-Binet intelligence scale is a standardized test that assesses intelligence and cognitive abilities in
children and adults aged two to 23. The Stanford-Binet intelligence scale is used as a tool in school placement, in
detennining the presence of a learning disability or a developmental delay, and in tracking intellectual development.
In addition. it is sometimes included in neuropsychological testing to assess the brain function of individuals with
neurological impairments. The Stanford•Binet intelligence scale should be administered and interpreted by a trained
professional, preferably a psychologist. The Stanford-Binet intelligence scale is a direct descendent of the BinetSimon scale, the first intelligence scale created in 1905 by psychologist Alfred Binet and Dr. Theophilus Simon.
This revised edition, released in ·l 986, was designed with a larger, more diverse, representative sample to minimize
the gender and racial inequities that bad been criticized in earlier versions of the test The Stanford-Binet scale tests
intelligence across four areas: verbal reasoning, quantitative reasoning, abstract/visual reasoning, and short-tenn
memory. The areas are covered by 15 subtests, including vocabulary, comprehension, verbal absurdities, pattern
analysis, matrices, paper folding and cutting, copying, quantitative, number series, equation building, memory for
sentences, memory for digits, memory for objects, and bead memory. All test subjects take an initial vocabulary
test, which along with the subject's age, determines the number and level of subtests to be administered. Total
testing time is 45-90 minutes, depending on the subject's age and the number of subtests given. Raw scores are
based on the number of items answered, and are converted into a standard age score corresponding to age group,
at
Site
Health
Your Family
Z,
A to
Health
measure.
IQ
an
to
similar
http://www.healthatoz.com/healthatoz:/Atoz:/ency/stanford-binet_intelligence_scales.jsp. (last visited on March 6,
20

2006).

The Wechsler adult intelligence scale (WAIS) is an individually administered measure of intelligence, intended
for adults aged 16--89. The WAIS is intended to measure human intelligence reflected in both verbal and
performance abilities. Dr. David Wechsler, a clinical psychologist, believed that intelligence is a global construct,
reflecting a variety of measurable skills and should be considered in the context of the overall personality. The
WAIS is also administered as part of a test battery to make inferences about personality and pathology, both through
the content of specific answers and patterns of subtest scores. Besides being utilized as an intelligence assessment,
the WAIS is used in neuropsychological evaluation. specifically with regard to brain dysfunction. Large differences
in verbal and nonverbal intelligence may indicate specific types of brain damage. The WAIS is also administered
for diagnostic purposes. Intelligence quotient (IQ) scores reported by the WAIS can be used as part of the diagnostic
criteria for mental retardation. specific learning disabilities, and attention-deficit/hyperactivity disorder (ADHD).
The Wechsler Adult Intelligence Scale al http://www.minddisorders.com/Pv-Z/Wechsler-adult-intelligence§ ~ i (last visited March 6, 2006). This test is the standard instrument for assessing intellectual functioning.
21

Atkin.v, 536 at 309, fn 5.

25

2233

333

065a

''

mentally retarded); see Zack v. State, 911 So. 2d 1190, 1201 (Fla. 2005) (finding that in order to
be exempt from execution under Atkins, 22 a defendant must meet Florida's standard for mental
retardation, which requires he establish that he has an IQ of 70 or below). Thus, this Court in

determining the Defendant's IQ is limited to relying on the results contained in the StanfordBinet Intelligence Scale and the Wechsler Intelligence Scale and no other evaluatio
n
instrurnent. 23 Also, the tenn "significantly", the adverb of significant, means "of a noticeably or
measurably

large

amount."

Merriam-Webster

Online

Dictionary

http://www.m-

w.com/dictionary/significant (last visited May 5, 2006); L.B. v. State, 700 So. 2d 370 (Fla. 1997
(If not defined in a statute, a court may refer to a dictionary to ascertain the plain and
ordinary

meaning that the legislature intended to ascribe to a term.). Therefore, the sub average general
intellectual functioning must be of a noticeably or measurably large amount.
Existing Concurrently
With Deficits in Adaptive Behavior
Similar to the AAMR, Florida law defines the tenn "adaptive behavior" as "the
effectiveness or degree with which an individual meets the standards of personal independence
and social responsibility expected of his or her age, cultural group, and community." Fla.
R.

Crim. P. 3.203(b). In addition to having an IQ score that is "two or more standard deviation
s
22

536 U.S. 304 (2002)
Although it would appear that this Court can consider other valid tests and evaluation materials
to detennine the
Defendant's level of intellectual functioning, the Florida Administrative Code authorizes this
Court to consider these
tests and materials only if the subject motion is filed pursuant to Section 921.137, Fla. Stat. (2005).
See Fla. Admin.
Code R. 65B-4.032(2) (2005) (Notwithstanding this rule, the court, pursuant to subsection
921.137(4), Florida
Statutes, is authorized to consider the findings of the court appointed experts or any
other expert utilizing
individually administered evaluation procedures which provide for the use of valid tests and
evaluation materials,
administered and interpreted by trained personnel. in conformance with instructions provided
by the producer of the
tests or evaluation materials. The results of the evaluations submitted to the court shall
be accompanied by the
published validity and reliability data for the examination. Specific Authority 921. I 3
7(I) FS. lllw Implemented
921.137(1) FS. History-New 1-13-04). Here, since the instant motion was filed pursuant
to Fla. R. Crim. P. 3.203,
this section of the administrative code is not applicable .
23

26

2234

334

066a

from the mean score on a standardized intelligence test," the State of Florida requires the
defendant to have "deficits in adaptive behavior" that exist concurrently with the requisite IQ
score.

Fla. R. Crim. P. Crim. P. 3.203(b).

24

Similar to the AAMR definition, the Florida

Supreme Court has stated that the "deficit in adaptive behavior" component is equally as
important as a low IQ score. Rodriguez v. State, 919 So. 2d 1252 (Fla. 2005). Even where an
individual's IQ is lower than 70, mental retardation would not be diagnosed if there are no
significant deficits or impairments in adaptive functioning. Id.

Adaptive functioning refers to

"how effectively individuals cope with common life demands and how well they meet the
standards of personal independence expected of someone in their particular age group, sociocultural background, and community setting."

Id.

In order for mental retardation to be

diagnosed, there must be significant limitations in adaptive functioning in at least two of the
following skill areas: communication, self-care, home living, social/interpersonal skills, and use
of community resources, self-direction, functional academic skills, work, leisure, health, and
safety. Id. The United States Supreme Court in Atkins v. Virginia, 536 U.S. 304 {2002) indicated
that a limitation in adaptive behavior was comprised of deficits in at least two of the following
skill areas: communication, self-care, home living, social skills, community use, self-direction,
health and safety, functional academics, leisure, and work. 536 U.S. at 309 n.3 (2002). The
Rodriguez Court held that a low IQ is not, by itself, sufficient to establish mental retardation;

there must also be deficits in the defendant's adaptive functioning. Id. (noting that the defendant
was able to run a drug trafficking operation, balance a bank account, and understand how to
finance a new car, which indicates a level of adaptive functioning sufficient to counter his IQ of

64).
24

But neicher the rule nor the statute setting out the definition of mental retardation in Florida make any reference to

27

2235

335

067a

Manifested During the Period from Conception to Age 18
The State of Florida, like the AAMR, similarly requires the sub average intellectual
functioning and concurrent deficits in adaptive behavior to ..manifest[] during the period from
conception to age 18." Fla. R. Crim. P. 3.203(b).

IT IS THE DEFENDANT WHO BEARS THE BURDEN OF PROOF
IN A MOTION TO VACATE A DEATH SENTENCE
BASED ON MENTAL RETARDATION
Since Fla. R. Crim. P. 3 .203 governs, this Court must now determine the appropriate
standard of proof and identify the party with the burden. Because of concerns about whether the
burden of proof is a substantive or procedural issue and further concerns about the
constitutionality of the clear and convincing evidence standard used in section 921.137, Fla. Stat.
(2004) for a mental retardation detennination, the Florida Supreme Court left Rule 3.203 silent
as to the burden of proof. Fla. R. Crim. P. 3.203(d); In re Amendments to Fla. Rules of Criminal

Procedure and Fla. Rules ofAppellate Procedure, 875 So. 2d 563, 566-67 (Fla. 2004) (Pariente,
J ., concurring) (noting that the combination of Atkins and Cooper v. Oklahoma, 517 U.S. 348
(l 996), which held that a state law requiring a defendant to establish incompetence to stand trial
by clear and convincing evidence was unconstitutional, raises the issue of whether use of the
same clear and convincing evidence standard in a mental retardation determination is
constitutional). Justice Pariente notes that the omission of the standard of proof in Rule 3.203
obligates trial courts to either (1) apply the clear and convincing evidence standard that is
required by Section 921.137(4), or (2) find that standard unconstitutional in a particular case,
which would give the Florida Supreme Court a case or controversy to decide the constitutionality

the standard error of measurement. See Section 921.137, Fla. Stat. (2006); Fla. R. Crim. P. 3.203.

28

2236

336

068a

of the standard rather than doing so in a non-adversarial rulemaking proceeding. Id. at 567.
Significantly, the Atkins25 Court stated that it was leaving the task of developing appropriate
ways to enforce the constitutional restriction upon their execution of a death sentence to each
individual state. Accordingly, the Defendant bears the burden of proof and the standard is clear
and convincing evidence. See § 921.137(4), Fla. Stat. (2006) ("If the court finds, by clear and
convincing evidence, that the defendant has mental retardation ... the court may not impose a
sentence of death ....")
Additionally, this Court finds the Defendant's clear and convincing burden of proof to be
constitutional. Id.; see Bush v. Holmes, 31 Fla. L. Weekly SI (Fla. 2006) (Court should give a
statute a constitutional construction where such a construction is reasonably possible.); Whitsett
v. State, 30 Fla. L. Weekly D2442 (Fla. 4th DCA 2005) (An act must be construed, if fairly

possible, as to avoid unconstitutionality and to remove grave doubts on that score.); Sunset
Harbour Condominium Ass'n v. Robbins, 30 Fla. L. Weekly S548 (Fla. 2005) (If at all possible,

a statute should be construed to be constitutional.); Michelson v. State, 30 Fla:. L. Weekly D1128
(Fla. 4th DCA 2005) (If it is reasonably possible to do so, a court is obligated to interpret statutes
in such a manner as to uphold their constitutionality.); State v. Hanna, 30 Fla. L. Weekly D816
(Fla. 5th DCA 2005) (Statutes and ordinances are presumed to be constitutional, and all
reasonable doubts regarding the statute or ordinance must be resolved in favor of
constitutionality and the defendant who challenges the constitutional validity of a statute bears a

heavy burden of establishing its invalidity.); Humana Medical Plan, Inc. v. State, Agency For
Health Care Admin., 30 Fla. L. Weekly D765 (Fla. 1st DCA 2005) (A statute is presumed to be

constitutional and in determining the constitutionality of a statute, if any state of fact, known or
25

536 U.S. 304 (2002)

29

2237

337

069a

to be assumed, justifies the law, the court's power of inquiry ends; questions as to the wisdom,
need or appropriateness are for the legislature.); State v. Nichols, 30 Fla L. Weekly D446 (Fla.
1st DCA 2005} (There is a preswnption of constitutionality inherent in any statutory analysis.);

Department Of State, Division Of Elections v. Martin, 29 Fla. L. Weekly D2380 (Fla. 1st DCA
2004) (If at all possible, the court must construe a statute in such a way as to uphold its
constitutionality.); East~European Ins. Co. v. Borden, 29 Fla. L. Weekly D1784 (Fla. 4th DCA
2004) (Courts have a duty to interpret a legislative act so as to effect a constitutional result if it is
possible to do so.); State v. Rose, 29 Fla. L. Weekly 01548 (Fla. 4th DCA 2004) (Statutes are
presumed to be constitutional, and all reasonable doubts as to their validity are resolved in favor
of their constitutionality.); B.S. v. State, 28 Fla. L. Weekly D2198 (Fla. 2d DCA 2003) (Under
ordinary scrutiny, a legislative act is presumed constitutional; to withstand such scrutiny, the law
must bear some rational relationship to legitimate state puiposes.).
Definition Of
Clear and Convincing Evidence
Clear and convincing evidence differs from the greater weight of the evidence in that it is
more compelling and persuasive. In re Standard Jury Instructions-Civil Cases (No. 00-2), 797
So. 2d 1199 (Fla. 2001). "Greater weight of the evidence" means the more persuasive and
convincing force and effect of the entire evidence in the case. Id.

In contrast, "clear and

convincing evidence" is evidence that is precise, explicit, lacking in confusion, and of such
weight that it produces a firm belief or conviction, without hesitation, about the matter in issue.

Id. Additionally, clear and convincing evidence is an "intennediate level of proof [that] entails
both a qualitative and quantitative standard." In re Davey, 645 So. 2d 398, 404 (Fla 1994). The
evidence must be credible; the memories of the witnesses must be clear and without confusion·,
30

2238

338

070a

and the sum total of the evidence must be of sufficient weight to convince the trier of fact
without hesitancy. Id. In re Adoption of Baby E.A. W., 658 So. 2d 961, 967 (Fla. 1995), cert.
denied, 516 U.S. 1051, 116 S.Ct. 719, 133 L.Ed.2d 672 (1996).

Thus, to prevail on this motion, the Defendant has the burden of proving by clear and
convincing evidence that

(1) he had noticeable sub average general intellectual functioning, as evidenced
by a score of 70 or lower on the Stanford-Binet Intelligence Scale and the
Wechsler Adult Intelligence Scale (WAIS);
(2) existing concurrently with deficits in his effectiveness or degree with which
he meets the standards of personal independence and social responsibility
expected of his age, cultural group, and community evidenced by significant
limitations in adaptive functioning in at least two of the following skill areas:
communication
self-care,
home living,
social/interpersonal skills, and
use of community resources,
self-direction,
functional academic skills,
work,
leisure,
health,
safety;

(3) that were manifested during the period from his conception until he reached
age 18.

THE DEFENDANT HAS NOT PROVEN BY CLEAR AND CONVINCING EVIDENCE
THAT HE HAS SIGNIFICANTLY SUB AVERAGE GENERAL INTELLECTUAL
FUNCTIONING
Dr. Caddy testified that the Defendant's WAIS-III full scale IQ score after testing by Dr.
Keyes was 74. When tested by Doctor Carbonell, the Defendant's WAIS-III full scale IQ score
was 75. However, Dr. Caddy testified that the Defendant's WAIS full scale IQ score when he

31

2239

339

071a

tested him was 70. He added that this places the Defendant in the borderline range of intellectual
functioning.

In attempting to exp]ain the differences in scores, Dr. Caddy opined that people who have
very severe mental limitations tend to function a lot better in highly structured environments than
they do on the streets. The consequence of that structure may actually have the capacity to
advance some intellectual assessment scores, in part because on the streets chances are they do
not do any reading. But, the Defendant says that he does not really do any reading. Dr. Caddy
also stated that access to chronic use of television or simply being connected to a group of
inmates has the potential of giving the Defendant slight increases in knowledge. The problem
with this aspect of Dr. Caddy's opinion is that there was no testimony in the record to support his
contention that the Defendant had access to chronic use of the television or was connected to a
group of inmates. Thus, there is no factual basis for his explanation of the Defendant's above
borderline IQ scores of74 and 76.
Dr. Caddy testified that Dr. Carbonell administered a PIAT. 26 This Court is dismissing
the results of this instrument. The only two instruments provided for by Fla. R. Crim. P. 3.203
and the app]icable portion of the Florida Administrative Code to detennine if a Defendant has
significantly sub average general intellectual functioning are the Stanford-Binet and the WAIS-

26

Peabody Individual Achievement Test-Revised-Normative Update (PIAT-R/NU) is an efficient individual
measure of academic achievement. Reading. mathematics, and spelling are assessed in a simple, non-threatening
format that requires only a pointing response for most items. This multiple-choice format makes the PIAT-R ideal
for assessing low functioning individuals or those with limited expressive abilities. AGS Publishing, Products,
PIAT-R/NU:
Peabody
Individual
Achievement
Test-Revised.Nonnative
Update,
at
http:l/www.agsnet.com/group.asp?nGrouplnfolD""a29060 (last visited on March 14. 2006).

32

2240

340

- - - - - - - - - - - - - - - - - - - - -· ···-· ·

-·······

072a

--------'

III. Pursuant to Fla. R. Crim. P. 3.203, the PIAT is not one of the recognized examinations or
instruments.
Despite that fact that on the WAIS-Ill, the Defendant achieved a verbal score of 74, a

perfonnance score of 76, and full-scale score of 74, Dr. Keyes still felt that the Defendant met
the first prong of the test for mental retardation, even though the Defendant tested higher in skills
than Dr. Keyes thought he would have given his IQ of 74. On cross-examination, the State
reviewed some of the answers Defendant provided on the WAIS-111 test. For example, Defendant
received a zero score on the question "Gandhi." His answer was "ruler of India." The test
manual's failure to recognize the word "ruler" resulted in the Defendant's dismal perfonnance
on this question. Similar results were reached on other questions where the Defendant had
knowledge of the subject, but failed to use the precise word required by the manual.

Significantly, Dr. Keyes admitted that there are reasons other than mental retardation that can
cause a person to have a low IQ.
The Defendant achieved a full-scale score of 70, which placed him in the "borderline"
range. His verbal dimension score was 69, overall score was 69, and his performance
Intelligence Quotient (IQ) score was 76. Dr. Caddy explained that the difference in the verbal
and IQ scores could be due to the fact that low functioning individuals have reduced capacities to
express themselves verbally due to educational and cultural disadvantages.
Dr. Caddy also relied upon a report by Dr. Keyes, who administered the WAIS-III to the
Defendant in 2000. The scores obtained by Dr. Keyes were a full scale score of 74, a

perfonnance index of 76, and a verbal index of 75. Dr. Caddy stated that these scores are
consistent with the scores he obtained.
Dr. Caddy also testified that he had the report of Dr. Joyce Carbonell, dated November
33

2241

341

073a

I0, 1987. Dr. Carbonell also gave the Defendant the WAIS-III. The results of Dr Carbonell' s
administration of the WAIS-lll were a full-scale score of 75, verbal score of 75, and performance
score of77 putting the Defendant in the "borderline" range. Dr. Toomer also found Defendant to
be functioning in the borderline range.
Therefore, the Defendant's borderline IQ scores of 74, 75, and 70 are not precise,
explicit, lacking in confusion, or of such weight that they produced in this Court's mind a finn
belief or conviction, without hesitation, that the Defendant has noticeable sub average
intellectual functioning. The Defendant's own experts place the Defendant in the "borderline"
range of sub average intellectual functioning. The American Heritage Dictionary of the English
Language 161 (Third Edition, 2000) defines "borderline" as "of questionable nature or quality;
dubious.'' "Dubious" means that something is fraught with uncertainty or doubt; undecided.
American Heritage Dictionary of the English Language 424 (Third Edition, 2000). Accordingly,
anything that is dubious or questionable cannot be precise, or explicit, or lacking in confusion,
and or of such weight as to produce a fitm belief or conviction, without hesitation. Additionally,
the Defendant's sub average intellectual functioning must be noticeable.

Therefore, the

Defendant has not proven by clear and convincing evidence that he has significantly (noticeable)
sub average general intellectual functioning. There are additional reasons why the Defendant has
not met his burden of proof as to this first prong.
Malingering
Validity Testing

The DSM IV TR states that malingering should be strongly suspected if the person has an
anti-social personality. The Defendant's crime can certainly be considered an anti-social act.
Additionally, the Defendant possesses one other trait th.at is indicative of malingering, that is, he
34

2242

342

074a

•

was referred by an attorney to the clinicians for examination. Dr. Keyes admitted that these two
categories are present. Thus, in formulating their opinions, the three expert witnesses should
have taken into account and ruled out by objective testing any malingering on the part of the
Defendant.
Nevertheless, Dr. Keyes did not suspect that the Defendant was malingering. He opines
that it would be virtually impossible for the Defendant to come up with the exact answers again
and again during the amount of time that it would take to hear the question, formulate the correct
answer, and give the incorrect answer in the same way previously given. Strangely, although Dr.
Keyes has in the past given t~ts to other death row inmates to determine if they are malingering,
he did not give one to the Defendant. Thus, Dr. Keyes opinion is based on insufficient data.
Even though an expert opinion is inadmissible when it is apparent that the opinion is based on
insufficient data, this Court is instead finding that Dr. Keyes' opinion as to the issue of sub
average intellectual functioning is not credible because he did not perform a complete evaluation
that included testing for malingering. See Young-Chin v. City of Homestead, 591 So. 2d 879,
882 (Fla. 3d DCA 1992). A fact finder may disbelieve all or any part of an expert's testimony.
Fla. Std. Jury Instr. (Crim.) 3.9 and 3.9(A).

Dr. Caddy agreed that one should do something with regard to validity (determining if
the Defendant is malingering). Nevertheless, Dr Caddy did not test for malingering, as he was
hired to test intelligence. Although Dr. Caddy could have given the Stanford-Binet for purposes

of comparison, he chose not to administer this instrument. Similarly, this Court finds Dr.
Caddy's opinion as to the issue of sub average intellectual functioning not to be credible because
he did not perform a complete evaluation that included testing for malingering. Young-Chin, 591
So. 2d at 882; Fla. Std. Jury Instr. (Crim.) 3.9 and 3.9(A).
35

2243

343

'

.

075a

On the other hand, Dr. Suarez gave the Defendant three validity tests.
Dr. Suarez administered the Memory 15-Item Test which shows the examinee stimuli,
which is then taken away, and the examinee draws however many of the items they recall.
Defendant was able to recall 9 items. Dr. Suarez remarked that the literature on the test indicates
that the examiner should begin to suspect the possibility that someone is not giving their full
effort (malingering) with scores of 12 and under.
Dr. Suarez next gave Defendant the recognition test. There are 30 items, 15 of which
were shown to the Defendant initially, and 15 items he has not seen. Defendant remembered six
of them from the previous test, a very poor score. He would be expected to remember a higher
number as he has seen them before and is looking at them again. The test results indicate that the
Defendant was not putting forth full effort.

Dr. Suarez also gave the Defendant the test of memory malingering ("TOMM"). Here,
the Defendant did well. Dr. Suarez opined that most people would be expected to do well on the
TOMM, with the exception of those folks with severely diminished capacity in the moderate to
severe stages of conditions like Alzheimer's. The recognition test indicated that he is
malingering, while the TOMM indicates he is giving his full effort. Because of those outcomes,
Dr. Suarez gave Defendant the Validity Indicator Profile (VIP). This test looks. at whether the
examinee is putting forth full effort, and whether or not it is a sustained effort. With regard to
both his nonverbal and verbal subtests, the test results were classified as invalid. The summary

states that caution must be used in interpreting other tests of similar content that have been
administered concurrently. The other tests likely underestimated the Defendant's abilities. Dr.
Suarez opined that this was based on the Defendant's low effort or malingering.
36

2244

344

'

076a

'

Dr. Suarez also administered the Adaptive Behavior Assessment System (ABAS) to six
different staff members at Union Correctional Institute to test for the Defendant's concurrent
deficits in adaptability. Dr. Suarez asked for people who are familiar with the Defendant so that
they could answer questions about concurrent deficits or no deficits about the Defendant's
adaptive behavior. None of the staff members reported that they had ever seen the Defendant
exhibit any type of abnormal or confused behavior or behavior problem. The staff reported that

they saw the Defendant pack his personal belongings to go to court overnight. Some responses
were guesses while others were based on observations. One person rated the Defendant lower on
his adaptive skills than the other five, who were nevertheless consistent in their ratings. Dr.
Suarez did not find any deficit that would go to the level of impairment needed to classify the
Defendant as mentally retarded. Because the Defendant has been incarcerated for so many years,
family members, who do not interact with the Defendant on a daily basis, could not answer the
questions asked of the staff. He opines that to get concurrent deficits, you have to find people
who know the person now.
Therefore, based on the credible testimony of Dr. Suarez, buttressed by the results of the
objective testing, this Court finds that the Defendant was malingering as opined by Dr. Suarez.
THE DEFENDANT HAS NOT PROVEN
BY CLEAR AND CONVINCING EVIDENCE
THAT HE HAS DEFICITS IN ADAPTIVE BEHAVIOR

Dr. Caddy did not evaluate the Defendant's adaptive functioning. He explained that he

was specifically asked to do an intellectual assessment measure or an IQ measure. Because he
did not look at adaptive functioning, Dr. Caddy cannot say if the Defendant is mentally retarded.

Dr. Keyes regretfu11y admitted that the planning of the murder in this case and the
planning of the cover up are inconsistent with a finding that the Defendant suffers from mental
37

2245

345

/

I

077a

)

retardation. He admitted that the note the Defendant wrote fonnulating an alibi
suggests planning
skills. Dr. Keyes attempted to explain that maladaptive behavior does not
constitute adaptive
behavior.

However, according to Dr. Suarez, the concept that adaptive skills
exclude

maladaptiveness, only positive skills, is not tenable. Whether an
individual has goaldirectedness, can do what he or she intends to do, and has the ability that
it takes to plan, shows
that a person has adaptive skills. For example, the planning that went into
the 9/11 attacks would
be considered maladaptive by Dr. Keyes. Yet the sophistication, the
incredible planning,

resources, coordination and collaboration show planning skills.
The AAMR definition of mental retardation takes into account that one can

have adaptive

functioning, and the fact that they produce maladaptive behavior does not
mean that they don't
have adaptive abilities. Maladaptation cannot be used to infer lack of adaptiv
e skills or adaptive
ability. The AAMR further states that the presence of problem behavior is
not considered to be a
limitation in adaptive behavior.
Dr. Keyes was shown the note Defendant wrote to his friend in an effort
to construct an
alibi. Dr. Keyes agreed that the note evidenced adaptive functioning if
it had been written
without assistance. He admitted that the note suggests planning skills. There
is no evidence that
the Defendant had any assistance in writing the letter.

The Defendant held two jobs as a dishwasher, worked as a garbage collect
or for the City
of Miami, and was a short-order cook. The Defendant's performance review
s when he was a
garbage collector were average. The Defendant worked as a short-order
cook at Neighbor's

Restaurant for 2 ½ to 3 years. Dr. Keyes admitted that this was an unusually
high level job for

someone who suffered from · mental retardation. Defendant received averag
e performance
38

224 6

346

078a

reviews scale when he worked as a sanitation collector.
Apparently, one of the Defendant's friends interviewed by Dr. Keyes told of having to
accompany the Defendant to the bathroom, as the Defendant could not detennine which
bathroom was appropriate to use. Defendant repeatedly got thrown out of the pool because the
Defendant would swirri in his clothes instead of just his underwear. Dr. Keyes agreed that
Defendant could have repeatedly stepped into the pool in his clothes, rather than just his
underwear due to shyness rather than mental retardation. The Defendant's ability to hold a highstress job, drive a car, and purchase items admittedly required skill. Also, the Defendant had at
times been trusted by his sister to take his nieces and nephews to the ice cream shop.
When questioned by the court, Dr. Keyes stated that the collection of shell casings at the
scene of the homicide indicates planning and a high level of adaptive functioning. Dr. Keyes also
found the Defendant's subsequent discussions with the officer disturbing. Dr. Keyes stated that
if there was no learning going on prior to the instant crime, then the facts would show adaptive

behavior. There was no evidence of learning occurring prior to the commission of the murder.
Therefore, the facts tend to show adaptive behavior.
Dr. Suarez concluded that the Bro White letter, written in cursive, shows that the
Defendant has graphomotor ability. The letter also demonstrates that he is able make innuendos
which takes understanding of the situation, the people involved, and what needs to be done. In
general, that is inconsistent with someone who is mentally retarded, although some people may
be able to do it. He did not believe you could find a lot of mentally retarded people who can
orchestrate, .identify who needs to be eliminated, who to send the letter to, :Vhere their location is,
and what collateral damage can be perpetrated to help eliminate witnesses.

Dr. Suarez opines that the Defendant's actions on the night of the homicide, particularly
39

224_7

347

079a

his gathering up of the spent shell casings, shows a keen instinct toward self-preservation and
forethought. Similarly, the subject murder could not have happened absent planning on the part
of the Defendant. Notably, the Defendant also lacks the tendency to acquiesce. Acquiescence is
a common trait of people with mental retardation. For example, lead Homicide Detective Greg
Smith interviewed the Defendant three times and asked him to give a statement each time. He
refused. If the defendant were indeed mentally retarded, one might have expected him to readily
acquiesce and give some sort of statement to police.
Dr. Suarez opines that the Defendant's work history similarly fails to indicate a lack of
adaptive skills. The various day-to-day tasks the Defendant performed at his places of
employment could not have been done without planning skills.
During the evidentiary hearing, this Court had ample opportunity to view and observe the
Defendant, including the manner in which he moved, walked, and his general demeanor. There
were no deficiencies in his behavior and presentation to indicate that he bad any significant
limitations in adaptive functioning concerning this area. He appeared healthy, well-fed, and
well-groomed, and there were no detectable hygienic deficiencies.
Lastly, because the Defendant has been on death row for a number of years, there was no
evidence of deficits of adaptive behavior in regards to home living, use of community resources,
or leisure. Based on all the above and the record in this case, the Defendant has not proven by
clear and convincing evidence that he has deficits in his adaptive behavior.

THE DEFENDANT HAS NOT PROVEN BY
CLEAR AND CONVINCING EVIDENCE
THAT HE HAS SIGNIFICANTLY SUB AVERAGE
GENERAL INTELLECTUAL FUNCTIONING EXISTING
CONCURRENTLY WITH DEFICITS IN ADAPTIVE BEHAVIOR WHICH
MANIFESTED DURING THE PERIOD FROM CONCEPTION TO AGE 18
40

2248 348

t- - . •

080a

J,

'W

Nonnan Parker, the individual who provided Dr. Keyes with early anecdotes about the
Defendant, has been on Death Row since 1978. Dr. Keyes questioned him because he was the
only friend who came forward. Dr. Keyes agreed that Defendant could have repeatedly stepped
into the pool in his clothes, rather than just his underwear due to his shyness rather than mental
retardation. Thus, this does not suggest a manifestation of adaptive behavior deficits before the
Defendant reached the age of 18.
Defendant's school history also does not suggest an onset before the age of 18. He
skipped school. He reported that he was suspended three or four times for truancy, auto theft, and
breaking and entering. Defendant received C and D grades. Rather than mental retardation, poor
effort and nonattendance could be the reasons for the Defendant's poor school perfonnance.
There was no evidence so support the Defendant's contention that his poor grades were a result

of mental retardation. Thus, the Defendant has not proven by clear and convincing evidence that
he has significantly sub average general intellectual functioning existing concurrently with

deficits in his adaptive behavior which manifested during the period from conception to age 18.
CONCLUSIONS OF LAW
The Defendant is not collaterally estopped from claiming that he is mentally retarded.
Nevertheless, the Defendant has not proven by clear and convincing evidence that he is mentally
retarded.

The testimonial and documentary evidence was not precise, explicit, lacking in

confusion, and of such weight that it produces a firm belief or conviction, without hesitation. in
this Court that the Defendant is mentally retarded. Additionally, as explained by this Court, the
sum total of the evidence was not of sufficient weight to convince this Court without hesitancy of
the Defendant's mental retardation. Thus, pursuant to the holding of Atkins v. Virginia, (citations
41

2249

349

081a

omitted), the Defendant's death sentence is not in conflict with his right not be subjected to cruel

and unusual punishment as guaranteed by the Eighth and Fourteenth Amendments to the United
States Constitution and the corresponding provisions of the Florida Constitution
The procedure provided by Fla. R. Crim. P. 3.203 does not violate the Defendant's Sixth,
Eighth, and Fourteenth Amendments rights under the United States Constitution.
The controlling definition of mental retardation is found in Fla. R. Crim. P. 3.203. The
Defendant is incorrect when he argues that the controlling definition of mental retardation is that
of the American Association on Mental Retardation (AAMR), which published the 10th Edition
of their text, Mental Retardation, Definition, Classification, and Systems ofSupport, in 2002.
Florida Rule of Criminal Procedure 3.203 contains no omissions or procedure that
renders it violative of the Sixth, Eighth, and Fourteenth Amendments to the United States
Constitution. The Defendant was at all times on notice as to the procedures to be followed in his
case prior to the evidentiary hearing as noted in his motion.
Florida Rule of Criminal Procedure 3.203 as currently written provides a constitutionally
adequate procedure for resolution of mental retardation claims presented by those persons whose
death sentences were final before the United States Supreme Court decided Atkins v. Virginia,
536 U.S. 304 (2002).
The Defendant's death sentence need not be vacated where a prima facie showing of
mental retardation is made and a criminal trial that comports with the Six.th Amendment is not
ordered to detennine whether the Defendant is in fact mentally retarded in that the Defendant has
the burden of proof, by clear and convincing evidence, to demonstrate that he is mentally
retarded.

42

2250

350

,

I

1J

082a

·•

w
Although, the Defendant is correct that Fla. R. Crim. P. 3.203 does not contain a standard
of proof, the omission of a standard of proof from that rule has no bearing on his notice
regarding what standard will be applied to his claim due to the Florida Supreme Court's opinion
in In re Amendments to Fla. Rules of Criminal Procedure and Fla. Rules ofAppellate Procedure,
875 So. 2d at 565 (Fla. 2004). Therefore, the Defendant's due process rights have not been
violated.
The jury should not make the decision and the burden should not be on the State to prove
beyond a reasonable doubt that the Defendant is not mentally retarded.
The record in this case is replete with mitigation testimony from both of Phillips' mental
health experts, each of whom comprehensively evaluated Phillips and provided significant
testimony concerning Phillips' possible mental retardation and organic brain damage, such that
the record conclusively establishes that counsel was not ineffective in investigating and
presenting evidence on this issue.
Both Dr. Joyce Carbonell and Dr. Jethro Toomer testified at Phillips' initial evidentiary
hearing in 1988, his case was remanded for new sentencing proceedings. See Phillips, 608 So. 2d
at 778. Dr. Carbonell interviewed Phillips for 4 1/2 hours and reviewed his prison records,
personnel records, parole records, school records, jail records, his attorney's file, testimony and
depositions, police reports, and affidavits from his family, friends, and a school teacher.

She

even spoke personally to one of Phillips' teachers. Dr. Carbonell administered a battery of tests,
including the Wechsler Adult Intelligence Scale Revised (W AIS-R), the Wide Range
Achievement test, Level 2 Revised (WRAT-R-2), the Peabody Individual Achievement Test
(PIA T), the Rorschach test, the Wechsler Memory Scale, the Canter Background Interference
procedure for the Bender Gestalt, and the Minnesota Multiphasic Personality Inventory (MMPI).

43

2251.

351

•
,,

•

l

083a

_,,

Although Dr. Carbonell did not testify personally at Phillips' resentencing, her testimony
from the 1988 hearing was read into evidence-apparently not due to any lack of diligence on the
part of defense counsel. Prior to resentencing, defense counsel asked the trial court to appoint
Ors. Toomer and Carbonell as his experts. Defense counsel subsequently indicated that he was
having trouble with Dr. Carbonell because she was ill, and was unable to schedule another
evaluation by Dr. Carbonell until the middle of trial. The State objected to the lateness of this
reevaluation, and the trial court refused to grant a continuance to have Dr. Carbonell reexamine
Phillips. On the day resentencing commenced, defense counsel again moved for a continuance

because Dr. Carbonell was unavailable.

However, the parties agreed to have Dr. Carbonell

testify at a time certain, alleviating the need for a continuance. The next day, defense counsel
indicated that he would be either introducing Dr. Carbonell's testimony telepbonically or having
her prior testimony read because her testimony had not changed. Counsel later indicated that
Phillips had agreed to use Dr. Carbonell's prior testimony instead of her telephonic testimony.
The trial court asked Phillips about this agreement, and Phillips confirmed it.
Dr. Jethro Toomer did testify at the resentencing. He testified that he evaluated Phillips in
1988 and again in 1994. Dr. Toomer met with Defendant for 3 to 3 1/2 hours in 1988 and for
an hour in 1994. During his interview, Dr. Toomer gave Phillips the revised Beta IQ test, the

Carlson Psychological Survey, the Rorschach test, the Bender Gestalt Design test and the verbal
reasoning portion of the WAIS. In preparing to testify, Dr. Toomer also reviewed affidavits from
Phillips's family, friends, teachers and coworkers, his school records, DOC records, personnel
file, documents used during his interviews with Phillips, Phillips1s trial attorney's file and the
transcript of his prior testimony and of the original trial. Dr. Toomer reviewed the affidavits and
44

2252

352

084a

records to corroborate the history Phillips had provided. Therefore, for the reasons cited herein,
Defendant Harry Phillips' Motion to Vacate Judgment of Sentence is DENIED.
DONE AND ORDERED in Miami, Miamiday of _

__,[Y1J----L--.L-=IJ---jt,__ _ _

e County, Florida on this

5:

____c

EL REYES

CIRCUIT JUDGE
Copies fumishe,d to: Penny Brill, ASA
Sandra laggard, AAG - William Hennis, Esq.
David Waksman, ASA

45

2253

353

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

APPENDIX G

KeyCite Yellow Flag - Negative Treatment
Distinguished by Caraballo v. State, Fla., June 24, 2010

894 So.2d 28
Supreme Court of Florida.

Harry Franklin PHILLIPS, Appellant,
v.
STATE of Florida, Appellee.
Harry Franklin Phillips, Petitioner,
v.
James V. Crosby, Jr.,
etc., et al., Respondents.
Nos. SC00-2248, SC01-1460.
|
Oct. 14, 2004.
|
As Revised on Denial of Rehearing Jan. 27, 2005.
Synopsis
Background: Petitioner was convicted in the Circuit Court,
Dade County, Arthur I. Snyder, J., of first-degree murder and
was sentenced to death. On his appeal, the Supreme Court,
Adkins J., 476 So.2d 194, affirmed. Motion was filed for
post-conviction relief. The Circuit Court, Arthur I. Snyder, J.,
denied the petition. Petitioner appealed. The Supreme Court,
608 So.2d 778, reversed and remanded for resentencing. The
Circuit Court, Arthur I. Snyder, J., sentenced petitioner to
death, and he appealed. The Supreme Court, 705 So.2d 1320,
affirmed. Petitioner again sought post-conviction relief. The
Circuit Court Miami-Dade County, Alex Ferrer, J., denied
motion. Petitioner appealed and sought writ of habeas corpus.

085a

Affirmed; petition denied.
Wells, J., concurred and filed opinion joined by Bell, J.
Cantero, J., concurred and filed opinion.
Pariente, C.J., concurred in part, dissented in part, and filed
opinion joined by Anstead, J.
Attorneys and Law Firms
*31 William M. Hennis, III, Assistant CCRC and Leor
Veleanu, Staff Attorney, Law Office of the Capital Collateral
Regional Counsel, Ft. Lauderdale, FL, for Appellant/
Petitioner.
Charles J. Crist, Jr., Attorney General, Tallahassee, FL, and
Sandra S. Jaggard, Assistant Attorney General, Miami, FL,
for Appellee/Respondent.
Opinion
PER CURIAM.
Harry Franklin Phillips, an inmate under the sentence of
death, appeals an order of the circuit court denying his
amended motion for postconviction relief under Florida Rule
of Criminal Procedure 3.850 and petitions this Court for a
writ of habeas corpus. We have jurisdiction. See art. V, §
3(b)(1),(9), Fla. Const. For the reasons that follow, we affirm
the denial of Phillips's postconviction motion and deny the
petition for habeas corpus.

I. PROCEEDINGS TO DATE
Holdings: The Supreme Court held that:

We have explained the facts of the case in a previous opinion:

attorney did not render ineffective assistance in investigation
and presentation of evidence concerning claim of mental
retardation and organic brain damage; and

In the evening of August 31, 1982, witnesses heard several
rounds of gunfire in the vicinity of the Parole and Probation
building in Miami. An investigation revealed the body
of Bjorn *32 Thomas Svenson, a parole supervisor, in
the parole building parking lot. Svenson was the victim
of multiple gunshot wounds. There apparently were no
eyewitnesses to the homicide.

expert's testimony to rebut defendant's evidence of mental
mitigation was admissible at resentencing despite expert's
prior evaluation of competency.

As parole supervisor, the victim had responsibility over
several probation officers in charge of appellant's parole.
The record indicates that for approximately two years

failure to exercise two remaining peremptory challenges was
not ineffective assistance of counsel;

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

086a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

prior to the murder, the victim and appellant had repeated
encounters regarding appellant's unauthorized contact with
a probation officer. On each occasion, the victim advised
appellant to stay away from his employees and the parole
building unless making an authorized visit. After one
incident, based on testimony of the victim and two of his
probation officers, appellant's parole was revoked and he
was returned to prison for approximately twenty months.
On August 24, 1982, several rounds of gunfire were shot
through the front window of a home occupied by the
two probation officers who had testified against appellant.
Neither was injured in the incident, for which appellant was
subsequently charged.
Following the victim's murder, appellant was incarcerated
for parole violations. Testimony of several inmates
indicated that appellant told them he had killed a parole
officer. Appellant was thereafter indicted for first-degree
murder.
Phillips v. State, 476 So.2d 194, 195-96 (Fla.1985).
In 1983, Phillips was convicted of one count of firstdegree murder in the death of a parole supervisor named
Bjorn Svenson and sentenced to death. On direct appeal, we
affirmed that sentence. See Phillips, 476 So.2d at 194.1
1

Phillips raised five issues on direct appeal: (1) the trial
court erred in allowing the State to elicit testimony
relative to collateral uncharged crimes; (2) the prejudicial
comments elicited by the State deprived the defendant
of the fundamental right to a fair trial; (3) the trial court
erred in refusing to give the alibi instruction requested
by the defendant; (4) the trial court erroneously found
the killing to have been especially heinous, atrocious,
or cruel; and (5) the trial court improperly found the
homicide to have been committed in a cold, calculated
and premeditated manner.

On November 4, 1987, Phillips filed a petition for writ
of habeas corpus in this Court raising one claim: that
comments by the court and prosecutor throughout the course
of the proceedings resulting in Phillips's sentence of death
diminished the jurors' sense of responsibility for the capital
sentencing task that they were to perform, and had an effect on
the jury, in violation of Caldwell v. Mississippi, 472 U.S. 320,
105 S.Ct. 2633, 86 L.Ed.2d 231 (1985), and the Eighth and
Fourteenth Amendments. We denied the petition, finding the
claim procedurally barred. See Phillips v. Dugger, 515 So.2d
227, 228 (Fla.1987).

The same day that Phillips filed his petition for writ of
habeas corpus, he also filed in the trial court a motion
for postconviction relief raising ten claims.2 After an *33
evidentiary hearing, the trial court denied the motion. On
appeal, we found that Phillips had received ineffective
assistance of counsel at the penalty phase of the trial
and vacated his death sentence and remanded for a new
sentencing proceeding. See Phillips v. State, 608 So.2d 778,
783 (Fla.1992).
2

The ten claims were: (1) the State's use of false and
misleading testimony and the intentional withholding
of material exculpatory evidence; (2) the State's use of
jailhouse informants to obtain statements; (3) deprivation
of an individualized sentencing determination due to
ineffective assistance at the penalty phase; (4) trial
counsel rendered ineffective assistance by allowing an
incompetent client to stand trial; (5) comments by the
court and the prosecutor throughout the course of the
proceedings resulted in Phillips's sentence of death, and
diminished the jurors' sense of responsibility in violation
of Caldwell v. Mississippi, 472 U.S. 320, 105 S.Ct. 2633,
86 L.Ed.2d 231 (1985), and the Eighth and Fourteenth
Amendments; (6) inconsistent jury instructions relative
to the jury's role in sentencing; (7) the trial court's
shifting of the burden of proof in its instructions and
the prosecutor's similar burden-shifting comments on
summation; (8) ineffective assistance of counsel at the
guilt phase; (9) Phillips's absence during critical trial
proceedings in violation of the Fifth, Sixth, Eighth,
and Fourteenth Amendments; and (10) improper use of
Phillips's prior felony convictions.

In April 1994, a new jury, by a vote of seven to five,
again recommended a sentence of death. The trial court
followed the jury's recommendation and found the following
four aggravators: (1) the defendant was under a sentence of
imprisonment at the time of the murder; (2) the defendant
had prior convictions for violent felonies; (3) the murder
was committed to disrupt or hinder the lawful exercise of
a governmental function or the enforcement of laws; and
(4) the murder was committed in a cold, calculated, and
premeditated fashion. The trial court did not find any statutory
mitigators, but it found that the following nonstatutory
mitigators applied: (1) Phillips's low intelligence (given little
weight); (2) Phillips's poor family background (given little
weight); and (3) his abusive childhood, including lack of
proper guidance by his father (given little weight). Phillips
again appealed his sentence, raising six issues.3 We affirmed
the sentence. See Phillips v. State, 705 So.2d 1320 (Fla.1997).

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

087a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

3

The six issues on direct appeal of his resentencing
were: (1) Phillips's resentencing proceeding did not
comport with the requirements set forth in Spencer v.
State, 615 So.2d 688 (Fla.1993); (2) the trial court
mishandled the jury and improperly influenced the jury
to return a death verdict; (3) the “disrupt or hinder a
governmental function” aggravator was improperly and
over-broadly submitted to the jury and found by the
court; (4) the State improperly made Phillips's prior
bad acts, including uncharged matters, a focus of the
resentencing, and introduced unnecessary and unreliable
evidence and hearsay regarding Phillips's guilt; (5) the
trial court improperly allowed the State to strike an
African-American from the jury panel; and (6) the CCP
aggravator cannot be constitutionally narrowed and was
improperly employed.

On September 13, 1999, Phillips filed a motion for
postconviction relief. He subsequently filed an amended
motion for postconviction relief raising twenty-four claims
on December 2, 1999.4 The trial *34 court held a hearing
pursuant to Huff v. State, 622 So.2d 982 (Fla.1993), and
thereafter summarily denied Phillips's amended motion.
4

The twenty-four claims in Phillips's amended motion
for postconviction relief were: (1) denial of the right to
effective representation by the lack of funding available
to fully investigate and prepare postconviction pleadings,
understaffing, and the unprecedented workload on
present counsel and staff; (2) denial of due process and
equal protection rights because access to the files and
records pertaining to Phillips's case in the possession of
certain state agencies had been withheld in violation of
chapter 119 of the Florida Statutes and Rule 3.852 of the
Florida Rules of Criminal Procedure; (3) deprivation of
due process rights because the State withheld evidence
that was material and exculpatory in nature, which
rendered defense counsel's representation ineffective and
prevented a full adversarial testing of the evidence at
resentencing; (4) ineffective assistance of counsel during
voir dire in resentencing; (5) ineffective assistance of
counsel when critical information regarding Phillips's
mental state was not provided by specialized experts;
(6) denial of rights under Ake v. Oklahoma, 470 U.S.
68, 105 S.Ct. 1087, 84 L.Ed.2d 53 (1985), at the
resentencing; (7) deprivation of a fair trial guaranteed
under the Sixth, Eighth, and Fourteenth Amendments
due to a combination of procedural and substantive
errors during resentencing; (8) innocence of the death
penalty; (9) Phillips's absence from critical stages of the
trial; (10) ineffective assistance of counsel for defense
counsel's failure to object to the sentence of death

where the jury instructions were incorrect under Florida
law and shifted the burden to Phillips to prove that
death was inappropriate; (11) ineffective assistance of
counsel where trial counsel failed to object to the State's
introduction of nonstatutory aggravating factors and the
State's arguments regarding nonstatutory aggravating
factors; (12) ineffective assistance of counsel where
trial counsel failed to object to comments, questions,
and instructions which diluted the jury's sense of
responsibility; (13) ineffective assistance of counsel
where trial counsel was prohibited from interviewing
jurors to determine if constitutional error was present;
(14) ineffective assistance of counsel where defense
counsel failed to object when the prosecutor commented
upon the aggravating circumstances; (15) execution by
electrocution is cruel and unusual punishment or both
pursuant to the federal and state constitutions; (16)
Florida's capital sentencing statute is unconstitutional
on its face and as applied in this case; (17) ineffective
assistance of counsel where trial counsel failed to object
and argue that there was a violation of the Eighth
Amendment by the sentencing court's refusal to find and
consider mitigating circumstances set out clearly in the
record; (18) lack of an independent weighing or reasoned
judgment in the trial court's sentencing order; (19) denial
of a proper direct appeal of appellant's conviction and
death sentence due to omissions in the record; (20)
the jury's and judge's reliance upon misinformation in
sentencing Phillips to death in violation of Johnson v.
Mississippi, 486 U.S. 578, 108 S.Ct. 1981, 100 L.Ed.2d
575 (1988); (21) execution is prohibited due to insanity;
(22) refusal of the trial court to instruct the jury that
mercy towards Phillips was a proper consideration in
resentencing; (23) denial of right to a fair proceeding
before an impartial judge during resentencing; and (24)
denial of right to a fair proceeding before an impartial
judge during the postconviction proceedings.

Phillips now appeals the trial court's denial of his
postconviction motion and petitions for a writ of habeas
corpus, raising four claims of ineffective assistance of
appellate counsel. For the reasons explained below, we affirm
the denial of postconviction relief and deny the petition for
habeas corpus. In light of the United States Supreme Court's
decision in Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242,
153 L.Ed.2d 335 (2002), however, and our recent adoption of
a rule implementing that decision, see Amendments to Florida
Rules of Criminal Procedure & Florida Rules of Appellate
Procedure, 875 So.2d 563 (Fla.2004), we deny relief without
prejudice to Phillips seeking relief under that rule. We express
no opinion about the merits of such a motion.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

088a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

The bulk of Phillips's claims on appeal are procedurally
II. 3.850 APPEAL
Phillips raises eleven claims: (1) the trial court improperly
denied his postconviction claims without an evidentiary

barred or without merit.6 We address only certain claims that
are not procedurally barred.
6

5

hearing; (2) resentencing counsel was ineffective for failing
to argue that section 921.137, Florida Statutes (2001),
prohibiting the imposition of the death sentence on mentally
retarded defendants, applied to him; (3) his right to due
process was violated when the trial judge denied his
claim regarding public records disclosure and his motion
to disqualify the trial judge; (4) the following sub-claims
concerning the jury were improperly denied as procedurally
barred and meritless: (a) failure of resentencing counsel
to use all of his peremptory challenges; (b) the trial
court's jury instructions diminished the jury's sense of
responsibility; (c) the prosecutor's remarks during opening
and closing arguments in voir dire; (d) trial court's jury
instructions *35 regarding voting procedures; (e) the trial
court's jury instructions concerning premeditation and the
CCP aggravator; (f) jury instructions regarding feelings
of prejudice, bias, and sympathy; and (g) not having the
opportunity to interview the jurors; (5) the trial court and
the prosecutor improperly shifted the burden of proof to
the defendant to establish that mitigating circumstances
outweighed the aggravating circumstances; (6) the following
prosecutorial comments concerning nonstatutory aggravating
circumstances were improper: (a) comparing Phillips to his
siblings; (b) Phillips's future dangerousness; and (c) the
State's use of a door-sized prop that charted Phillips's behavior
during parole; (7) the trial court erred in summarily denying
his claim that he is innocent of the death penalty; (8) Phillips
cannot be put to death due to insanity; (9) the trial court
improperly relied upon Phillips's two prior felony convictions
during his resentencing in violation of Johnson v. Mississippi,
486 U.S. 578, 108 S.Ct. 1981, 100 L.Ed.2d 575 (1988);
(10) Phillips's absence from unrecorded bench conferences
violated his right to be present at trial; and (11) cumulative
error.
5

Phillips asserts two sub-issues within his first claim: (1)
ineffective assistance of counsel where resentencing trial
counsel did not present definitive evidence regarding
Phillips's possible mental retardation and organic brain
damage from specialized experts in neurology and
mental retardation; and (2) denial of rights under Ake v.
Oklahoma, 470 U.S. 68, 105 S.Ct. 1087, 84 L.Ed.2d 53
(1985), at resentencing.

Claims 4(b), 4(c), 4(d), 4(f), 4(g), 5, 6(a), 6(b), 7,
and 10 are all procedurally barred because they should
have been raised on direct appeal. See Arbelaez v.
State, 775 So.2d 909, 919 (Fla.2000); Maharaj v. State,
684 So.2d 726 (Fla.1996). Claims 4(e) and 6(c) are
also procedurally barred because they were raised and
rejected on direct appeal. See Phillips v. State, 705
So.2d 1320 (Fla.1997). Claim 3 is facially and legally
insufficient and is therefore denied. See Maharaj, 684
So.2d at 728; Holland v. State, 503 So.2d 1250, 1251
(Fla.1987).

A.
In claim 4(a), Phillips contends that his resentencing counsel
rendered ineffective assistance when he failed to exercise
his two remaining peremptory challenges. This Court has
repeatedly held that in order to establish a claim of ineffective
assistance of counsel a defendant must prove two elements:
First, the defendant must show that counsel's performance
was deficient. This requires showing that counsel made
errors so serious that counsel was not functioning as
the “counsel” guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show that the
deficient performance prejudiced the defense. This requires
showing that counsel's errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable.
Unless a defendant makes both showings, it cannot be
said that the conviction or death sentence resulted from a
breakdown in the adversary process that renders the result
unreliable.
Valle v. State, 778 So.2d 960, 965 (Fla.2001) (quoting
Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984)). In Valle, this Court explained further:
In evaluating whether an attorney's conduct is deficient,
“there ‘is a strong presumption that counsel's conduct
falls within the wide range of reasonable professional
assistance,’ ” and the defendant “bears the burden of
proving that counsel's representation was unreasonable
under prevailing professional norms and that the
challenged action was not sound strategy.” This Court
has held that defense counsel's strategic choices do
not constitute deficient conduct if alternative courses
of action have been considered *36 and rejected.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

089a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

Moreover, “[t]o establish prejudice [a defendant] ‘must
show that there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is
a probability sufficient to undermine confidence in the
outcome.’ ”
Id. at 965-66 (citations omitted) (quoting Brown v. State, 755
So.2d 616, 628 (Fla.2000), and Williams v. Taylor, 529 U.S.
362, 391, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000)).
Phillips's claim that resentencing counsel rendered
ineffective assistance when he failed to exercise his two
remaining peremptory challenges is meritless. No statute,
rule, or case law requires a defense attorney to exercise all
peremptory strikes. Moreover, peremptory challenges are not
constitutional rights or of “constitutional dimension.” Ross v.
Oklahoma, 487 U.S. 81, 88, 108 S.Ct. 2273, 101 L.Ed.2d 80
(1988). “[Peremptory challenges] are a means to achieve the
end of an impartial jury.” Id. The ultimate result of voir dire is
achieving an impartial jury, and Phillips fails to demonstrate
that his resentencing counsel's performance was deficient
during voir dire and that such deficiency created a jury that
was not impartial.

B.
Phillips's eighth claim asserts that he cannot be executed
due to insanity. However, this claim cannot be raised until
an execution is imminent. See Fla. R.Crim. P. 3.811(c)
(providing that “[n]o motion for a stay of execution pending
hearing, based on grounds of the prisoner's insanity to be
executed, shall be entertained by any court until such time
as the Governor of Florida shall have held appropriate
proceedings for determining the issue pursuant to the
appropriate Florida Statutes”). Phillips's execution is not
imminent; no warrant has been issued and no date has been
set. Thus, this claim is untimely, and the trial court properly
denied it without an evidentiary hearing. See Hall v. Moore,
792 So.2d 447, 450 (Fla.2001).

C.
Phillips's ninth claim asserts that the trial court improperly
relied on two of his prior felony convictions during
resentencing, in violation of Johnson v. Mississippi, 486
U.S. 578, 108 S.Ct. 1981, 100 L.Ed.2d 575 (1988). The
court found that the State presented evidence of two prior

felony convictions: (1) armed robbery, Eleventh Judicial
Circuit Case No. 73-2480B; and (2) assault with intent to
commit first-degree murder, Eleventh Judicial Circuit Case
No. 62-6140C. In order to state a claim under Johnson, a
defendant must show that the conviction on which the prior
violent felony aggravator is based has been reversed. Phillips
failed to demonstrate and the record did not indicate that
either of these convictions has been set aside, vacated, or
reversed. Thus, Johnson does not apply. See Henderson v.
Singletary, 617 So.2d 313, 316 (Fla.1993). Therefore, this
claim is meritless, and the trial court properly denied it
without an evidentiary hearing.

D.
Phillips next contends that the trial court erred in summarily
denying other claims, including a claim under Ake v.
Oklahoma, 470 U.S. 68, 105 S.Ct. 1087, 84 L.Ed.2d 53
(1985), and two ineffective assistance of counsel claims
concerning resentencing counsel's failure: (1) to present
definitive evidence of his organic brain damage and mental
retardation; and (2) to argue the application of section
921.137, Florida Statutes (2001). A defendant is *37 entitled
to an evidentiary hearing on his motion for postconviction
relief unless (1) the motion, files, and records in the case
conclusively show that the defendant is not entitled to any
relief, or (2) the motion or a particular claim is facially invalid.
See Cook v. State, 792 So.2d 1197, 1201-1202 (Fla.2001);
Maharaj, 684 So.2d at 728. In determining whether or not an
evidentiary hearing on a claim is warranted, we must accept
the defendant's factual allegations to the extent the record
does not refute them. See Atwater v. State, 788 So.2d 223, 229
(Fla.2001); Peede v. State, 748 So.2d 253, 257 (Fla.1999).
The defendant must establish a prima facie case based upon
a legally valid claim, and mere conclusory allegations are
insufficient to meet this burden. See Freeman v. State, 761
So.2d 1055 (Fla.2000); Kennedy v. State, 547 So.2d 912, 913
(Fla.1989).

1. Presenting Evidence of Mental Retardation
Phillips asserts that the trial court erred by failing to
conduct an evidentiary hearing on his counsel's failure to
investigate and present further testing as to his possible
mental retardation and organic brain damage at the time of
his resentencing. Specifically, he contends that resentencing
counsel never had him examined by a competent mental

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

090a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

health expert for a definitive diagnosis of mental retardation
and organic brain damage. Postconviction counsel argued
at the Huff hearing and appellate counsel asserted at oral
argument that a mental retardation specialist and a neurologist
were prepared to testify at an evidentiary hearing about
Phillips's mental retardation and organic brain damage.
We disagree that counsel's performance was deficient. The
record in this case is replete with mitigation testimony
from both of Phillips's mental health experts, each of whom
comprehensively evaluated Phillips and provided significant
testimony concerning Phillips's possible mental retardation
and organic brain damage, such that the record conclusively
establishes that counsel was not ineffective in investigating
and presenting evidence on this issue.
Both Dr. Joyce Carbonell and Dr. Jethro Toomer testified
at Phillips's initial evidentiary hearing in 1988, before we
remanded for new sentencing proceedings. See Phillips,
608 So.2d at 778. Dr. Carbonell interviewed Phillips for
4 ½ hours and reviewed his prison records, personnel
records, parole records, school records, jail records, his
attorney's file, testimony and depositions, police reports, and
affidavits from his family, friends and a school teacher.
She even spoke personally to one of Phillips's teachers.
Dr. Carbonell administered a battery of tests, including
the Wechsler Adult Intelligence Scale Revised (WAISR), the Wide Range Achievement test, Level 2 Revised
(WRAT-R-2), the Peabody Individual Achievement Test
(PIAT), the Rorschach test, the Wechsler Memory Scale, the
Canter Background Interference procedure for the Bender
Gestalt, and the Minnesota Multiphasic Personality Inventory
(MMPI).
Although Dr. Carbonell did not testify personally at Phillips's
resentencing-her testimony from the 1988 hearing was read
into evidence-it was apparently not due to any lack of
diligence on the part of defense counsel. Prior to resentencing,
defense counsel asked the trial court to appoint Drs. Toomer
and Carbonell as his experts. Defense counsel subsequently
indicated that he was having trouble with Dr. Carbonell
because she was ill, and was unable to schedule another
evaluation by Dr. Carbonell until the middle of trial. The State
objected to the lateness of this reevaluation, and the trial court
refused to *38 grant a continuance to have Dr. Carbonell
reexamine Phillips. On the day resentencing commenced,
defense counsel again moved for a continuance because
Dr. Carbonell was unavailable. However, the parties agreed
to have Dr. Carbonell testify at a time certain, alleviating

the need for a continuance. The next day, defense counsel
indicated that he would be either introducing Dr. Carbonell's
testimony telephonically or having her prior testimony read
because her testimony had not changed. Counsel later
indicated that Phillips had agreed to use Dr. Carbonell's prior
testimony instead of her telephonic testimony. The trial court
asked Phillips about this agreement, and Phillips confirmed it.
Dr. Jethro Toomer did testify at the resentencing. He testified
that he evaluated Phillips in 1988 and again in 1994. Dr.
Toomer met with Defendant for 3 to 3 ½ hours in 1988 and
for an hour in 1994. During his interview, Dr. Toomer gave
Phillips the revised Beta IQ test, the Carlson Psychological
Survey, the Rorschach test, the Bender Gestalt Design test
and the verbal reasoning portion of the WAIS. In preparing
to testify, Dr. Toomer also reviewed affidavits from Phillips's
family, friends, teachers and coworkers, his school records,
DOC records, personnel file, documents used during his
interviews with Phillips, Phillips's trial attorney's file and the
transcript of his prior testimony and of the original trial. Dr.
Toomer reviewed the affidavits and records to corroborate the
history Phillips had provided.
The comprehensive mental mitigation investigation
performed in this case is a far cry from those cases where
we have found error in a trial court's failure to hold an
evidentiary hearing to determine whether counsel failed to
properly investigate and present evidence in mitigation. See
Ragsdale v. State, 720 So.2d 203, 208 (Fla.1998) (holding
trial court erred in summarily denying defendant's ineffective
assistance of counsel claim where “defense counsel never
had him examined by a competent mental health expert for
purposes of presenting mitigation” and defendant claimed
that, among other things, he suffered from organic brain
damage and was mentally retarded); see also Arbelaez v.
State, 775 So.2d 909, 913 (Fla.2000) (finding that trial
court erred in failing to hold evidentiary hearing regarding
defendant's ineffective assistance of counsel claim where
defendant alleged that “no expert was appointed to evaluate
him for the purposes of presenting mitigation”); O'Callaghan
v. State, 461 So.2d 1354, 1355 (Fla.1984) (holding that trial
court erred in summarily denying defendant's ineffective
assistance of counsel claim where defense counsel never
conducted psychiatric examination of defendant and called no
mitigation witnesses at the sentencing hearing despite mental
health professional's affidavit asserting defendant exhibited
evidence of brain damage and mental illness).

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

091a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

Moreover, we find no error in a trial court's failure to
hold an evidentiary hearing on a defendant's claim that
defense counsel was ineffective for failing to present evidence
in mitigation where the record shows similar mitigation
evidence was presented through other witnesses. See Atwater,
788 So.2d at 232-34; see also Arbelaez, 775 So.2d at 913
(finding no error in trial court's failure to hold an evidentiary
hearing on defendant's claim that defense counsel was
ineffective for failing to present adequate evidence or expert
testimony as to defendant's epilepsy where the record showed
that counsel presented evidence of defendant's epilepsy
through defendant's own testimony and the testimony of two
of his friends).
In this case, the record is clear that each expert not only
testified extensively about the battery of tests administered
to Phillips, *39 they each also testified that Phillips was
borderline mentally retarded and probably brain-damaged.
Dr. Toomer testified that Phillips “is in the borderline range
of mental functioning.” He also testified that Phillips's results
on the Bender Gestalt Design test “suggested some motor
perception problems, and there [were] discrepancies that
reflected or suggested that there was some organicity or brain
damage.” Later Toomer stated that the design Phillips drew
“indicated or suggested” to him that Phillips had organicity
or brain damage. On cross-examination, Toomer testified that
he found some evidence of “mild organicity.” Dr. Carbonell
testified that Phillips had a verbal IQ of 75 and a performance
IQ of 77, numerically putting him in the “borderline” range,
and that Phillips “is functioning at the level of many retarded
people.” She also testified that the type of closed head injury
that Phillips allegedly sustained do “not infrequently cause
brain damage.” She later testified that Phillips “possibly had
a head injury that could have in fact further damaged his level
of functioning.” On cross-examination, Carbonell was asked
whether Phillips had brain damage, and she responded, “It's a
probability. It's certainly a possibility.”
Finally, the mere fact that the defense experts' opinions were
rejected does not demonstrate that counsel was ineffective.
See Teffeteller v. Dugger, 734 So.2d 1009, 1020 (Fla.1999).
Instead, the failure can be attributed to Drs. Haber and Miller's
opinions that Phillips's intelligence was between average and
borderline and that Phillips exhibited no evidence of brain
damage. The fact that Phillips now has new experts does not
indicate that his counsel was ineffective, where counsel did
investigate and present evidence on these issues. See Cherry
v. State, 781 So.2d 1040, 1052 (Fla.2000); Rose v. State, 617
So.2d 291, 295 (Fla.1993).

In sum, given the significant mental health investigation and
testimony in the record, we hold that the trial court did not
err in denying Phillips's claim without an evidentiary hearing.
Given that the record reflects that two mental health experts
were appointed in Phillips's defense, and each performed
a comprehensive mental health evaluation of Phillips and
testified thereto, we also affirm the trial court's summary
denial of Phillips's Ake claim.

2. Applicability of Section 921.137(1), Florida Statutes
(2001)
Phillips next asserts that his resentencing counsel rendered
ineffective assistance for presenting insufficient evidence to
show that his level of retardation met the criteria set forth
in section 921.137(1), Florida Statutes (2001).7 Resentencing
counsel cannot be deemed ineffective, however, because
section 921.137, the statute prohibiting the execution of
mentally retarded defendants, did not even exist at the time
of Phillips's resentencing *40 or subsequent direct appeal.8
Nevertheless, we do not preclude Phillips from raising the
retroactive application of section 921.137 in a subsequent
proceeding. Nor do we address the potential merits of a claim
under Atkins, 536 U.S. at 304, 122 S.Ct. 2242, or Florida Rule
of Criminal Procedure 3.203 (Defendant's/Prisoner's Mental
Retardation as a Bar to Execution). Phillips is free to file a
motion under rule 3.203. See Amendments to Florida Rules of
Criminal Procedure & Florida Rules of Appellate Procedure,
875 So.2d 563 (Fla.2004). We express no opinion regarding
the merits of such a claim.
7

Section 921.137(1) provides:
As used in this section, the term “mental retardation”
means significantly subaverage general intellectual
functioning existing concurrently with deficits in
adaptive behavior and manifested during the period
from conception to age 18. The term “significantly
subaverage general intellectual functioning,” for the
purpose of this section, means performance that is two
or more standard deviations from the mean score on
a standardized intelligence test specified in the rules
of the Department of Children and Family Services.
The term “adaptive behavior,” for the purpose of this
definition, means the effectiveness or degree with
which an individual meets the standards of personal
independence and social responsibility expected of
his or her age, cultural group, and community. The

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

092a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73
Department of Children and Family Services shall
adopt rules to specify the standardized intelligence
tests as provided in this subsection.

8

Section 921.137, Florida Statutes (2001), was enacted on
June 12, 2001.

Finally, regarding Phillips's cumulative error claim, Phillips's
individual claims are either procedurally barred or meritless.
No finding of cumulative error is appropriate under these
circumstances. See Vining v. State, 827 So.2d 201, 209
(Fla.2002) (stating that where the alleged individual errors
are without merit, the contention of cumulative error is also
without merit).

III. HABEAS CORPUS
Phillips raises four claims in his petition for writ of habeas
corpus: (1) whether appellate counsel rendered ineffective
assistance in failing to raise on appeal the admissibility of
Detective Smith's hearsay testimony; (2) whether appellate
counsel rendered ineffective assistance when he failed to
raise the issue that the execution of a mentally retarded
defendant was a violation of the prohibition against cruel or
unusual punishment; (3) whether appellate counsel rendered
ineffective assistance when he failed to raise on appeal an
issue relative to the admissibility of Dr. Miller's testimony
at resentencing; and (4) whether appellate counsel rendered
ineffective assistance when he failed to raise on appeal
other trial court rulings which may have warranted a new
resentencing. We find no merit to any of these claims.
In his first habeas claim, Phillips contends that appellate
counsel was ineffective for failing to raise the admissibility
of Detective Greg Smith's hearsay testimony from jailhouse
witnesses. Resentencing counsel did not raise a specific
objection regarding Smith's hearsay testimony about what
jailhouse informants Malcolm Watson, Tony Smith, and
Larry Hunter told him. Because there was no motion filed
or objection below, appellate counsel cannot be deemed
ineffective for not raising this issue on direct appeal.
See Rutherford v. Moore, 774 So.2d 637, 648 (Fla.2000)
(“[A]ppellate counsel cannot be considered ineffective for
failing to raise issues which [were] procedurally barred ...
because they were not properly raised at trial.”); Robinson v.
Moore, 773 So.2d 1, 5 (Fla.2000).
In his second habeas claim, Phillips argues that he received
ineffective assistance of appellate counsel when counsel

failed to raise the constitutionality of executing a mentally
retarded defendant. In the record on appeal, resentencing
counsel did not assert that sentencing Phillips to death was
unconstitutional due to his alleged mental retardation. Thus,
this issue was not preserved on this basis. Again, appellate
counsel cannot be deemed ineffective for failing to raise an
unpreserved issue. See Rutherford, 774 So.2d at 648.
In his third habeas claim, Phillips asserts that appellate
counsel was ineffective when he failed to raise the
admissibility of Dr. Miller's testimony at resentencing in
violation of the confidentiality requirement of rule 3.211(e),
Florida Rules of Criminal Procedure.9 We disagree.
9

Rule 3.211(e) of the Florida Rules of Criminal Procedure
provides as follows:
(1) The information contained in any motion by the
defendant for determination of competency to proceed
or in any report of experts filed under this rule insofar
as the report relates solely to the issues of competency
to proceed and commitment, and any information
elicited during a hearing on competency to proceed or
commitment held pursuant to this rule, shall be used
only in determining the mental competency to proceed
or the commitment or other treatment of the defendant.
(2) The defendant waives this provision by using the
report, or portions thereof, in any proceeding for any
other purpose, in which case disclosure and use of
the report, or any portion thereof, shall be governed
by applicable rules of evidence and rules of criminal
procedure. If a part of the report is used by the
defendant, the state may request the production of any
other portion of that report that, in fairness, ought to
be considered.

*41 Dr. Miller initially evaluated Phillips to determine
competency in 1988. At resentencing in 1994, the trial court
allowed Dr. Miller to testify for the purpose of rebutting
the defense's mental mitigation. When Dr. Miller testified
at resentencing about his 1988 interview with Phillips, Dr.
Miller did not state that he had interviewed Phillips for the
determination of competency. In the portion of Dr. Miller's
testimony where Phillips objected, Dr. Miller stated that
he conducted a mental status examination consisting of
numerous current event questions. The purpose of the exam
was to evaluate Phillips's general intelligence and degree of
learning. Dr. Miller testified to the type of questions he asked,
Phillips's responses, and the psychological interpretation
of those responses. He did not discuss anything further
concerning his 1988 interview with Phillips.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

093a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

Furthermore, Dr. Miller was reappointed in 1994 because
Phillips's defense counsel filed a notice of intent to rely on
two statutory mitigators: (1) under the influence of extreme
mental or emotional disturbance; and (2) diminished mental
capacity. Dr. Miller's 1994 interview with Phillips occurred
only after he had placed his emotional and mental capacity at
issue and after notice to his counsel. Moreover, the trial court's
order appointing Dr. Miller specifically stated that Dr. Miller
was to determine whether Phillips suffered from diminished
mental capacity at the time of the offense. In addition, Dr.
Miller was only allowed to testify in rebuttal to direct mental
health testimony presented by Phillips. See Dillbeck v. State,
643 So.2d 1027, 1030 (Fla.1994). Given these circumstances,
we find that Dr. Miller's testimony at resentencing was proper,
and appellate counsel cannot be deemed ineffective for failing
to raise a meritless issue. See Long v. State, 610 So.2d 1268,
1275 (Fla.1992).
In his last habeas claim, Phillips argues that he received
ineffective assistance of appellate counsel on his first direct
appeal when counsel failed to raise two issues: (1) whether
the trial court abused its discretion when it admitted autopsy
photos; and (2) whether the trial court erred in denying a
motion for judgment of acquittal.
In the first sub-claim, Phillips moved for a standing objection
to the introduction of autopsy photos immediately before
opening statements on the ground that motive was no
longer at issue. The trial court refused to grant a standing
objection but agreed to revisit the issue at the time the
photos were introduced. At the time the photographs were
admitted, Phillips did not object. Thus, any issue regarding
the admission of the autopsy photographs was not preserved.
See Castor v. State, 365 So.2d 701, 703 (Fla.1978). Therefore,
appellate counsel cannot be deemed ineffective for failing to
raise this unpreserved issue on appeal. See Rutherford, 774
So.2d at 648.
*42 Phillips's second sub-claim is procedurally barred.
Phillips filed a prior habeas petition regarding the conduct of
his first appeal, and we denied it. See Phillips v. Dugger, 515
So.2d at 227. “Successive habeas corpus petitions seeking the
same relief are not permitted nor can new claims be raised
in a second petition when the circumstances upon which they
are based were known or should have been known at the time
the prior petition was filed.” Johnson v. Singletary, 647 So.2d
106, 109 (Fla.1994). Here, the fact that appellate counsel on
Phillips's first direct appeal did not raise the denial of the
motion for judgment of acquittal is an issue that he could

and should have known at the time he filed his first habeas
petition. Thus, this claim is procedurally barred.
Accordingly, we deny Phillips's petition for habeas corpus
and affirm the trial court's summary denial of postconviction
relief.
It is so ordered.

WELLS, LEWIS, QUINCE, CANTERO, and BELL, JJ.,
concur.
WELLS, J., concurs with an opinion, in which BELL, J.,
concurs.
CANTERO, J., concurs with an opinion.
PARIENTE, C.J., concurs in part and dissents in part with an
opinion, in which ANSTEAD, J., concurs.
WELLS, J., concurring.
I concur with the majority. I write to express my agreement
with Justice Cantero that the United States Supreme Court's
decision in Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242,
153 L.Ed.2d 335 (2002), applies to Phillips and to express the
basis of my conclusion.
I read Atkins to set forth a substantive federal constitutional
right not to be executed if it is established that a person is
mentally retarded. In this regard I adhere to the Eleventh
Circuit's statement in In re Holladay, 331 F.3d 1169, 1173
(11th Cir.2003):
Although the Court ultimately rejected such a rule in
[Penry v. Lynaugh, 492 U.S. 302, 340, 109 S.Ct. 2934,
106 L.Ed.2d 256 (1989) ], in Atkins the Court reversed
course and announced that “the Constitution ‘places a
substantive restriction on the State's power to take the life’
of a mentally retarded offender.” 536 U.S. at 321, 122 S.Ct.
2242 (quoting Ford v. Wainwright, 477 U.S. 399, 405, 106
S.Ct. 2595, 91 L.Ed.2d 335 (1986)).
(Emphasis added.)
In Witt v. State, 387 So.2d 922, 929 (Fla.1980), this Court
specifically stated that one category of constitutional rulings
which would be cognizable in capital cases under Florida
Rule of Criminal Procedure 3.850 was

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

094a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

changes of law which place beyond the authority of the
state the power to regulate certain conduct or impose
certain penalties. This category is exemplified by Coker
v. Georgia, 433 U.S. 584, 97 S.Ct. 2861, 53 L.Ed.2d 982
(1977), which held that the imposition of the death penalty
for this crime of rape of an adult woman is forbidden by
the eighth amendment as cruel and unusual punishment.
(Emphasis added.) Atkins has made the execution of a
mentally retarded person beyond the power of the state to
impose, which I believe in this context means to carry out.
Therefore, in accord with this specific reasoning in Witt, I
would hold that Phillips can proceed with an Atkins claim.
Phillips will, of course, have to establish that he is mentally
retarded as that condition has been defined by our law.
*43 However, I do not believe that this is an issue of
retroactivity similar to court procedures such as in Ring v.
Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556
(2002), or other issues having to do with the admissibility of
evidence or the confrontation of witnesses. The question here
is whether mental retardation bars the State from executing
an otherwise lawful penalty. This issue is similar to whether
a person is insane to be executed. As to insane to be executed
and mental retardation, the issue is whether the person is
eligible for a prospective execution. I do not read Atkins as
having a retroactive application in the sense that it makes the
pronouncement of the death penalty illegal. Clearly, Atkins
has no effect on guilt issues.

BELL, J., concurs.
CANTERO, J., concurring.
I concur in all aspects of the majority opinion. I write
separately only to explain our decision to allow Phillips to
file a motion under new Florida Rule of Criminal Procedure
3.203, which became effective October 1, 2004. I believe we
should state explicitly what we necessarily have concluded
implicitly-that the United States Supreme Court's decision in
Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d
335 (2002), applies retroactively-and explain why.
Our recent amendments to the Florida Rules of Criminal
Procedure implicitly concluded, or at least assumed, that
Atkins applies retroactively. Rule 3.203(d)(4) creates a
procedure for raising mental retardation as a bar to execution
in pending cases, in future cases, and in cases that already are
final. See Amendments to Fla. Rules of Criminal Procedure &
Fla. Rules of Appellate Procedure, 875 So.2d 563 (Fla.2004).

However, the bench and bar would benefit from an opinion
expressly addressing the issue and this case presents an
opportunity to do so.
The Court did not state in Atkins whether its holding was
retroactive. However, the retroactivity of its decision is
apparent, at least under the standard articulated in Teague v.
Lane, 489 U.S. 288, 109 S.Ct. 1060, 103 L.Ed.2d 334 (1989)
(which is different from ours), when read alongside Penry
v. Lynaugh, 492 U.S. 302, 109 S.Ct. 2934, 106 L.Ed.2d 256
(1989), in which the Court stated:
Thus, if we held, as a substantive matter, that the
Eighth Amendment prohibits the execution of mentally
retarded persons such as Penry regardless of the procedures
followed, such a rule would fall under the first exception to
the general rule of nonretroactivity and would be applicable
to defendants on collateral review.
Id. at 330, 109 S.Ct. 2934. Although the Court rejected such
a rule in Penry, the Court ultimately announced in Atkins
that “the Constitution ‘places a substantive restriction on the
State's power to take the life’ of a mentally retarded offender.”
536 U.S. at 321, 122 S.Ct. 2242.
In the two years since Atkins was decided, many federal
and state courts have considered whether Atkins applies
retroactively, and all have held that it does. See In re Holladay,
331 F.3d 1169, 1173 (11th Cir.2003); In re Morris, 328 F.3d
739, 740 (5th Cir.2003); Hill v. Anderson, 300 F.3d 679, 681
(6th Cir.2002); Clemons v. State, No. CR-01-1355, --- So.2d
----, ----, 2003 WL 22047260, at *3 (Ala.Crim.App. Aug.29,
2003); Head v. Hill, 277 Ga. 255, 587 S.E.2d 613, 621 (2003);
Williams v. State, 793 N.E.2d 1019, 1027 (Ind.2003); State v.
Dunn, 831 So.2d 862, 882 n. 21 (La.2002); Johnson v. State,
102 S.W.3d 535, 539 n. 12 (Mo.2003); *44 State v. Lott,
97 Ohio St.3d 303, 779 N.E.2d 1011, 1015 (2002); Pickens
v. State, 74 P.3d 601, 603 (Okla.Crim.App.2003); Franklin
v. Maynard, 356 S.C. 276, 588 S.E.2d 604, 606 n. 6 (2003);
cf. Ex parte Briseno, 135 S.W.3d 1, 5 (Tex.Crim.App.2004)
(suggesting the retroactivity of Atkins ).
The vast majority of these courts analyzed the retroactivity
of Atkins using the standards articulated in Teague, which
is not the standard we have historically used. I continue to
believe that we should consider the retroactivity of United
States Supreme Court decisions based on that Court's own
standards. See Windom v. State, 886 So.2d 915, 935-52,
(Fla. 2004) (Cantero, J., specially concurring). Nevertheless,
a retroactivity analysis under our current law leads to the
same conclusion. In Witt v. State, 387 So.2d 922 (Fla.1980),

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

095a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

this Court held that a change in the law does not apply
retroactively unless the change: (a) emanates from this Court
or the United States Supreme Court, (b) is constitutional in
nature, and (c) constitutes a development of fundamental
significance. Id. at 931. Clearly, the holding of Atkins meets
the first two prongs of Witt-that is, the United States Supreme
Court issued a new rule that is constitutional in nature. Id.
The question of Atkins's retroactive application therefore
rests on the third prong: whether the rule constitutes a
development of fundamental significance. In Witt, we stated
that most major constitutional changes fall within one of
two categories: changes “which place beyond the authority
of the state the power to regulate certain conduct or impose
certain penalties,” id. at 929, and those which are of
sufficient magnitude to necessitate retroactive application
as ascertained by the three-fold test of Stovall v. Denno,
388 U.S. 293, 87 S.Ct. 1967, 18 L.Ed.2d 1199 (1967),
and Linkletter v. Walker, 381 U.S. 618, 85 S.Ct. 1731, 14
L.Ed.2d 601 (1965).10 387 So.2d at 929. Atkins clearly
falls within the first category-it prohibits the government
from imposing the penalty of death on mentally retarded
defendants, which is a substantive limit on the state's power to
impose certain penalties. Cf. Penry, 492 U.S. at 330, 109 S.Ct.
2934 (applying a Teague analysis and stating that “a new rule
placing a certain class of individuals beyond the State's power
to punish by death is analogous to a new rule placing certain
conduct beyond the State's power to punish at all” and would
be retroactive because it deprives the State of the power to
impose a certain penalty).
10

The Linkletter three-fold test inquires into (a) the purpose
to be served by the new rule, (b) the extent of reliance on
the prior rule, and (c) the effect retroactive application of
the new rule would have on the administration of justice.
See Witt, 387 So.2d at 926.

For these reasons, Atkins applies retroactively. Phillips must
receive the benefit of both Atkins and new rule 3.203.

PARIENTE, C.J., concurring in part and dissenting in part.
I concur in all aspects of the majority opinion except on
the issue of ineffective assistance of trial counsel relating
to Phillips' possible mental retardation and organic brain
damage. I would reverse for an evidentiary hearing because
there are sufficient allegations to call into question the
performance of resentencing counsel on the failure to

investigate and present further testing on this potentially
powerful mitigation.
Despite the fact that resentencing counsel was aware that both
experts who examined Phillips previously testified that more
testing was needed to confirm the presence or extent of brain
damage and mental retardation, resentencing counsel *45
failed to pursue or present definitive evidence of Phillips'
brain damage or mental retardation. In my view, these
allegations in Phillips' motion for postconviction relief entitle
him to an evidentiary hearing on this ineffective assistance
of counsel claim. Further, the majority's decision to affirm
the denial of this claim without prejudice to Phillips filing
a motion under Florida Rule of Criminal Procedure 3.203 is
insufficient to afford Phillips an adequate review, because any
hearing conducted pursuant to rule 3.203 regarding mental
retardation may be qualitatively different from one conducted
on the ineffective assistance of counsel claim.11
11

I do, however, agree with Justice Cantero's conclusion
in his separate concurring opinion that Atkins v. Virginia,
536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002),
which bars execution of mentally retarded offenders,
must be given retroactive application.

As the majority acknowledges, a defendant is entitled to
an evidentiary hearing on a motion for postconviction
relief unless (1) the motion, files, and records in the case
conclusively show that the defendant is not entitled to any
relief, or (2) the motion or a particular claim is facially invalid.
See Cook v. State, 792 So.2d 1197, 1201-02 (Fla.2001). In
determining whether an evidentiary hearing on a claim is
warranted, this Court must accept the defendant's factual
allegations to the extent they are not refuted by the record. See
Atwater v. State, 788 So.2d 223, 229 (Fla.2001).
Phillips asserts that the trial court erred in denying an
evidentiary hearing on his claim that defense counsel failed
to investigate and conduct further testing as to Phillips'
possible mental retardation and organic brain damage at
the time of his resentencing. Specifically, he contends that
resentencing counsel never had him examined by a competent
mental health expert even though counsel was aware before
resentencing that further testing was necessary for a definitive
diagnosis of mental retardation and organic brain damage. I
agree that Phillips was entitled to an evidentiary hearing on
this issue.
Before this Court remanded for new resentencing
proceedings, Dr. Joyce Carbonell and Dr. Jethro Toomer

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

096a

Phillips v. State, 894 So.2d 28 (2004)
29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73

testified at Phillips' initial evidentiary hearing in 1988. Both
concluded that Phillips' intellectual functioning was in the
borderline range of mental retardation and that he was
intellectually and emotionally impaired. Further, although
both Carbonell and Toomer testified that the tests they
performed indicated that Phillips may suffer from organic
brain damage, neither could confirm the presence or extent of
the brain damage without further testing.
At resentencing, Toomer testified similarly regarding Phillips'
possible brain damage, but he stated that a specialist in
nerve scoping psychology would have to conduct a nerve
psychological test to properly diagnose the existence and
extent of any organic brain disturbance. Carbonell did not
testify at the resentencing. Her testimony from the 1988
evidentiary hearing was read into evidence.
The majority's conclusion that Phillips is not entitled to
an evidentiary hearing because “the record in this case is
replete with mitigation testimony from both of Phillips's
mental health experts,” see majority op. at 37, ignores the
uncontested fact that both experts admittedly lacked the
ability to definitively diagnose Phillips as either mentally
retarded or suffering from organic brain damage. Both experts
stated that further testing was necessary and, although aware
of this fact, resentencing counsel failed to investigate or
secure that further testing. Moreover, postconviction *46
counsel argued at the Huff12 hearing and appellate counsel
asserted at oral argument that a mental retardation specialist
and a neurologist were prepared to testify at an evidentiary
hearing on Phillips' mental retardation and organic brain
damage. Because the record does not conclusively refute
the claim that Phillips suffered from mental retardation and
organic brain damage, the trial court erred in failing to grant

End of Document

Phillips an evidentiary hearing on whether defense counsel
was ineffective in failing to pursue the matter.
12

Huff v. State, 622 So.2d 982 (Fla.1993).

The majority's affirmance of the decision to deny Phillips a
hearing on the ineffective assistance claim without prejudice
for him to file a motion pursuant to new rule 3.203 will
not resolve the ineffective assistance of counsel claim. The
current statutory burden for establishing mental retardation
as a bar to execution is different from the burden of
establishing that counsel's performance was ineffective.
Section 921.137(4), Florida Statutes (2004), requires proof
of mental retardation by clear and convincing evidence. The
ineffective assistance claim requires Phillips to demonstrate
that had definitive evidence of his mental retardation
been presented at the resentencing, such evidence would
undermine our confidence in the imposition of the death
sentence, which was recommended by a bare majority of the
jurors. Allowing Phillips a hearing pursuant to rule 3.203
while denying him a hearing on the ineffective assistance of
counsel claim does not afford Phillips adequate review or
protect his constitutional right to counsel. I would therefore
grant Phillips an evidentiary hearing on the ineffective
assistance of counsel claim so it can be pursued in tandem
with a mental retardation claim pursuant to rule 3.203.
Fairness as well as efficiency dictate this result, especially
since both claims could be adjudicated in a single hearing with
the same evidence.

ANSTEAD, J., concurs.
All Citations
894 So.2d 28, 29 Fla. L. Weekly S585, 30 Fla. L. Weekly S73
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Phillips v. State, 705 So.2d 1320 (1997)

APPENDIX H

22 Fla. L. Weekly S607

KeyCite Yellow Flag - Negative Treatment
Distinguished by Robinson v. State, Fla., July 7, 2005

705 So.2d 1320
Supreme Court of Florida.

Harry Franklin PHILLIPS, Appellant,
v.
STATE of Florida, Appellee.
No. 83731.
|
Sept. 25, 1997.
|
Rehearing Denied Feb. 23, 1998.
Synopsis
Murder conviction and death sentence were affirmed by the
Supreme Court, 476 So.2d 194, and defendant moved for
postconviction relief. Motion was denied, but the Supreme
Court, 608 So2d 778,remanded for resentencing. The Circuit
Court for Dade County, Arthur I. Snyder, J., sentenced
defendant to death, and defendant appealed. The Supreme
Court held that: (1) resentencing proceeding was properly
conducted; (2) jury was not improperly influenced; and (3)
aggravating circumstance was properly submitted to jury.
Affirmed.
Anstead, J., concurred specially with opinion.

097a

the death penalty by a vote of seven to five, and the
trial court sentenced Phillips to death. This Court affirmed
the conviction and sentence. Phillips v. State, 476 So.2d
194 (Fla.1985). The trial court denied Phillips' motion for
postconviction relief in 1988. On appeal, this Court vacated
the death sentence and remanded for resentencing due to the
ineffectiveness of Phillips' trial counsel in failing to present
mitigating evidence to the jury during the penalty phase.
Phillips v. State, 608 So.2d 778 (Fla.1992).
*1321 Resentencing occurred in 1994. Following the
presentation of evidence, the jury returned a recommendation
of death by a vote of seven to five. In the written sentencing
order the trial court found that the following aggravators
applied to Phillips: (1) at the time of the murder, Phillips was
under a sentence of imprisonment (because he was on parole);
(2) Phillips had prior convictions for violent felonies; (3) the
murder was committed to disrupt or hinder the lawful exercise
of a governmental function or the enforcement of laws; and
(4) the murder was cold, calculated, and premeditated without
any pretense of moral or legal justification (CCP). The trial
court also found that although no statutory mitigators were
applicable, the following nonstatutory mitigators applied: (1)
Phillips' low intelligence (given little weight); (2) Phillips'
poor family background (given little weight); and (3) Phillips'
abusive childhood, including lack of proper guidance by
his father (given little weight). The trial court held that
the aggravating circumstances outweighed the mitigating
circumstances and sentenced Phillips to death.

We have on appeal the sentence of the trial court reimposing
the death penalty upon Harry Franklin Phillips. We have
jurisdiction. Art. V, § 3(b)(1), Fla. Const.

Phillips raises the following six issues on appeal: (1) that
Phillips' resentencing proceeding did not comport with the
requirements set forth in Spencer v. State, 615 So.2d 688
(Fla.1993); (2) that the trial court mishandled the jury and
improperly influenced the jury to return a death verdict;
(3) that the “disrupt or hinder a governmental function”
aggravator was improperly and overbroadly submitted to the
jury and found by the court; (4) that the State improperly
made Phillips' prior bad acts, including uncharged matters,
a focus of the resentencing, and introduced unnecessary and
unreliable evidence and hearsay regarding Phillips' guilt; (5)
that the trial court improperly allowed the State to strike
an African–American from the jury panel; and (6) that the
CCP aggravator cannot be constitutionally narrowed and was
improperly employed. We reject the arguments under claims
(1), (4), and (5) as procedurally barred or without merit.

In 1984, Phillips was convicted of the 1982 murder of
Bjorn Svenson, a parole supervisor. The jury recommended

There are two aspects of claim (2) which require explanation.
Prior to commencement of voir dire, defense counsel

Attorneys and Law Firms
*1320 Billy H. Nolas and Julie D. Naylor, Philadelphia, PA,
for Appellant.
Robert A. Butterworth, Attorney General and Fariba N.
Komeily, Assistant Attorney General, Miami, for Appellee.
Opinion
PER CURIAM.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

098a

Phillips v. State, 705 So.2d 1320 (1997)
22 Fla. L. Weekly S607

requested the trial court to fashion a response to potential
questions from the venire about the long time span between
the original trial and the current proceeding. The trial court
proposed to advise the jury “that this case was tried originally
and the defendant was convicted of first-degree murder and
due to legal problems over the years we have to retry the
penalty phase.” Both counsel agreed to such an explanation.
The trial court then told the jury that Phillips “has already
been found guilty of First Degree Murder by a different
jury and for legal technicalities we have to retry the penalty
phase.” There were no objections to this explanation. Phillips
now contends that the giving of this statement constituted
fundamental error. We cannot agree. While some might
quarrel over the term “legal technicalities,” the general tenor
of the statement was similar to the one to which counsel had
agreed. The jury was never informed of Phillips' previous
death sentence or even of a previous jury recommendation.
We are convinced that Phillips was not prejudiced by the
trial court's comment. See Teffeteller v. State, 495 So.2d
744 (Fla.1986) (mere mention of prior death sentence not
prejudicial in subsequent resentencing).
Phillips also challenges the trial court's alleged failure to give
the jury Florida Standard Jury Instruction 3.06 (traditionally
referred to as an Allen charge)1 when the jury informed the
trial court during its deliberations that two of the jurors were
declining to vote because they were unhappy with where the
majority were leaning. Defense counsel suggested the jury be
told, if they had a majority, to render a verdict based on the
majority. The trial court instructed the jury to take a vote from
the ten jurors willing to vote and to record the vote as it stood.
The trial court noted that it would consider any refusal to vote
as a vote for life imprisonment. However, when the vote was
finally taken, all of the jurors voted and a majority of them
recommended death. Phillips now asserts that the trial court
should have instead suggested to the jury that it deliberate
*1322 further and if it could not reach a verdict then it would
be discharged.
1

See Kelley v. State, 486 So.2d 578 (Fla.1986).

This claim fails for three reasons. First, Phillips never
objected to the actual instruction given or requested that
an Allen charge be given below. See Derrick v. State,
641 So.2d 378, 379 (Fla.1994). Second, the trial court
would have committed error if it had given the jury the
instruction requested by Phillips because an Allen charge is
only applicable in the guilt phase of a criminal proceeding.
Derrick, 641 So.2d at 379; Patten v. State, 467 So.2d 975

(Fla.1985). Lastly, the fact that the trial judge indicated that
he would count the votes of the jurors refusing to vote as votes
in favor of a recommendation of life imprisonment was the
most favorable treatment Phillips could have obtained. Even
Phillips' own defense counsel said that it made sense for the
trial judge to count the two jurors' refusals to vote as votes for
life imprisonment. Phillips' remaining arguments under claim
(2) are without merit and need not be discussed.
Phillips next asserts that the “disrupt or hinder the lawful
exercise of a governmental function or the enforcement
of laws” aggravator (the disrupt/hinder aggravator) was
improperly submitted to the jury and erroneously applied by
the trial court because: (1) the aggravator had previously been
found to be inapplicable at the original sentencing; (2) the
aggravator only applies where the State has proven beyond
a reasonable doubt that the dominant or sole motive of the
murder was to disrupt or hinder a governmental function or
enforcement of laws; and (3) there was insufficient evidence
to establish that Phillips was going to have his parole revoked
by Officer Svenson. Phillips' claims regarding the disrupt/
hinder aggravator are without merit. The trial court explained
in its sentencing order why it applied this aggravator upon
resentencing:
This Court previously found this factor inapplicable
because the court believed that the homicide was
committed for revenge. However, the Court submits, that
although revenge may have been one motive, it was part
of the overall motive of killing a parole official, who was
in the past, and who would have been at the time of the
homicide, one of the persons responsible for trying to have
the defendant's parole revoked, for continuing to violate the
terms of his parole and for shooting a gun which occurred
a few days before the homicide. This would clearly hinder
a governmental function. Mr. Svenson's only connection
with the defendant was as a parole officer and parolee.
Mr. Svenson's homicide was beyond a reasonable doubt
committed to disrupt or hinder governmental function. See
Jones v. State, 440 So.2d 570 (Fla.1983).
Phillips' resentencing proceeding was a “completely new
proceeding,” and the trial court was therefore under no
obligation to make the same findings as those made in
Phillips' prior sentencing proceeding. King v. Dugger, 555
So.2d 355, 358–59 (Fla.1990).
Regarding Phillips' argument that the trial court should have
given the jury a narrowing instruction on the disrupt/hinder
aggravator, Phillips failed to object below to the form of
the instruction given to the jury or request that a narrowing

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

099a

Phillips v. State, 705 So.2d 1320 (1997)
22 Fla. L. Weekly S607

instruction be given. Instead, Phillips merely objected to the
applicability of the disrupt/hinder aggravator. An objection
to the applicability of a jury instruction does not preserve
a claim that the instruction was vague or overbroad. See
Roberts v. Singletary, 626 So.2d 168, 169 (Fla.1993)(“We
have repeatedly held that claims are procedurally barred
where there was a failure at trial to object to the instruction on
the grounds of vagueness or unconstitutionality.”). Moreover,
a narrowing instruction was not required. This Court has held
that in order for the disrupt/hinder aggravator to be applicable,
it is sufficient for the State to show that the victim was killed
while performing a legitimate governmental function. See
Jones v. State, 440 So.2d 570, 577–78 (Fla.1983).
Phillips' claim of insufficient evidence to support this
aggravator is also without merit. Officer Svenson was the
parole district supervisor who supervised Phillips' former
parole officer, Nanette Brochin. In 1981, Svenson personally
instructed Phillips to stay away from Brochin and then
testified at Phillips' parole revocation proceeding *1323
when Phillips violated those instructions. Phillips' parole was
revoked and he was sent back to prison. In 1982, when
Phillips was subsequently re-released on parole, he again
violated Svenson's instructions. On the day of the murder,
Phillips was again instructed by Officer Svenson to stay away
from Brochin and was told that he would be imprisoned
for violating the instructions. The evidence establishes that
Svenson was directly involved in the revocation of Phillips'
parole.
We now turn to Phillips' claim regarding the constitutionality
of the CCP aggravator. Phillips does not challenge the
sufficiency of the evidence presented in support of the CCP
aggravator, nor does he challenge the language of the CCP
instruction given to the jury. He instead argues that the
CCP aggravator is inherently vague, subject to overbroad,
unconstitutional application irrespective of any definitions
of its terms, and should not be applied in capital cases.
This Court has previously rejected the contention that the
CCP aggravator is unconstitutionally vague. Jackson v. State,
648 So.2d 85 (Fla.1994). In Jackson, we ruled that the jury
should receive more expansive instructions defining the terms
“cold,” “calculated,” and “premeditated,” but we rejected
a challenge to the statutory CCP aggravator itself. In this
case, even though Phillips' resentencing occurred prior to
this Court's decision in Jackson, the jury was given a proper
narrowing instruction consistent with that decision.
Accordingly, we affirm the trial court's sentence of death.

It is so ordered.

OVERTON, SHAW, GRIMES, HARDING and WELLS, JJ.,
concur.
ANSTEAD, J., concurs specially with an opinion.
ANSTEAD, Justice, specially concurring.
I agree with the majority's conclusion that appellant's Spencer
claim is procedurally barred under our case law because
it was not preserved for review by a proper objection
at trial. Nevertheless, I write separately to express my
concern with the trial court's failure to follow the sentencing
procedure explicitly set out in Spencer v. State, 615 So.2d
688 (Fla.1993), and to emphasize that the Spencer rule is a
mandatory one which must be followed in a death penalty
sentencing. The sentencing in this case illustrates the need for
our recent decision mandating special education for judges in
capital cases.
In order to ensure that all judges hearing capital cases have
the concern and competence necessary to handle the unique
demands of capital criminal proceedings, this Court recently
enacted rule 2.050(b)(10) of the Florida Rules of Judicial
Administration, requiring in part that a judge must have
recently completed the “Handling Capital Cases” course
offered through the Florida College of Advanced Judicial
Studies before presiding over a capital case—and for good
reason. It is especially worth noting here that the judgeauthors of the teaching manual for the course specifically
admonish trial judges: “After this [Spencer ] hearing, the
judge should adjourn to consider the appropriate sentence.
Final sentencing should be set on a separate date. Failure
to do this after Spencer could and probably will result in a
reversal.” Susan F. Schaeffer, Conducting the Penalty Phase
of a Capital Case 53 in Handling Capital Cases (Fla. College
of Advanced Judicial Studies 1997) (emphasis added). The
manual further cautions: “Do not have either side prepare
your Order.” Id.
In Spencer, this Court plainly stated the specific steps a trial
court must follow in capital sentencing, and explained our
rationale:
In Grossman [v. State, 525 So.2d 833 (Fla.1988)], we
directed that written orders imposing the death sentence
be prepared prior to the oral pronouncement of sentence.
However, we did not perceive that our decision would be

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

100a

Phillips v. State, 705 So.2d 1320 (1997)
22 Fla. L. Weekly S607

used in such a way that the trial judge would formulate
his decision prior to giving the defendant an opportunity
to be heard. We contemplated that the following procedure
be used in sentencing phase proceedings. First, the trial
judge should hold a hearing to: a) give the defendant,
his counsel, and the State, an opportunity to be heard; b)
afford, if appropriate, both the State and the defendant
*1324 an opportunity to present additional evidence; c)
allow both sides to comment on or rebut information in any
presentence or medical report; and d) afford the defendant
an opportunity to be heard in person. Second, after hearing
the evidence and argument, the trial judge should then
recess the proceeding to consider the appropriate sentence.
If the judge determines that the death sentence should be
imposed, then, in accordance with section 921.141, Florida
Statutes (1983), the judge must set forth in writing the
reasons for imposing the death sentence. Third, the trial
judge should set a hearing to impose the sentence and
contemporaneously file the sentencing order. ...
It is the circuit judge who has the principal responsibility
for determining whether a death sentence should be
imposed. Capital proceedings are sensitive and emotional
proceedings in which the trial judge plays an extremely
critical role.
615 So.2d at 690–91 (emphasis added).2 The trial judge in
this case clearly failed to follow the sentencing procedure
mandated in Spencer by making his sentencing decision
before hearing the parties as to the proper sentence. Contrary
to our explicit directions, the trial court did not first listen
to the parties and then “recess the proceedings to consider
the appropriate sentence.” Spencer. Instead, the trial judge
apparently came to the sentencing hearing with a sentencing
order imposing death already prepared and then heard
arguments from the State and the defendant. Immediately
thereafter the court sentenced the defendant to death and filed
the sentencing order, with no indication that the just-argued
contentions of both sides had been considered before the
sentence was decided. The trial judge's error in prematurely
preparing Phillips' sentencing order was compounded by the
End of Document

fact that the judge adopted almost verbatim the State's earlierfiled sentencing memorandum as his sentencing order.3
2

3

In Gibson v. State, 661 So.2d 288 (Fla.1995), albeit
in the context of stating why written orders must be
prepared before oral pronouncement of sentence and
filed contemporaneously, we explained the rationale
which also underlies the Spencer sentencing procedure:
In Grossman, we mandated that “all written orders
imposing a death sentence be prepared prior to the oral
pronouncement of sentence for filing concurrent with
the pronouncement.” The purpose of this requirement
is to reinforce the court's obligation to think through its
sentencing decision and to ensure that written reasons
are not merely an after-the-fact rationalization for a
hastily reasoned initial decision imposing death.
Id. at 293 (emphasis added).
The State's sentencing memorandum and the court's
virtually identical order are supported by evidence in
the record. Further, the trial judge stated that he had
“independently reviewed and weighed the evidence.”

While the trial court may not have actually abdicated its
sentencing responsibility to the State in this case,4 its failure
to follow the procedure set out in Spencer, coupled with
its adoption of the State's sentencing memorandum, create
both an appearance of partiality and a failure to carefully
consider the contentions of both sides and to take seriously
the independent judicial “obligation to think through [the]
sentencing decision.” Gibson v. State, 661 So.2d 288, 293
(Fla.1995).
4

Unlike Spencer and Patterson v. State, 513 So.2d 1257
(Fla.1987), there is no claim here that the trial court had
ex parte communications with the State concerning the
appropriate sentence for the defendant or that the court
directed the State to prepare the sentencing order.

All Citations
705 So.2d 1320, 22 Fla. L. Weekly S607
© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Phillips v. State, 608 So.2d 778 (1992)
17 Fla. L. Weekly S595

APPENDIX I

101a

Opinion
KeyCite Yellow Flag - Negative Treatment
Called into Doubt by Stephens v. State, Fla., November 24, 1999

608 So.2d 778
Supreme Court of Florida.

Harry Franklin PHILLIPS, Appellant,
v.
STATE of Florida, Appellee.
No. 75598.
|
Sept. 24, 1992.
|
Rehearing Denied Dec. 24, 1992.
Synopsis
Following affirmance, 476 So.2d 194, of murder conviction
and sentence of death, defendant petitioned to have his
sentence vacated, set aside or corrected. The Circuit Court in
and for Dade County, Arthur I. Snyder, J., denied the petition.
Defendant appealed. The Supreme Court held: (1) state's
disclosure of benefits offered to inmates in exchange for
their testimony was adequate; (2) state did not fail to correct
false testimony; (3) state did not use jailhouse informants to
elicit testimony from defendant after he asserted his right to
counsel; (4) defense counsel was not ineffective at the guilt
phase; but (5) counsel was ineffective at the sentencing phase.
Affirmed in part and reversed in part; sentence vacated and
remanded for resentencing.
Shaw, J., concurred in result.
McDonald, J., concurred in part and dissented in part and filed
opinion.
Attorneys and Law Firms
*779
Larry Helm Spalding, Capital Collateral
Representative (CCR), Jerrel E. Phillips, Asst. CCR, Office
of Capital Collateral Representative, Tallahassee, and Billy
H. Nolas and Julie D. Naylor, Sp. Asst. CCR, Ocala, for
appellant.
Robert A. Butterworth, Atty. Gen. and Ralph Barreira, Asst.
Atty. Gen., Miami, for appellee.

PER CURIAM.
Harry Franklin Phillips, a prisoner under sentence of death,
appeals from the circuit court's denial of his petition
under Florida Rule of Criminal Procedure 3.850. We have
jurisdiction under article V, section 3(b)(1) of the Florida
Constitution.
Phillips was convicted of the 1982 murder of Bjorn Svenson,
a parole supervisor. The jury recommended a death sentence
by a vote of seven to five, and the judge followed
this recommendation. This Court affirmed the conviction
and sentence on appeal. Phillips v. State, 476 So.2d 194
(Fla.1985). After his first death warrant was signed, Phillips
filed a petition for habeas corpus, alleging a violation of his
rights under Caldwell v. Mississippi, 472 U.S. 320, 105 S.Ct.
2633, 86 L.Ed.2d 231 (1985). The petition was denied by this
Court as procedurally barred. Phillips v. Dugger, 515 So.2d
227 (Fla.1987). Phillips *780 then filed this 3.850 motion.
An evidentiary hearing was held, and the circuit court denied
relief on all claims.
We first address the claims Phillips raises alleging error in the
guilt phase of his trial. Much of the State's evidence at trial
consisted of the testimony of inmates who had been in a cell
with Phillips. These inmates testified that Phillips admitted
his guilt to them, and each supplied details of the crime as
Phillips portrayed it to them—details which presumably only
the killer would know.
Phillips contends that the State failed to disclose the nature or
extent of the benefits offered to these inmates in exchange for
their testimony, violating his rights under Brady v. Maryland,
373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963). However,
before trial, Phillips was allowed to depose the prosecutor in
this case, David Waksman. He also took the depositions of
the inmates themselves and of the lead detective, Greg Smith.
Through these depositions, Phillips learned that the inmates
had been told that Waksman would write a letter informing
the relevant authority—the parole board for those inmates
who were serving prison sentences and the sentencing judge
for those inmates who had not yet gone to trial—of their
cooperation in the case. In addition, one inmate, Malcolm
Watson, was promised that he would be given a polygraph test
regarding his crime, and if he passed it his sentencing judge
would be so informed. These promises were brought out on
cross-examination of the inmates at trial.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

102a

Phillips v. State, 608 So.2d 778 (1992)
17 Fla. L. Weekly S595

Phillips now contends that the inmates were promised much
more than was actually disclosed. In support of this claim, he
introduced at the postconviction hearing documents showing
that Waksman and Smith were involved in various activities in
aid of the inmates after trial. For example, Waksman became
involved in plea negotiations which ultimately resulted in a
lenient sentence of five years' probation for Larry Hunter.
In rebutting this allegation, the State presented Waksman as
a witness, who explained that he did in fact do more than
simply write letters for some of the inmates. Because they had
been such a help to the case and had gone through such pains
to testify, including spending more time in jail while their
own trials were postponed and being subjected to beatings
and threats from other prisoners, Waksman decided to aid
these inmates in whatever ways he could. However, he did
not inform the inmates that he was going to do anything other
than write letters, and in fact he himself had no idea to what
extent he would end up helping them.1
1

Phillips also cites several examples of good fortune
which befell the inmates after they testified against
him. For example, Malcolm Watson's life sentence
was vacated, William Farley received early parole, and
assault charges against William Scott were dropped.
However, Phillips submitted no proof that these events
were causally connected to the inmates' testimony at trial
or that they took place in fulfillment of promises by the
State.

Phillips also introduced check stubs showing that the inmates
were in fact given reward money after trial. However,
Smith and Waksman explained that this money was provided
by the Florida Police Benevolent Association, a private
organization, that they themselves were unaware of the
reward until shortly before trial, and that they never told
the inmates about the money until after they testified.
Accordingly, although the inmates were ultimately given
reward money by an outside organization, they were not
aware of the possibility of a reward until after trial, and it
therefore could not have provided any incentive for them to
testify.
Finally, Phillips presented the testimony of William Farley,
who stated that he lied on the stand at trial, that Phillips
had never in fact confessed to him, that all the information
about the crime was provided to him by the police, and
that he perjured himself on the stand after being promised
freedom and reward money. A similar claim was made as

to the testimony of Larry Hunter. While Hunter himself
refused to testify on grounds of self-incrimination, the parties
stipulated to the consideration of his affidavit. Waksman
and Smith denied these allegations. The circuit *781 court
found this evidence to be completely unbelievable, and we
find competent, substantial evidence to support this finding.
Accordingly, we reject Phillips' Brady claim.
Phillips next claims that various witnesses lied on the stand
at trial and the State failed to correct the false testimony, in
violation of Giglio v. United States, 405 U.S. 150, 92 S.Ct.
763, 31 L.Ed.2d 104 (1972). In order to prevail on this claim,
Phillips must demonstrate: (1) the testimony was false; (2)
the prosecutor knew the testimony was false; and (3) the
statement was material. Routly v. State, 590 So.2d 397, 400
(Fla.1991).
Phillips first alleges that William Scott was a police informant
at the time Phillips confessed to him, yet he stated on the
witness stand that he was not a police agent. The fact that
Scott had been a paid informant for the federal government
and had aided one of the detectives in the Metro–Dade police
department was well known to the defense through pretrial
depositions of Scott and Detective Smith and was brought out
on cross-examination at trial. Scott's statement that he was
not a police agent is attributable to the ambiguity of the term
“agent.” Scott was on the federal government payroll at the
time of trial and was assigned an informant number for the
federal authorities; he did not, at that time, have an informant
number for the Metro–Dade police, and therefore evidently
did not believe that he was an agent for that department. Even
at the postconviction hearing, Scott seemed confused over
whether he was an informant for Metro–Dade. Ambiguous
testimony does not constitute false testimony for the purposes
of Giglio. Routly, 590 So.2d at 400.
Phillips also alleges that William Farley lied when he stated
that the tape was started immediately when he gave his taperecorded statement to the police; actually, a pre-interview
was conducted which lasted approximately one and one-half
hours. We find this misstatement to be immaterial. Further,
the statement could have been corrected by the defense, had
it been important, since the defense was aware of the preinterview from Detective Smith's pretrial deposition.
Finally, Phillips contends that both Farley and Watson lied
about their criminal records. While we agree that statements
made by these witnesses regarding their records were
incorrect, we find that there is no reasonable probability that

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

103a

Phillips v. State, 608 So.2d 778 (1992)
17 Fla. L. Weekly S595

the false testimony affected the judgment of the jury. The jury
was made aware that these witnesses were convicted felons;
the admission of an additional conviction or probationary
sentence would have added virtually nothing to further
undermine their credibility.

3

In a related claim, Phillips argues that the State used the
jailhouse informants to elicit testimony from Phillips after he
asserted his right to counsel, violating his rights under United
States v. Henry, 447 U.S. 264, 100 S.Ct. 2183, 65 L.Ed.2d
115 (1980). This claim is without merit, as Phillips has made
no showing that the informants were state agents when they

Phillips next claims that counsel was ineffective for failing
to investigate the jailhouse informants, for failing to file a
motion to suppress, for failing to move for a change of venue,
for failing to conduct an appropriate voir dire, for failing to
obtain or consult with experts, for failing to object to Phillips'
absence from certain proceedings, for failing to adequately
cross-examine witnesses, and for failing to object to hearsay,
lay opinions, and improper comments during the prosecutor's
closing argument. We find these claims to be conclusory and
summarily reject them. Many of these claims are exactly the
type of hindsight second-guessing that Strickland condemns,
and even those matters asserted as significant “omissions”
would have been mere exercises in futility, with no legal basis.
Accordingly, having found that Phillips has demonstrated
neither deficient performance nor prejudice, we reject his
claim that trial counsel was ineffective at the guilt phase.

talked with him,2 that they in any way attempted to elicit
information about the crimes, or that the State had anything to
do with placing these persons in a cell with Phillips in order
to obtain information.
2

Although William Scott was a state agent when he
attempted to elicit information from Phillips' family,
this action in no way implicated Phillips' rights. The
circumstances of this incident were not hidden by the
State, as Scott discussed the incident in his pretrial
deposition.

Phillips next argues that his trial counsel was ineffective
at the guilt phase. In order to prevail on this claim, Phillips
must demonstrate that counsel's performance was deficient
and that there is a reasonable probability that the result of
the proceeding would have been different absent the deficient
performance. Strickland v. Washington, 466 U.S. 668, 104
S.Ct. 2052, 80 L.Ed.2d 674 (1984).
Phillips bases his claim on several alleged actions which
counsel failed to take. First, Phillips contends that counsel
should have obtained a competency evaluation before trial.
In support of this allegation, *782 Phillips presented the
testimony of two forensic psychology experts, who stated
that Phillips was not competent at the time of his trial. In
rebutting this claim, the State presented the testimony of two
experts who opined that Phillips was competent at trial, and
the testimony of Phillips' counsel, who stated that there was
absolutely no reason to doubt Phillips' competence at the time
of trial.3 The State also presented notes and letters written by
Phillips at the time of trial which indicated overall intellectual
functioning and an understanding of the case against him. The
circuit court found that Phillips was competent at trial and that
counsel was not ineffective for failing to have his competency
evaluated. We find competent, substantial evidence to support
the circuit court's finding on this issue.

Phillips places much emphasis on counsel's statements
that Phillips was an “idiot.” Counsel explained that this
statement did not reflect his feelings about Phillips'
mental capacity, but rather about his tendency to take
actions which sabotaged his own case, such as bragging
about the crime to other inmates.

We turn now to Phillips' claims regarding the sentencing
phase of his trial. Phillips first argues that his trial counsel
was ineffective at sentencing. Counsel testified at the
postconviction hearing that he did virtually no preparation for
the penalty phase. The only testimony presented in mitigation
was that of Phillips' mother, who testified that Phillips was
a good son who tried to help her when he was not in
prison. The State has conceded that counsel's performance
was deficient at the penalty phase, but contends that the
deficient performance did not prejudice Phillips, as he would
have been sentenced to death anyway. The circuit court agreed
with the State.
At the postconviction proceeding, Phillips introduced a
large amount of mitigating evidence through the testimony
of relatives and friends of the family, who described
Phillips' poor childhood, and through the testimony of expert
witnesses, who described Phillips' mental and emotional
deficiencies.
Phillips' mother, brother, and sister testified that Phillips
grew up in poverty. His parents were migrant workers who
often left the children unsupervised. Phillips' father physically
abused him, and physically abused Phillips' mother in front
of the children. Phillips was a withdrawn, quiet child with no

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

104a

Phillips v. State, 608 So.2d 778 (1992)
17 Fla. L. Weekly S595

friends. When he was thirteen or fourteen, Phillips was shot
in the head and taken to the hospital.
The State argues that this childhood evidence is entitled to
little weight, since Phillips was thirty-six years old at the
time he committed this crime and had numerous chances
to rehabilitate himself by then. Although it is true that this
evidence is far less compelling as mitigation in light of
Phillips' age, this does not change the fact that it was relevant,
admissible evidence that should have been presented to the
jury. It cannot be seriously argued that the admission of
this evidence could have in any way affirmatively damaged
Phillips' case.
More compelling evidence was presented by Phillips'
experts. These experts testified that Phillips is emotionally,
intellectually, *783 and socially deficient, that he has
lifelong deficits in his adaptive functioning, that he is
withdrawn and socially isolated, that he has a schizoid
personality, and that he is passive-aggressive. Phillips' IQ
was found to be between seventy-three and seventy-five, in
the borderline intelligence range. Both experts concluded that
Phillips falls under the statutory mitigating circumstances of
extreme emotional disturbance and an inability to conform his
conduct to the requirements of the law.4 They also opined that
Phillips did not have the capacity to form the requisite intent
to fall under the aggravating factors of cold, calculated, and
premeditated or heinous, atrocious, or cruel.5
4

§ 921.141(6)(b), (f), Fla.Stat. (1981).

5

§ 921.141(5)(i), (h), Fla.Stat. (1981).

Again, the State contends that this mitigation is not
sufficiently compelling to demonstrate prejudice. However,
this testimony provides strong mental mitigation and was
essentially unrebutted. The testimony of the State experts
related solely to the issue of competency. While these experts
testified that they did not believe Phillips had significant
mental or emotional disorders, they offered no opinion as to
the applicability of the statutory mental mitigators, and even
these experts agreed that Phillips' intellectual functioning
is at least low average and possibly borderline retarded.
Accordingly, even giving full credit to the testimony of
the State's experts there was significant, unrebutted mental
mitigation which should have been considered by the jury.6

6

While the circuit judge ruled against Phillips on the
competency claim, he never found as a factual matter that
no mental mitigation was established.

The jury vote in this case was seven to five in favor
of a death recommendation. The swaying of the vote of
only one juror would have made a critical difference here.
Accordingly, we find that there is a reasonable probability that
but for counsel's deficient performance in failing to present
mitigating evidence the vote of one juror would have been
different, thereby changing the jury's vote to six to six and
resulting in a recommendation of life reasonably supported
by mitigating evidence. Having demonstrated both deficient
performance and prejudice, Phillips is entitled to relief on his
claim of ineffective assistance of counsel at the sentencing
phase of his trial. Given our resolution of this issue, it is
unnecessary for us to address the remainder of Phillips' claims
of error in his sentencing.7
7

Phillips argues: 1) comments by the court and prosecutor
diminished the jury's sense of responsibility for the
sentencing decision; 2) trial counsel was ineffective for
failing to object to a jury instruction which shifted
the burden of proof at sentencing to Phillips; and
3) trial counsel was ineffective for failing to object
to inconsistent jury instructions regarding the vote
necessary for a life recommendation.

For the foregoing reasons, the circuit court's order is affirmed
in part and reversed in part, the sentence of death is vacated,
and the case is remanded for a new sentencing proceeding
before a jury.
It is so ordered.

BARKETT, C.J., and OVERTON, GRIMES, KOGAN and
HARDING, JJ., concur.
SHAW, J., concurs in result only.
McDONALD, J., concurs in part and dissents in part with an
opinion.
McDONALD, Justice, concurring in part, dissenting in part.
I concur in the denial of relief to Phillips on the guilt phase
of his trial, but would also deny relief on the sentence. I agree
with the trial judge when he determined:

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

105a

Phillips v. State, 608 So.2d 778 (1992)
17 Fla. L. Weekly S595

Based on the facts surrounding the murder, this Court finds
that there is no reasonable probability that the evidence of a
troubled childhood and limited mental capacity would have
altered the jury's decision and certainly not this Court's

decision. Since Phillips has not established prejudice, he is
not entitled to relief on this claim.
All Citations
608 So.2d 778, 17 Fla. L. Weekly S595

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Phillips v. State, 476 So.2d 194 (1985)

APPENDIX J

10 Fla. L. Weekly 501

KeyCite Red Flag - Severe Negative Treatment
Abrogation Recognized by Jones v. State, Fla., November 12, 1999

476 So.2d 194
Supreme Court of Florida.

Harry PHILLIPS, Appellant,
v.
STATE of Florida, Appellee.
No. 64883.
|
Aug. 30, 1985.
|
Rehearing Denied Oct. 28, 1985.
Synopsis
Defendant was convicted before the Circuit Court, Dade
County, Arthur I. Snyder, J., of first-degree murder and
sentenced to death. On his appeal, the Supreme Court, Adkins
J., held that: (1) there was no error in allowing State to
elicit testimony concerning prior shooting incident at home
of probation officers; (2) testimony of prosecution witness,
a fellow inmate, was relevant to discredit defendant's alibi
and to explain context of an incriminating admission, and
thus its admission at trial was not error; (3) evidence was
sufficient to support finding that murder was especially
heinous, atrocious or cruel; and (4) evidence was sufficient
to support finding that murder was committed in a cold,
calculated and premeditated manner.
Affirmed.
Attorneys and Law Firms
*195 Eric Wm. Hendon, Miami, for appellant.
Jim Smith, Atty. Gen., and Michael J. Neiman, Asst. Atty.
Gen., Miami, for appellee.
Opinion
ADKINS, Justice.
This case is before the Court on appeal from a judgment of
conviction of first-degree murder for which a sentence of
death was imposed. We have jurisdiction. Art. V, § 3(b)(1),
Fla. Const. We affirm the conviction and sentence.

106a

In the evening of August 31, 1982, witnesses heard several
rounds of gunfire in the vicinity of the Parole and Probation
building in Miami. An investigation revealed the body of
Bjorn Thomas Svenson, a parole supervisor, in the parole
building parking lot. Svenson was the victim of multiple
gunshot wounds. There apparently were no eyewitnesses to
the homicide.
*196 As parole supervisor, the victim had responsibility
over several probation officers in charge of appellant's parole.
The record indicates that for approximately two years prior to
the murder, the victim and appellant had repeated encounters
regarding appellant's unauthorized contact with a probation
officer. On each occasion, the victim advised appellant to
stay away from his employees and the parole building unless
making an authorized visit. After one incident, based on
testimony of the victim and two of his probation officers,
appellant's parole was revoked and he was returned to prison
for approximately twenty months.
On August 24, 1982, several rounds of gunfire were shot
through the front window of a home occupied by the
two probation officers who had testified against appellant.
Neither was injured in the incident, for which appellant was
subsequently charged.
Following the victim's murder, appellant was incarcerated for
parole violations. Testimony of several inmates indicated that
appellant told them he had killed a parole officer. Appellant
was thereafter indicted for first-degree murder.
Appellant's first point on appeal claims error in allowing the
state to elicit testimony concerning a collateral crime, i.e., the
August 24th shooting incident at the home of the probation
officers. The trial court denied appellant's motion in limine
as it related to that shooting. However, appellant failed to
object when the collateral crimes testimony was admitted and
thus did not preserve the issue for appellate review. German
v. State, 379 So.2d 1013 (Fla. 4th DCA), cert. denied, 388
So.2d 1113 (1980). Even assuming proper objection had been
made, evidence of the prior shooting was relevant to prove
motivation and intent. § 90.404(2)(a), Fla.Stat. (1983). See
also Herzog v. State, 439 So.2d 1372 (Fla.1983).
Appellant next claims that certain testimony of a prosecution
witness, a fellow inmate, deprived him of a fair trial
by provoking the jurors' hostility toward appellant. This
testimony included certain racial slurs, attributed to appellant,
regarding the victim as well as reference to the victim's

WESTlAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

107a

Phillips v. State, 476 So.2d 194 (1985)
10 Fla. L. Weekly 501

grieving relatives. Appellant failed to object to this testimony
at trial, however, and therefore may not raise the issue
on appeal. Herzog v. State. Even if preserved for review,
this testimony was relevant to discredit appellant's alibi
and to explain the context of an incriminating admission;
consequently, its admission at trial was not error.
Appellant next contends that the trial court erred in
refusing to charge the jury with his requested instruction on
alibi. Appellant requested Florida Standard Jury Instruction
(Criminal) 2.10(a) (1981), purportedly to avoid confusing the
jury as to the standard of proof necessary to establish an
alibi. The court refused, instructing the jury instead with the
appropriate instruction from the current Florida Standard Jury
Instructions. We uphold the trial court's action, for appellant
has not shown a palpable abuse of that court's discretion in
refusing to give the old jury instruction. See Williams v. State,
437 So.2d 133 (Fla.1983), cert. denied, 466 U.S. 909, 104
S.Ct. 1690, 80 L.Ed.2d 164 (1984).
The trial court found four statutory aggravating circumstances
applicable in sentencing appellant to death: the murder
was committed while appellant was under a sentence of
imprisonment, appellant was previously convicted of another
felony involving the use of violence, the murder was
especially heinous, atrocious or cruel, and was committed
in a cold, calculated and premeditated manner. Appellant
challenges the court's finding of the latter two circumstances.
We find that contention without merit.
The record in this case amply supports the finding that the
victim's murder was especially heinous, atrocious or cruel.
The victim was stalked by appellant, shot twice in the chest
and fled a short distance before being killed by repeated shots
in the head and back. The mindset or mental anguish of the
victim is an important factor in determining whether this
aggravating *197 circumstance applies. Jennings v. State
453 So.2d 1109 (Fla.1984), vacated on other grounds, 470
U.S. 1002, 105 S.Ct. 1351, 84 L.Ed.2d 374 (1985). Based
upon the evidence presented, the trial court correctly surmised
End of Document

that between the two vollies of gunfire the victim must have
agonized over his ultimate fate and properly considered this
circumstance in the sentencing process. See Francois v. State,
407 So.2d 885 (Fla.1981), cert. denied, 458 U.S. 1122, 102
S.Ct. 3511, 73 L.Ed.2d 1384 (1982). Appellant correctly
contends that lack of remorse is not a relevant consideration in
the finding of an aggravating circumstance. Pope v. State, 441
So.2d 1073 (Fla.1984). Disregarding any possible language
to that effect in the sentencing order, however, the evidence
was sufficient to prove this factor beyond a reasonable doubt.
The record likewise amply supports the trial court's finding
that this murder was committed in a cold, calculated and
premeditated manner. Appellant waited for the victim to leave
work, confronted him in the parking lot and shot him twice.
The victim managed to flee approximately one hundred feet
before he was cut down by gunfire to his head and back. In
order for all of the shots to be fired appellant had to reload his
revolver, affording him time to contemplate his actions and
choose to kill his victim. These facts are sufficient to show the
heightened premeditation for imposition of this aggravating
factor. Herring v. State, 446 So.2d 1049 (Fla.), cert. denied,
469 U.S. 989, 105 S.Ct. 396, 83 L.Ed.2d 330 (1984); Mills
v. State, 462 So.2d 1075 (Fla.), cert. denied, 473 U.S. 911,
105 S.Ct. 3538, 87 L.Ed.2d 661 (1985); Troedel v. State, 462
So.2d 392 (Fla.1984).
The judgment of conviction of murder in the first degree and
sentence of death are affirmed.
It is so ordered.

BOYD, C.J., and OVERTON, ALDERMAN, McDONALD,
EHRLICH and SHAW, JJ., concur.
All Citations
476 So.2d 194, 10 Fla. L. Weekly 501

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

